<html>
<title> - EXAMINING THE FAILURES OF THE TRUMP ADMINISTRATION'S INHUMANE FAMILY SEPARATION POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 EXAMINING THE FAILURES OF THE TRUMP ADMINISTRATION'S INHUMANE FAMILY 
                           SEPARATION POLICY

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2019

                               __________

                            Serial No. 116-3


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce
                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                             __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-404 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
                       
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
              Subcommittee on Oversight and Investigations

                        DIANA DeGETTE, Colorado
                                  Chair
JAN SCHAKOWSKY, Illinois             BRETT GUTHRIE, Kentucky
JOSEPH P. KENNEDY III,                 Ranking Member
    Massachusetts, Vice Chair        MICHAEL C. BURGESS, Texas
RAUL RUIZ, California                DAVID B. McKINLEY, West Virginia
ANN M. KUSTER, New Hampshire         H. MORGAN GRIFFITH, Virginia
KATHY CASTOR, Florida                SUSAN W. BROOKS, Indiana
JOHN P. SARBANES, Maryland           MARKWAYNE MULLIN, Oklahoma
PAUL TONKO, New York                 JEFF DUNCAN, South Carolina
YVETTE D. CLARKE, New York           GREG WALDEN, Oregon (ex officio)
SCOTT H. PETERS, California
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     2
    Prepared statement...........................................     4
Hon. Brett Guthrie, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................    10
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    11
    Prepared statement...........................................    13
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, prepared statement.............................    14

                               Witnesses

Kathryn A. Larin, Director, Education, Workforce, and Income 
  Security, Government Accountability Office.....................    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................   231
Rebecca Gambler, Director, Homeland Security and Justice, 
  Government Accountability Office \1\
Ann Maxwell, Assistant Inspector General, Office of Evaluation 
  and Inspections, Office of Inspector General, Department of 
  Health and Human Services......................................    40
    Prepared statement...........................................    42
    Answers to submitted questions...............................   233
Jonathan White, Commander, United States Public Health Service 
  Commissioned Corps, Department of Health and Human Services....    49
    Prepared statement...........................................    52
    Answers to submitted questions...............................   238
Lee Gelernt, Deputy Director, Immigrants' Rights Project, 
  American Civil Liberties Union.................................    97
    Prepared statement...........................................   100
    Answers to submitted questions...............................   274
Jennifer Podkul, Senior Director for Policy and Advocacy, Kids in 
  Need of Defense................................................   113
    Prepared statement...........................................   115
Julie M. Linton, M.D., Cochair, Immigrant Health Special Interest 
  Group, American Academy of Pediatrics..........................   125
    Prepared statement...........................................   127
Cristina Muniz de la Pena, Ph.D., Terra Firma Mental Health 
  Director, Center for Child Health and Resiliency, on behalf of 
  the American Psychological Association.........................   134
    Prepared statement...........................................   136

                              ----------

\1\ Ms. Gambler did not offer oral testimony or submit a prepared 
statement for the record.
Dona Abbott, Vice President of Refugee and Immigrant Services, 
  Bethany Christian Services.....................................   144
    Prepared statement...........................................   146
    Answers to submitted questions...............................   277
Jack P. Shonkoff, M.D., Director, Center on the Developing Child 
  at Harvard University..........................................   149
    Prepared statement...........................................   151

                           Submitted Material

Letter of June 29, 2018, from Mr. Walden, et al., to Alex M. Azar 
  II, Secretary, Department of Health and Human Services, 
  submitted by Mr. Walden........................................   200
Report by Committee Republicans, ``CODEL to the United States-
  Mexico Border,'' July 12, 2018, submitted by Mr. Walden........   207
Article of January 29, 2019, ``I've fought sex trafficking as a 
  DHS special agent--We need to build the wall for the 
  children,'' by Timothy Ballard, FoxNews.com, submitted by Mr. 
  Carter.........................................................   220
Letter of January 18, 2019, from Mr. Pallone and Ms. DeGette, to 
  Alex M. Azar, Secretary, Department of Health and Human 
  Services, submitted by Ms. DeGette.............................   222
Letter of June 14, 2018, from Jessica Henderson Daniel, 
  President, and Arthur C. Evans, Jr., Chief Executive Officer, 
  American Psychological Association, to President Donald Trump, 
  submitted by Ms. DeGette.......................................   229

 
 EXAMINING THE FAILURES OF THE TRUMP ADMINISTRATION'S INHUMANE FAMILY 
                           SEPARATION POLICY

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2019

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:33 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Diana DeGette (chair of the subcommittee) presiding.
    Members present: Representatives DeGette, Schakowsky, 
Kennedy, Ruiz, Kuster, Castor, Sarbanes, Tonko, Clarke, Peters, 
Pallone (ex officio), Guthrie (subcommittee ranking member), 
Burgess, McKinley, Griffith, Brooks, Mullin, Duncan, and Walden 
(ex officio).
    Also present: Representatives Cardenas, Veasey, Barragan, 
and Soto.
    Staff present: Mohammed Aslami, Counsel; Kevin Barstow, 
Chief Oversight Counsel; Jacquelyn Bolen, Professional Staff 
Member; Jesseca Boyer, Professional Staff Member; Jeffrey C. 
Carroll, Staff Director; Waverly Gordon, Deputy Chief Counsel; 
Tiffany Guarascio, Deputy Staff Director; Zach Kahan, Outreach 
and Member Service Coordinator; Chris Knauer, Oversight Staff 
Director; Jourdan Lewis, Policy Analyst; Perry Lusk, GAO 
Detailee; Kevin McAloon, Professional Staff Member; Joe 
Orlando, Staff Assistant; Kaitlyn Peel, Digital Director; Tim 
Robinson, Chief Counsel; Andrew Souvall, Director of 
Communications, Outreach, and Member Services; C. J. Young, 
Press Secretary; Jen Barblan, Minority Chief Counsel, Oversight 
and Investigations; Mike Bloomquist, Minority Staff Director; 
Adam Buckalew, Minority Director of Coalitions and Deputy Chief 
Counsel, Health; Jordan Davis, Minority Senior Advisor; 
Brittany Havens, Minority Professional Staff Member, Oversight 
and Investigations; Samuel Kanusher, Minority Intern, Oversight 
and Investigations; Peter Kielty, Minority General Counsel; 
Ryan Long, Minority Deputy Staff Director; Brannon Rains, 
Minority Staff Assistant; Zack Roday, Minority Director of 
Communications; and Peter Spencer, Minority Senior Professional 
Staff Member, Energy.
    Ms. DeGette. The committee will come to order.
    Good morning. This is the first hearing of the Oversight 
and Investigations Subcommittee of Energy and Commerce for the 
116th Congress.
    I want to start out by thanking all of the new members of 
the Oversight Subcommittee, which has a grand tradition in this 
Congress. I also want to thank our brand-new ranking member, 
Congressman Guthrie, for joining us today. This committee has a 
long history of bipartisan work on many, many issues affecting 
this country. I know we are going to work together to do true 
bipartisan oversight. I look forward to working with everyone 
on this subcommittee on bipartisan investigations and finding 
solutions to ultimately improve our Government.
    Mr. Guthrie, I would like to yield to you for a minute, if 
you would like to make any brief remarks.
    Mr. Guthrie. Thank you very much for being here.
    And I want to congratulate you on your being the chair and 
using the gavel. You have got a good start to it. So, it is 
good to have you here.
    I wasn't on this subcommittee before, but my understanding 
is it has always tried to work, where they can, on a 
bipartisanship basis. And you are one of my good friends here 
in Congress. And so, I look forward to the opportunity to work 
with you----
    Ms. DeGette. Thank you.
    Mr. Guthrie [continuing]. And work together with the 
committee.
    Ms. DeGette. Thanks, Mr. Guthrie.
    Today the Subcommittee on Oversight and Investigations is 
holding a hearing entitled, ``Examining the Failures of the 
Trump administration's Inhumane Family Separation Policy''. The 
purpose of today's hearing is to examine the Department of 
Health and Human Services' response to the administration's 
zero-tolerance policy, efforts to reunify children separated 
from parents, as well as the health and well-being of those 
children.
    The Chair now recognizes herself for the purposes of an 
opening statement.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Today we take a look at the Trump administration's ill-
conceived and, frankly, shameful family separation policy that 
led to thousands of children being separated from their parents 
at the border. It has been now nearly a year since this cruel 
policy was put in place, and we still have many unanswered 
questions. To be clear, what happened to these children should 
never happen in this country.
    On behalf of the American people, we are here today to 
understand exactly what happened, why it happened, and what 
needs to be done to make sure that it never happens again. We 
also want to know the extent of the harm that these separations 
may have caused these children and families.
    When we talk about family separations, it is important to 
keep in mind that these are real kids. These are real families 
who were forcibly torn apart and they were kept apart by our 
Government. Because of a policy put in place by this 
administration, unnecessary long-term harm may have been 
inflicted on thousands of children.
    We know from decades of research that childhood trauma such 
as family separations can have serious and longstanding 
consequences for children. This research demonstrates that the 
toxic stress that comes from separating a child from their 
parents can cause irreversible harm to children. It can 
literally disrupt their brains and other biological systems. We 
also know that separating kids from their parents can cause a 
host of other long-term mental and physical health problems.
    As noted by the American Psychological Association, quote, 
``These problems can include severe psychological distress, 
including PTSD, sleep disturbances, withdrawal, substance use, 
aggressive behavior, and decline in educational achievement. 
The longer the parent and child are separated, the more severe 
some of these symptoms may become.''
    Like many Members of Congress, I visited some of the 
facilities where these separated children were being housed. It 
was heartbreaking. I will never forget what I saw that day. I 
will never forget the looks in the mothers' eyes when they told 
me that they had no idea where their children were. I will 
never forget the children who had no idea where their mom or 
dad were. All I could think of when I was standing there was, 
as a nation, we are so much better than that. And that is why 
we are here today.
    Part of the failure of this administration's tragic 
separation policy was not only its cruelty, but its incompetent 
implementation. For example, despite the fact that the Office 
of Refugee Resettlement, known as ORR, would be responsible for 
caring for a huge influx of separated children, the Government 
Accountability Office found that key officials within the 
agency were apparently given no advance knowledge of the now-
infamous April 2018 zero-tolerance memo, which led to thousands 
of separations, and therefore they didn't plan for the sudden 
influx that was about to come. As a result, ORR, tasked with a 
challenging mission, suddenly found itself inundated with 
thousands of forcibly separated children with no place to 
accommodate them at all.
    By the summer of 2018, things got even worse. After a 
Federal judge ordered that thousands of children be unified 
with their parents, the Department of Health and Human Services 
was forced to pull together over 100 staff to manually pore 
through the thousands of case files and endless databases to 
try to identify which children and parents had been separated. 
It is as if nobody ever discussed how reunifications would 
happen before this plan was launched, and it probably didn't 
happen.
    In addition to this emergency HHS team, the administration 
also sought the help of NGOs, like the ACLU and KIND, to locate 
families that had been separated, including parents that had 
already been deported without their children.
    Then, the HHS Office of Inspector General released a new 
report last month that found that thousands more children may 
have been separated from their parents than previously reported 
in an influx that began in early 2017, before the 
administration's zero-tolerance policy was announced.
    Now, while I understand this family separation policy 
didn't originate at HHS, that doesn't relieve the Department 
from having to answer some key questions. For example, we need 
to know what role HHS leaders played in formulating this 
policy, whether they made any effort to stop it, and whether 
they raised any concerns about the harm it would do to the 
children who were separated. There is no evidence that HHS 
leaders ever tried to stop this abhorrent policy.
    As the agency dedicated to health and welfare of children, 
we need to know why. One could argue that it was HHS's duty to 
stop this harmful policy. And some wonder how much longer this 
would have gone on if it weren't for the action of many NGOs 
that became active on this matter, including some who will 
testify today. We want to know exactly how many kids this 
administration has separated from their families, and we need 
to know what is being done to reunify each and every one of 
these families.
    Commander White, I want to say to you, I have got enormous 
respect for the mission of ORR and for you. I think the 
facilities around the country are dedicated to serving 
vulnerable children, and they are trying to provide high-
quality care. I know our ORR has a difficult mission, and the 
many charitable organizations that work with ORR to take care 
of unaccompanied children do important work.
    But you are going to hear some harsh comments today. And I 
am sorry that Secretary Azar is passing the buck to you, when 
we asked him to be right here in your seat today. The bottom 
line is the administration's policy of separating children from 
their parents at the border, and the chaos it unleashed, has 
left scars that will never heal. We need to know how this 
policy was created, and we need to know what you plan to do 
about it.
    We are a nation of immigrants. We are a nation that offers 
care to the needy, and we are a nation of compassionate people. 
We are not a nation that rips families apart, and we need to 
stop this for once and for all and get these kids back with 
their parents.
    [The prepared statement of Ms. DeGette follows:]

                Prepared statement of Hon. Diana DeGette

    Today, we take a look at the Trump administration's ill-
conceived--and, frankly, shameful--family separation policy 
that led to thousands of kids being separated from their 
parents at the border.
    It has been nearly a year since this cruel policy was put 
in place, and we still have many unanswered questions.
    To be clear, what happened to these children should never 
have happened in this country.
    On behalf of the American people, we are here today to 
understand exactly what happened, why it happened, and what 
needs to be done to make sure it never happens again.
    We also want to know the extent of the harm that these 
separations may have caused these children and families.
    When we talk about family separations, it's important to 
keep in mind that these are real kids, and real families, who 
were forcibly separated and kept apart by our Government.
    Because of a policy put in place by this administration, 
unnecessary long-term harm may have been inflicted on thousands 
of children.
    We know from decades of research that childhood trauma such 
as family separations can have serious and long-lasting 
consequences for children.
    This research demonstrates that the ``toxic stress'' that 
comes from separating a child from their parents can cause 
irreversible harm to children. It can literally disrupt their 
brains and other biological systems.
    We also know that separating kids from their parents can 
cause a host of other long-term mental and physical health 
problems.
    As noted by the American Psychological Association [quote], 
``These problems can include severe psychological distress, 
including PTSD, sleep disturbances, withdrawal, substance use, 
aggressive behavior and decline in educational achievement. The 
longer the parent and child are separated, the more severe some 
of these symptoms may become.''
    Like many Members of Congress, I visited some of the 
facilities where these separated children were being housed.
    It was heartbreaking. I'll never forget what I saw that 
day. I'll never forget the look in those mothers' eyes as they 
told me they had no idea where their children were. I'll never 
forget the children who had no idea where their mom or dad 
were. All I could think while I was there was that we, as a 
nation, are better than this.
    And, that's why we are here today.
    Part of the failure of this administration's tragic family 
separation policy was not only its cruelty, but its incompetent 
implementation.
    For example, despite the fact that the Office of Refugee 
Resettlement--known as ORR--would be responsible for caring for 
a huge influx of separated children, the Government 
Accountability Office found that key officials within that 
agency were apparently given no advanced knowledge of the now-
infamous April 2018 ``zero tolerance'' memo, which led to 
thousands of separations, and therefore didn't plan for the 
sudden influx that was about to come.
    As a result, ORR, already tasked with a challenging 
mission, suddenly found itself inundated with thousands of 
forcibly separated children--with no plan in place to 
accommodate them all.
    By summer of 2018, things got even worse.
    After a Federal judge ordered that thousands of children be 
reunified with their parents, the Department of Health and 
Human Services was forced to pull together over 100 staff to 
manually pore through thousands of case files and endless 
databases to try to identify which children and parents had 
been separated. It's as if nobody discussed how reunifications 
would occur before this plan was launched.
    In addition to this emergency HHS team, the administration 
also sought the help of NGOs such as the ACLU and KIND to 
locate families that had been separated, including parents who 
had already been deported without their children.
    Then the HHS Office of Inspector General released a new 
report last month that found thousands more children may have 
been separated from their parents than previously reported, in 
an influx that began in early 2017--before the administration's 
``zero-tolerance'' policy was announced.
    While I understand that this family separation policy 
didn't originate at HHS, that doesn't relieve the Department 
from having to answer to some key questions.
    For instance, we need to know what role HHS leaders played 
in forming this policy, whether they made any effort to stop 
it, and whether they raised any concerns about the harm it 
would do to the children who were separated.
    There is no evidence that HHS leaders ever tried to stop 
this abhorrent policy. As the agency dedicated to the health 
and welfare of children, we want to know: Why?
    One could argue that it was HHS's duty to stop this harmful 
policy. And some wonder how much longer this would have gone on 
if not for the action of many of the NGOs that became active on 
this matter, including some who you will meet on the second 
panel.
    We want to know exactly how many kids this administration 
has separated from their families. And we need to know exactly 
what's being done to reunify each and every one of them.
    Commander White, I have respect for the mission of ORR, and 
the facilities around the country that are dedicated to serving 
vulnerable children and providing high-quality care. ORR has a 
difficult mission and the many charitable organizations that 
work with ORR to take care of unaccompanied children do 
critically important work.
    But you are going to hear some angry comments today, and it 
is disappointing that Secretary Azar is passing the buck to 
you, when it should be him in your seat right now.
    The bottom line is this: This administration's policy of 
separating children from their parents at the border--and the 
unmitigated chaos that it unleashed--has likely left scars that 
may never heal. We need to know how this policy was created, 
and whether problems--such as the agency's apparent inability 
to track which children were separated from a parent at the 
border--remain unresolved.
    We are a nation of immigrants. We are a nation that offers 
care to the needy and helps the most vulnerable. We are nation 
of compassionate, caring people.
    We are not a nation that rips families apart just to send a 
message to the rest the world--and we must ensure that we never 
allow ourselves to become such ever again.

    Ms. DeGette. At this time, the Chair will recognize the 
ranking member of the subcommittee, Mr. Guthrie, for purposes 
of an opening statement.

 OPENING STATEMENT OF HON. BRETT GUTHRIE, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Guthrie. Thank you, Chair DeGette, for holding this 
hearing. And again, congratulations on being chair of Oversight 
and Investigations. As you know, this committee has a history 
of working together on important investigations, and often on a 
bipartisan basis. I am sure we will find areas we can do that 
as we move forward.
    But, as we begin the hearing on family separation policy at 
the border, I want to be clear. I support strong enforcement of 
our Nation's borders, but I do not support separating children 
from their parents. Between the violence they face in their 
home country and on their harrowing journeys to the U.S., these 
children face severely traumatic experiences even before 
arriving here. And under no circumstances should we add to that 
trauma by separating them from their parents.
    This committee's oversight over the care and treatment of 
unaccompanied alien children by the Department of Health and 
Human Services, as well as the sponsorship process for 
unaccompanied children, extends back to 2014 with the first 
major influx of children and family units coming across our 
southern border.
    This overwhelmed the previous administration and resulted 
in children being placed with traffickers within the United 
States. Because of the work done by this committee and others, 
reforms were made to the Office of Refugee Resettlement 
program, including improving the medical care available to 
children while in HHS care and custody.
    In June, following reports that the administration had 
adopted a zero-tolerance policy for immigrants entering the 
U.S. and was separating children from their parents, all of the 
Republican members of this committee sent a letter to HHS 
expressing our belief that children should not be arbitrarily 
separated from their parents, and that all children in HHS care 
should be properly cared for.
    We agree with the majority that there are questions for the 
administration regarding the creation and implementation of 
zero-tolerance policy. But I would point out that the Justice 
and Homeland Security Departments are best positioned to speak 
directly to the policy itself.
    As noted by the extensive oversight this committee has 
conducted over 5 years, we deeply care about the health and 
well-being of these children. And that is why we invited HHS to 
be here today to testify on the first panel regarding the 
agency's role in caring for affected children.
    Commander Jonathan White is a career civil servant and has 
long experience working with unaccompanied children in the 
Office of Refugee Resettlement. After the announcement of the 
zero-tolerance policy, and subsequent ruling from a Federal 
district court judge ordering the reunification of children 
separated from their parents, HHS officials, including 
Commander White, worked tirelessly to reunify the children that 
were separated from their parents, all while they continued to 
care for and work on placement of thousands of traditional 
unaccompanied children through the standard sponsor process.
    While we have important questions for HHS with respect to 
the challenges and ramifications of a policy that was created 
by the Department of Justice and implemented by the Department 
of Homeland Security, I want to underscore that HHS did not 
separate a single child. Their sole role and responsibility was 
to care for the children while they were in their custody and 
work to reunify children with the parents from whom they were 
separated. If that was not possible due to a risk of the 
child's safety or the wishes of the parent for their child to 
remain in the United States, HHS worked to place the child with 
the most appropriate sponsor.
    Without the other departments here, we simply cannot have a 
full conversation about the creation of, planning for, and 
implementation of the zero-tolerance initiative with the 
witnesses before us today.
    We also invited Bethany Christian Services to testify on 
the second panel. Bethany is a subgrantee that provides direct 
care for unaccompanied children in HHS custody. They also care 
for 108 children who were separated as a result of the zero-
tolerance policy. Because of their role in caring for 
unaccompanied children, Bethany has practical insight into the 
care for both traditional unaccompanied children and those who 
were separated, and can speak to the trauma these children have 
endured in home country on their journey to the U.S., as well 
as the effects of zero-tolerance policy.
    I thank our witnesses for being here today and being part 
of this important discussion.
    And I yield to the Chair.
    [The prepared statement of Mr. Guthrie follows:]

                Prepared statement of Hon. Brett Guthrie

    Thank you, Chair DeGette, for holding this hearing. 
Congratulations on becoming chair of the Oversight and 
Investigations Subcommittee. This subcommittee has had a 
longstanding tradition of working on important investigations, 
often on a bipartisan basis, and I look forward to working with 
you in this new role and hopefully continuing that tradition.
    As we begin this hearing on family separation policy at the 
border, I want to be clear: I support strong enforcement of our 
Nation's borders, but I do not support separating children from 
their parents. Between the violence they face in their home 
country and on their harrowing journeys to the U.S., these 
children face severely traumatic experiences before even 
arriving here--and under no circumstances should we add to that 
trauma by separating them from their parents.
    This committee's oversight over the care and treatment of 
unaccompanied alien children by the Department of Health and 
Human Services, as well as the sponsorship process for 
unaccompanied children, extends back to 2014 with the first 
major influx of children and family units coming across our 
southern border.
    This overwhelmed the previous administration and resulted 
in children being placed with traffickers within the United 
States. Because of the work done by this committee and others, 
reforms were made to the Office of Refugee Resettlement 
program, including improving the medical care available to 
children while in HHS care and custody.
    In June, following reports that the administration had 
adopted a zero-tolerance policy for immigrants entering the 
U.S. and was separating children from their parents, all of the 
Republican members of this committee sent a letter to HHS 
expressing our belief that children should not be arbitrarily 
separated from their parents and that all children in HHS care 
should be properly cared for.
    We agree with the majority that there are questions for the 
administration regarding the creation and implementation of the 
zero-tolerance policy, though I would point out that the 
Justice and Homeland Security Departments are best positioned 
to speak directly to the policy itself. As noted by the 
extensive oversight this committee has conducted for over 5 
years, we care deeply about the health and well-being of these 
children, and that is why we invited HHS here today to testify 
on the first panel regarding the agency's role in caring for 
affected children. Commander Jonathan White is a career civil 
servant, with long experience working with unaccompanied 
children at the Office of Refugee Resettlement.
    After the announcement of the zero-tolerance policy and 
subsequent ruling from a Federal district court judge ordering 
the reunification of children separated from their parents, HHS 
officials, including Commander White, worked tirelessly to 
reunify the children that were separated from their parents, 
all while they continued to care for and work on placement of 
thousands of traditional unaccompanied children through the 
standard sponsor process.
    While we have important questions for HHS with respect to 
the challenges and ramifications of a policy that was created 
by the Department of Justice and implemented by the Department 
of Homeland Security, I want to underscore that HHS did not 
separate a single child--their sole role and responsibility was 
to care for the children while they were in their custody and 
work to reunify children with the parent from whom they were 
separated. If that was not possible due to a risk of the 
child's safety or the wishes of the parent for their child to 
remain in the United States, HHS worked to place the child with 
the most appropriate sponsor. Without the other departments 
here, we simply cannot have a full conversation about the 
creation of, planning for, and implementation of the zero-
tolerance initiative with the witnesses before us today.
    We also invited Bethany Christian Services to testify on 
the second panel. Bethany is a subgrantee that provides direct 
care for unaccompanied children in HHS custody. They also cared 
for 108 children who were separated as a result of the zero-
tolerance policy. Because of their role in caring for 
unaccompanied children, Bethany has practical insight into the 
care for both traditional unaccompanied children and those who 
were separated and can speak to the trauma these children have 
endured in home country, on their journey to the U.S., as well 
as the effects of the zero-tolerance policy.
    I thank our witnesses for being here today and being part 
of this important discussion. I yield back.

    Ms. DeGette. The gentleman yields back. The Chair will now 
recognize the chairman of the full committee, Mr. Pallone, for 
5 minutes for purposes of an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you. Thank you, Madam Chair, and thank 
you for being our chair, because I know about how effective you 
have been as the ranking member and will be even more effective 
in this position.
    The committee today is finally holding the Trump 
administration accountable for one of its worst failures. 
Yesterday marked 10 months since the Trump administration's 
cruel family separation policy was put into action. We all 
heard the horror stories of how children were ripped away from 
their parents and have seen the unforgettable images of crying 
children standing alone and mothers unable to be with their 
children. These images and stories were devastating.
    And 10 months later, we still do not know fully how this 
all happened. We do not have a full understanding of how this 
policy was created within the administration, who provided 
input, and what kind of planning took place. Most importantly, 
it will take years for us to know what long-term consequences 
these actions will have on the thousands of children and 
families affected by this policy. These children and families 
are the ones we should keep in mind today, because most of us 
cannot imagine what they have gone through.
    Now, the failures of the Trump administration's family 
separation policy were twofold. First, the policy itself was a 
failure because it was inhumane on a fundamental level. As we 
will hear from the child welfare experts on the second panel, 
family separations can never be done humanely. There are 
decades of research demonstrating that parental protection is 
critical for child development and that forced separations have 
debilitating effects and long-term consequences. This includes 
post-traumatic stress, depression, aggression, and long-term 
psychological and mental health problems. And these problems 
particularly affect young children.
    Now, to be clear, it appears the Trump administration 
policy was created by the Departments of Justice and Homeland 
Security. However, we still don't know what role, if any, HHS 
leaders played in its creation. Since HHS is tasked with caring 
for these children and ensuring their health and welfare, were 
HHS's leaders consulted when this policy was being considered? 
We need to know the answer to that question.
    The second failure of the policy was its execution. Even 
after the Trump administration decided to intentionally and 
forcibly separate children from their families, it was 
implemented with incompetence and confusion. The independent 
watchdogs on our first panel will testify about how the 
administration did not plan for this policy, and, frankly, it 
showed. GAO found that the agency had no procedures for 
reunifying families and had to make processes up on the spot, 
often with chaotic results. In some cases, the ORR shelter 
caring for the children only learned a child had been separated 
when the child told them.
    Now I am speaking from somewhat personal experience in all 
this because, on Father's Day, many of us, myself and some of 
the New York delegation, went to the Elizabeth Detention 
Center, which was a detention center near my district in New 
Jersey that was for fathers. It was only for men. But we met 
with four fathers on that day. It took us 2 or 3 hours to get 
in because they didn't want to let us in. It was one of those 
contracted, private facilities.
    And when we finally met with them, no one knew where the 
kids were, right? In other words, I talked to the guards. I 
talked to the people in charge of the facility. The fathers had 
no communications with their kids. They didn't know where the 
kids were. They had no processes, and the people in charge 
admitted there was no procedure for them to communicate with 
their kids or tell them where their kids were. And they were 
all separated in the middle of the night by surprise. They 
didn't even know that it was going to happen.
    But the worst thing of all--and I don't know if we are 
going to get into this today--was that the fathers in many 
cases were being accused of being abusive. And I felt that the 
people in charge were convinced that, just because they had 
brought their daughters or their sons--most of the cases, it 
was daughters--over the border meant that they were somehow bad 
people that were trafficking or they were abusing their kids, 
just because they had brought them over the border.
    And so, that is one of my concerns today. I don't know if 
it is going to be answered here today, but we need to get to 
the bottom of it. Does this family separation policy continue 
because, when someone comes over the border--I will use a 
father with his daughter, but we can use others--that it is 
just automatically assumed that somehow they are bad and they 
should be separated? Because separation, you think that somehow 
the parent is not doing a good job. That just can't be done 
willy-nilly as if it is OK because they are a bad person 
because they brought their kid in, because then you have all 
these negative consequences from the separation that inured 
just because someone has made that decision. And so, I am very 
concerned about what is happening now, not just what happened 
in these particular cases at the time of the zero-tolerance 
policy.
    Now, finally, Madam Chair, I have to note that the HHS 
witness today is not the person we asked to be here. I respect 
Commander White and the work he has done in response to this 
crisis. And our aim here today is not to tarnish ORR or the 
career staff who dedicated themselves to their mission of 
serving children. But I personally invited Secretary Azar to be 
here today because this committee has questions that only he 
can answer. And I am disappointed he declined our request to 
testify. However, I can announce that Secretary Azar has 
committed to coming before this committee in the coming weeks 
on the President's budget, and this will provide us an 
opportunity to ask questions about the role he played in the 
creation and implementation of the family separation policy.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today, this committee is finally holding the Trump 
administration accountable for one of its worst failures. 
Yesterday marked 10 months since the Trump administration's 
cruel Family Separation Policy was put into action. We all 
heard the horror stories of how children were ripped away from 
their parents and have seen the unforgettable images of crying 
children standing alone, and mothers unable to be with their 
children.
    These images and stories were devastating. And 10 months 
later we still do not fully know how this all happened. We do 
not have a full understanding of how this policy was created 
within the administration, who provided input, and what kind of 
planning took place. Most importantly, it will take years for 
us to know what long-term consequences these actions will have 
on the thousands of children and families affected by this 
policy. These children and families are the ones we should keep 
in mind today, because most of us cannot imagine what they have 
gone through.
    Every parent has experienced a sudden moment of fear: in 
the grocery store, or at the mall, when you turn around and 
your child isn't there. For most of us, we're lucky enough to 
turn the corner and find our child again, and that second of 
panic dissipates.
    But for thousands of families who were the victims of the 
Trump administration's family separation policy, they were 
forced to live their worst nightmare for months, with long-term 
traumatic consequences that we are only beginning to 
understand.
    The failures of this policy were twofold. First, the policy 
itself was inhumane on a fundamental level. As we will hear 
from the child welfare experts on the second panel, family 
separations can never be done humanely.
    There are decades of research demonstrating that parental 
protection is critical for child development, and that forced 
separations have ``debilitating effects'' and long-term 
consequences. This includes post-traumatic stress, depression, 
aggression, and long-term psychological and mental health 
problems. These problems particularly affect young children.
    When you walk into the lobby of the HHS headquarters here 
in Washington, there is a quote on the wall from Hubert H. 
Humphrey. It says, in part, ``the moral test of government is 
how that government treats those who are in the dawn of life--
the children.'' Well, it is indisputable that this policy 
failed that test. This administration failed the children.
    To be clear, it appears this policy was created by the 
Departments of Justice and Homeland Security. However, we still 
don't know what role, if any, HHS leaders played in its 
creation. Since HHS is tasked with caring for these children 
and ensuring their health and welfare, were HHS's leaders 
consulted when this policy was being considered? We need to 
know this answer.
    The second failure of this policy was in its execution. 
Even after the Trump administration decided to intentionally 
and forcibly separate children from their families, it was 
implemented with incompetence and confusion. The independent 
watchdogs on our first panel will testify about how the 
administration did not plan for this policy--and it showed.
    GAO found that the agencies had no procedures for 
reunifying families, and had to make processes up on the spot, 
often with chaotic results. In some cases, the ORR shelter 
caring for the children only learned a child had been separated 
when the child told them.
    Efforts to reunify children with their parents were so 
chaotic that the administration had to call in HHS's emergency 
response agency, the Assistant Secretary for Preparedness and 
Response (ASPR). This is the agency dedicated to providing 
healthcare coordination in response to disasters like 
hurricanes. It is telling that the administration had to use 
them to clean up the mess after this self-created disaster.
    Finally, I must note that the HHS witness today is not the 
person we asked to be here. I respect Commander White and the 
work he has done in response to this crisis. Our aim here today 
is not to tarnish ORR or the career staff who dedicate 
themselves to their mission of serving children. They do 
important work and we thank them.
    But I personally invited Secretary Azar to be here today, 
because this committee has questions that only he can answer. I 
am disappointed he declined our request to testify. However, I 
can announce that Secretary Azar has committed to coming before 
this committee in the coming weeks on the President's budget. 
This will provide us an opportunity to ask questions about the 
role he played in the creation and implementation of the family 
separation policy.
    Let there be no doubt that the decision by this 
administration to cruelly separate children from their parents 
is a stain on our country. We must find out how this 
administration allowed this to happen so we can ensure it is 
never repeated again.
    I yield back.

    Ms. DeGette. The Chair will now recognize the ranking 
member of the full committee, Mr. Walden, for 5 minutes for the 
purposes of an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Madam Chair, and congratulations on 
becoming chair of this very important subcommittee. I enjoyed 
working with you over the years on this subcommittee when we 
were both involved in it directly, and I know you will do a 
great job. I am glad you are doing this hearing.
    Since 2014, the committee has conducted rigorous oversight 
of issues related to unaccompanied alien children and the 
system put in place to care for these children by the 
Department of Health and Human Services' Office of Refugee 
Resettlement. In 2014, it was the first major influx of 
unaccompanied alien children and family units crossing into the 
United States. As a result of this committee's oversight then, 
improvements were made to the UAC program, but questions remain 
and we have more work to do.
    The immigration issue is complex and one that Congress and 
the country have been grappling with for decades. While I 
support strong enforcement of our Nation's borders, I want to 
make something very clear: I support keeping families together. 
Last summer, I voted to ban family separation, and I strongly 
believe that children should not be separated from their 
parents, period.
    That is why I and every Republican on this committee sent a 
letter to HHS last June expressing our belief that children 
should not be separated from their parents. In addition, our 
letter sought information from HHS to ensure that children who 
are in ORR's custody, whether they cross the border as 
unaccompanied alien children or because they cross the border 
with a family member and were subsequently separated, are 
properly cared for while they are in ORR's care.
    So, I would like to ask the Chair for unanimous consent 
that the June letter be entered into the hearing record.
    Ms. DeGette. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. It is also why I led a bipartisan delegation of 
this committee down to McAllen, Texas in July to visit and tour 
part of the Southwest border, a port of entry, a central 
processing facility operated by the U.S. Customs and Border 
Protection, a U.S. Immigration and Customs Enforcement 
detention facility, and an ORR shelter. It is also why 
committee staff has since visited an additional five Office of 
Refugee Resettlement facilities, including the temporary influx 
ORR shelter in Tornillo, Texas, that has since closed.
    I would also like to ask unanimous consent, Madam Chair, 
that a memo drafted by the Republican staff about the 
facilities our bipartisan delegation visited last July be 
entered into the record.
    Ms. DeGette. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. While the committee has conducted oversight 
over the UAC program and/or our facilities over the past 5 
years, it is critical to today's hearing to acknowledge that 
the Office of Refugee Resettlement and the role that it plays 
in caring for UACs is a vital but small part of our overall 
immigration process. ORR's and HHS's responsibility is to care 
for the children that have been transferred to their custody 
from the U.S. Department of Homeland Security and then work to 
reunify or vet and place children with a safe and appropriate 
sponsor.
    For the children who are separated from their parents, 
those separations happen because of immigration enforcement 
decisions made by the Department of Justice and carried out by 
the Department of Homeland Security. The majority's stated 
objective is to assess HHS's preparation and response to the 
zero-tolerance policy and its efforts to reunify children with 
their families. Given HHS's role in caring for and reunifying 
the children that were separated, as well as their role in 
caring for traditional unaccompanied alien children, we felt it 
was important to invite them to testify as one of our minority 
witnesses for the first panel.
    Commander, we are glad you are here.
    We greatly appreciate all of the witnesses and the work 
that you all are doing. We appreciate you appearing before us 
today.
    With that said, in order to adequately examine the zero-
tolerance policy that led to family separations, it is critical 
that the Department of Justice and the Department of Homeland 
Security also be part of this conversation.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Chair DeGette, for holding this important 
hearing today.
    Since 2014, this committee has conducted rigorous oversight 
of issues related to Unaccompanied Alien Children (UAC) and the 
system put into place to care for UACs by the Department of 
Health and Human Services' (HHS) Office of Refugee and 
Resettlement (ORR). 2014 is when the first major influx of UAC 
and family units crossing into the United States occurred. As a 
result of this committee's oversight, improvements were made to 
the UAC program, but questions remain and we have more work to 
do.
    The immigration issue is complex, and one that Congress and 
the country have been grappling with for decades. While I 
support strong enforcement of our Nation's borders, I want to 
make something very clear--I support keeping families together, 
and strongly believe that children should not be separated from 
their parents. That is why I, and every Republican member of 
this committee, sent a letter to HHS last June expressing our 
belief that children should not be separated from their 
parents. In addition, our letter sought information from HHS to 
ensure that children who are in ORR's custody--whether they 
crossed the border as an unaccompanied alien child or because 
they crossed the border with a family member and were 
subsequently separated--are properly cared for while in ORR's 
care. I'd like to ask the Chair for unanimous consent that the 
June letter be entered into the hearing record.
    It is also why I led a bipartisan delegation of Members 
down to McAllen, Texas, in July to visit and tour part of the 
Southwest border, a port of entry, a central processing 
facility operated by U.S. Customs and Border Protection (CBP), 
a U.S. Immigration and Customs Enforcement (ICE) detention 
facility, and an ORR shelter. It is also why committee staff 
have since visited an additional five ORR facilities, including 
the temporary influx ORR shelter in Tornillo, Texas, that has 
since closed. I would also like to ask for unanimous consent 
that a memo drafted by Republican staff about the facilities 
our bipartisan delegation visited last July be entered into the 
record.
    While the committee has conducted oversight over the UAC 
program and ORR facilities for the past 5 years, it is critical 
to today's hearing to acknowledge that ORR, and the role that 
it plays in caring for UACs, is a vital but small part of our 
immigration process. ORR and HHS's responsibility is to care 
for the children that have been transferred to their custody 
from the U.S. Department of Homeland Security (DHS) and then 
work to reunify or vet and place children with a safe and 
appropriate sponsor. For the children who were separated from 
their parents, those separations happened because of 
immigration enforcement decisions made by the Department of 
Justice and carried out by DHS.
    The majority's stated objective is to assess HHS' 
preparation and response to the zero-tolerance policy and its 
efforts to reunify children with their families. Given HHS' 
role in caring for and reunifying the children that were 
separated, as well as their role in caring for traditional 
UACs, we felt it was important to invite them to testify as our 
one minority witness for the first panel of today's hearing.
    We greatly appreciate the witnesses that are here appearing 
before us today. That said, in order to adequately examine the 
zero-tolerance policy that led to family separations, it is 
critical that DOJ and DHS be part of the conversation as well.
    Thank you, and I yield back.

    Mr. Walden. With that, I would yield to the gentleman from 
Texas, Dr. Burgess, the remaining.
    Mr. Burgess. Thank you, Mr. Chairman.
    And I think it is important for contextual purposes for us 
to at least acknowledge that the United States accepts over 1.1 
million people per year into the country on a legal basis, has 
done so for as long as I have been in Congress, which is over 
15 years, and that number has actually increased in the first 2 
years of the Trump administration. This makes the United States 
the most welcoming country to immigrants of all the countries 
in the world.
    In 2012, President Obama announced the Deferred Action for 
Childhood Arrivals. Shortly after that, the word on the street 
in Central American countries was that, if you can get to the 
border and arrive across the border, you can get a slip of 
paper called a ``permiso,'' and you will be allowed to stay 
and, ultimately, the President will give you amnesty. And that 
brought the onslaught in 2013-2014. I first became aware of 
this problem in 2014. I didn't even know the Office of Refugee 
Settlement existed before 2014, but I have made multiple trips 
down there.
    And let me just say, this subcommittee has a history of 
oversight that has benefitted the people who are in the custody 
of ORR. No doctor was on the staff before this subcommittee--
this subcommittee--had a briefing from the Department. This 
committee is responsible for the mental health checks that 
children get in these facilities, and this committee is 
responsible for the fact that children are given an opportunity 
for followup after they leave the facility and are placed with 
a family.
    I was horrified when I went down there that the children 
were just sent off to wherever, whoever identified themselves 
as a family member. In a different hearing, in a different 
committee, we learned that children are sometimes trafficked by 
family members.
    So, this subcommittee has a significant history of 
improving things for the children who are placed under the 
custody of ORR.
    Commander White, thank you for being here today.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    When the current immigration crisis began in 2014 under the 
Obama administration, few people knew about or understood the 
role of the Office of Refugee Resettlement within Health and 
Human Services. While Democrats seek to place blame for the 
``zero-tolerance'' of immigration law violations, all Energy 
and Commerce Republicans signed a letter supporting enforcement 
of our Nation's borders AND keeping families together. HHS is 
not responsible for and does not have jurisdiction over 
immigration policy. The Office of Refugee Resettlement has been 
on the receiving end of immigration enforcement policies from 
the beginning.
    This subcommittee has a history of being involved in the 
care of Unaccompanied Alien Children. Our oversight resulted in 
the establishment of a Division of Health for Unaccompanied 
Children and the employment of medical staff at facilities to 
test for and treat communicable diseases.
    Children are now being screened for medical, dental, and 
mental health, in addition to sexual abuse and vulnerability to 
trafficking. Previously these cases were identified through 
self-admission and children were provided a letter indicating 
their eligibility for services. In 2015, ORR implemented a 30-
day follow-up call and established a national call center for 
sponsors and children.
    With the improvements in ORR care spearheaded by this 
subcommittee, HHS is better serving the children referred to it 
by DHS and continues to diligently place all eligible children 
with their parents or appropriate sponsors. I look forward to 
advancing this continuum of care.

    Mr. Burgess. I yield back.
    Ms. DeGette. The gentleman yields back.
    I ask unanimous consent that Members' written opening 
statements be made part of the record. Without objection, they 
will be entered into the record.
    I ask unanimous consent that Energy and Commerce members 
not on the Subcommittee on Oversight and Investigations, of 
which we have many joining us today--and I welcome you--be 
permitted to participate in today's hearing. Without objection, 
so ordered.
    I now would like to introduce panel 1 of our witnesses for 
today's hearing. Ms. Kathryn Larin, who is the Director of 
Education, Workforce, and Income Security for the General 
Accounting Office; Ms. Rebecca Gambler, Director of Homeland 
Security and Justice, Government Accountability Office; Ms. Ann 
Maxwell, Assistant Inspector General for Evaluation and 
Inspections, Office of Inspector General, Department of Health 
and Human Services, and Commander Jonathan White, United States 
Public Health Service Commissioned Corps, U.S. Department of 
Health and Human Services.
    Thanks to all of you for appearing before this subcommittee 
today.
    Now I am sure you are aware the committee is holding an 
investigative hearing, and when doing so, has the practice of 
taking testimony under oath. Does anyone have any objections to 
testifying under oath?
    Let the record reflect the witnesses have responded no.
    The Chair then advises you that, under the rules of the 
House and the rules of the committee, you are entitled to be 
accompanied by counsel. Do you desire to be accompanied by 
counsel during your testimony today?
    Let the record reflect the witnesses have responded no.
    If you would, please rise and raise your right hand, so 
that you may be sworn in.
    [Witnesses sworn.]
    You may be seated.
    Let the record reflect that the witnesses have now 
responded affirmatively, and you are now under oath and subject 
to the penalties----
    Mr. Duncan. Madam Chairman?
    Ms. DeGette [continuing]. Set forth in Title 18, Section 
1001, of the United States.
    For what purpose does the gentleman from South Carolina 
seek recognition?
    Mr. Duncan. I believe the oath was incorrect and 
incomplete.
    Ms. DeGette. This is the oath we use, and that is the oath 
we are going to use today.
    It is now time for Members to have the opportunity to ask 
questions, and I will recognize myself for 5 minutes. Let me 
just start. I have very limited time. So I would appreciate a 
yes-or-no answer to any of the questions.
    Ms. Maxwell, let me start with you. OIG recently concluded 
that thousands of additional--oh, opening statements from the 
witnesses. Sorry, this is my first time. So everybody has to 
bear with me.
    Ms. Larin, let's have a 5-minute opening statement from 
you.

STATEMENTS OF KATHRYN A. LARIN, DIRECTOR, EDUCATION, WORKFORCE, 
  AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY OFFICE; ANN 
MAXWELL, ASSISTANT INSPECTOR GENERAL, OFFICE OF EVALUATION AND 
INSPECTIONS, OFFICE OF INSPECTOR GENERAL, DEPARTMENT OF HEALTH 
   AND HUMAN SERVICES; AND JONATHAN WHITE, COMMANDER, UNITED 
STATES PUBLIC HEALTH SERVICE COMMISSIONED CORPS, DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

                 STATEMENT OF KATHRYN A. LARIN

    Ms. Larin. Chair DeGette, Ranking Member Guthrie, and 
members of the subcommittee, Ms. Gambler and I appreciate the 
opportunity to be here today to discuss efforts of the 
Departments of Health and Human Services and Homeland Security 
to plan for and respond to family separations that occurred 
during the spring of 2018 at the Southwest border.
    According to officials, the increased separations resulted 
from a memo issued by the Attorney General on April 6, 2018, 
regarding criminal prosecutions of immigration-related 
offenses, known as zero tolerance. On June 26th, a Federal 
judge ordered the Government to reunify certain separated 
families.
    Today, my testimony will cover three key issues. First, I 
will discuss planning efforts by HHS and DHS related to the 
April 2018 memo. According to HHS and DHS officials we 
interviewed, the Departments did not plan for family 
separations or for an increase in the number of children 
transferred to HHS because they were not aware of the memo 
until its public release. However, HHS officials also told us 
that in the year prior to the April 2018 memo, they saw a 
tenfold increase in the number of children known to have been 
separated from their parents.
    Two things likely contributed to the increase. A memo 
issued by the Attorney General in April 2017 prioritized 
enforcement of certain immigration-related offenses, and an 
initiative in the El Paso Border Patrol sector increased 
criminal prosecution of such offenses, including those parents 
who arrived with minor children.
    In November 2017, HHS officials told us they asked DHS 
officials about the increase in child separations and was told 
there was no official policy of separating families. When 
separations continued, HHS's Office of Refugee Resettlement 
considered planning for continued increases in separated 
children but were advised by HHS leadership not to engage in 
such planning, given that DHS did not have a policy of 
separating families.
    Second, I will discuss systems for indicating children were 
separated from parents. At the time of the Attorney General's 
April 2018 memo, there was no single database with reliable 
information on family separations. Data systems maintained by 
Customs and Border Protection and by the Office of Refugee 
Resettlement did not include a designated field to indicate a 
child had been separated from a parent. Both HHS and DHS 
updated their data systems by the summer of 2018, but, at least 
initially, there were indications that data was not 
consistently being shared between the agencies.
    It's too soon to know whether these data system changes, 
when fully implemented, will consistently indicate when 
children have been separated or will help with reunifications. 
Further, these changes do not address broader coordination 
issues that we identified in our prior work. We recommended 
that the agencies improve the process for referring and 
transferring custody of children from DHS to HHS. That 
recommendation has not yet been fully addressed.
    Third, I will briefly summarize Federal actions to reunify 
families in response to the June court order. First, to create 
a list of children covered by the court reunification order, 
HHS and DHS officials told us that they deployed an interagency 
task team to identify and locate children and parents. HHS 
manually reviewed about 12,000 electronic case files of 
children in its care.
    Once HHS had identified eligible children, the process of 
reunifying them with parents evolved over time, based on 
multiple court hearings and orders, which presented challenges 
for HHS staff who were facilitating reunifications. For 
example, HHS started by using DNA testing to determine 
parentage for young children. But, on July 10th, the court 
approved the use of DNA testing only when necessary to verify a 
legitimate concern about parentage or to meet a reunification 
deadline. Similarly, the process for determining whether the 
parent is fit or presents a danger also evolved over time, 
based on court orders. Finally, procedures for physical 
reunification varied, depending on whether parents were in the 
custody of ICE or had been released.
    This concludes my statement. I'm happy to answer any 
questions you might have.
    [The prepared statement of Ms. Larin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you, Ms. Larin.
    Ms. Gambler, I understand you are here to support Ms. 
Larin's testimony and you won't have an opening statement.
    Ms. Gambler. That's correct.
    Ms. DeGette. Ms. Maxwell, you are recognized for 5 minutes.

                    STATEMENT OF ANN MAXWELL

    Ms. Maxwell. Good morning, Chair DeGette, Ranking Member 
Guthrie, and other distinguished members of the subcommittee.
    Thank you for inviting me to discuss OIG's review of the 
number of children impacted by family separations. Our review 
provides three key insights about what is known and not known 
about children who are separated from their parents by 
immigration agents and referred to the Department of Health and 
Human Services for care. Generally speaking, HHS provides these 
children with temporary shelter and care before releasing them 
to sponsors in the U.S. to await their immigration hearings.
    Our first insight is that more children over a longer 
period of time were separated than is commonly understood. The 
public discussion regarding the number of separated children 
has largely been tightly focused around the Ms. L v. ICE class 
action lawsuit that requires the Government to reunify certain 
separated children. Specifically, the case covers children 
separated from their parents that were still in HHS care on the 
date of the court order, June 26, 2018. The required reporting 
on these children is a matter of public record and, as such, 
the 2,737 children covered by the case became the de facto 
count of separated children.
    But, if you widen that focus for a more comprehensive view, 
as we did in this study, you see these children only represent 
a subset. Exactly how many more children were separated is 
unknown. This is because there is no integrated data system 
that reliably tracks children who are separated by the 
Department of Homeland Security and then referred to HHS for 
care.
    Now, based on informal records, HHS officials estimated it 
potentially received and released thousands of separated 
children prior to the June 2019 court order. These separated 
children were part of a significant increase in the number of 
separated children that started approximately a year or so 
before the court order. Prior to this increase, HHS staff 
reported that receiving separated children was quite rare and 
the increase strained its ability to place these often very 
young children in shelters equipped to address their needs.
    The second point is that the Government struggled to 
identify which children in its care were covered by the court 
order. To respond to the court's reunification order, the 
Government, led by HHS, had to first engage in an extensive, 
labor-intensive effort to identify children who had been 
separated from their parents. This included analyzing more than 
60 datasets and manually reviewing 12,000 case files. And even 
with these extensive efforts, HHS later identified additional 
separated children that were covered by the court's 
reunification order. This, again, speaks to the challenges of 
accounting for separated children in the absence of reliable 
data about their circumstances. In this case, it also impacted 
timely reunification.
    The third important item to note is that HHS continues to 
receive separated children. At this point, separation should 
only be occurring where there are concerns for a child's 
safety, as has historically been done. However, DHS immigration 
agents provided HHS with limited information about the reasons 
for these separations. For example, the most common reason DHS 
reported these more recent separations is a parent's criminal 
history. But HHS didn't receive specifics about the criminal 
history, and these specifics are important because, from a 
child welfare perspective, not all criminal history rises to a 
level that would imperil a child's safety or preclude release 
back to their parents.
    In conclusion, limited information about separations means 
we cannot account for the full impact of family separations on 
children. Further, the limited data about recent separations 
impedes HHS's ability to put children's needs at the center of 
its decisionmaking.
    In response to these challenges, HHS has taken several 
steps to improve its monitoring of separated children. However, 
it's not yet clear whether these changes will be sufficient, as 
monitoring systems are only as good as the information put into 
them. As such, we encourage HHS and DHS to look for 
opportunities to improve communication and data sharing in the 
interest of better serving separated children.
    Thank you for the opportunity to present this information. 
I'm happy to address any questions that you have.
    [The prepared statement of Ms. Maxwell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you very much, Ms. Maxwell.
    And now Commander White, for 5 minutes.

                  STATEMENT OF JONATHAN WHITE

    Mr. White. Good morning. Chair DeGette, Ranking Member 
Guthrie, honored members of the subcommittee, it's my honor to 
appear on behalf of the Department of Health and Human 
Services.
    My name is Jonathan White. I'm a career officer in the 
United States Public Health Service Commissioned Corps. I'm a 
clinical social worker and an emergency manager. And I've 
served in HHS under three administrations. I'm presently 
assigned to the Office of the Assistant Secretary for 
Preparedness and Response, and I previously served as the 
Deputy Director of ORR for the unaccompanied alien children 
program.
    And in my testimony today, I do want to discuss aspects of 
the ORR program's policies and the administration that I have 
been involved in since February of 2016. In my time at HHS, I 
have had the privilege of helping to oversee and support the 
grantees that provide the actual care for children as well as 
the process of placing children with sponsors. And more 
recently I served as the Federal health coordinating official, 
that is, as the HHS operational lead, for the interagency 
mission to reunify children who were in ORR care as of June 
26th, 2018, who were separated from their parents at the border 
by the U.S. Department of Homeland Security.
    I am proud of the work of our team on the reunification 
mission, and I'm also proud of the care that's provided every 
day in the UAC program to children. And I will say, these are 
some of the most vulnerable children in our hemisphere.
    ORR is responsible for the care and temporary custody of 
UAC who are referred to ORR by other Federal agencies. ORR does 
not apprehend migrants at the border, and we do not enforce 
immigration laws. Those functions are performed by DHS and the 
U.S. Department of Justice.
    The Homeland Security Act of 2002 and the Trafficking 
Victims Protection Reauthorization Act of 2008 govern the ORR 
program as amended. So do certain provisions of the Flores 
Settlement Agreement. As defined by the Homeland Security Act, 
if a child under the age of 18 with no lawful immigration 
status is apprehended by another Federal agency and there's no 
parent or legal guardian available in the U.S. to provide care 
and custody of the child, he or she is considered a UAC and is 
transferred to ORR for care and custody.
    And in our shelters, we provide housing, nutrition, routine 
medical care, mental health services, educational services, and 
recreational activity. These shelters provide an environment 
that is very much on par with facilities in the child welfare 
system that houses U.S. citizen children. The facilities are 
operated by nonprofit grantees and are licensed to provide care 
to children by the State licensing authorities of the State 
where they're housed.
    The exception is ORR's temporary hard-sided influx care 
facility in Homestead, Florida, which is not required to obtain 
State licensure because it's located on federally owned 
property. However, the children who reside at that location 
generally receive the same level of care and services as UAC at 
a State-licensed facility.
    The UAC bed program capacity has expanded and contracted 
over the years, driven by fluctuations in the number of 
children referred and the average time children remain in ORR 
care. To respond to these fluctuations, we developed processes 
for bringing both permanent and temporary UAC housing capacity 
online. In fiscal year 2018, 49,100 children were referred to 
ORR by DHS. In fiscal year '19, through December, we received 
approximately 13,948 referrals.
    The President issued Executive Order 13841 on the 20th of 
June, 2018, and the U.S. District Court for the Southern 
District of California, in Ms. L v. ICE, issued its preliminary 
injunction and class certification orders on June 26, 2018. On 
June 22nd, the Secretary of HHS directed ASPR to help ORR 
comply with the President's Executive Order. And to execute 
that direction from the Secretary, we formed an incident 
management team, which at its largest included more than 60 
staff working at headquarters and more than 250 field response 
assets from ACF, from ASPR, from the U.S. Public Health Service 
Commissioned Corps, and contractors.
    Shortly after the Ms. L court issued its orders, the 
Secretary directed HHS, and our IMT in particular, to take all 
reasonable actions to comply. We faced a formidable challenge 
at the start of this mission. On the one hand, ORR knew the 
identity and location of every one of the more than 11,800 
children in our care on that date. We could access 
individualized biographical and clinical information regarding 
any one of those children at any time. But we did not always 
know which of them were separated.
    We received information from DHS regarding any separation 
of an individual child through the ORR portal on an ad hoc 
basis for use in ordinary program operations. We had never 
before conducted a forensic data analysis to satisfy the new 
requirements set forth in the court order. So we worked closely 
with DHS to try to identify all the parents of children in ORR 
care who potentially met the court's criteria for class 
membership. This required us to analyze more than 60 sets of 
aggregated data from CBP and ICE, as well as the individualized 
case management records for children on the portal. And 
collectively, hundreds of HHS personnel reviewed the case 
management records for every child in care as of June 26.
    We also required every one of the more of 110 residential 
shelter programs to provide a certified list to us, under 
penalty of perjury, of the children in that program's care that 
they had identified as separated, as potentially separated. And 
that's what led us to come up with our additional list of 2,654 
children in ORR care who were potentially separated from a 
parent at the border by DHS.
    Going forward, ORR continued to amass new information about 
the children in ORR care through the case management process. 
And the new information that ORR amassed between July and 
December 2018 led us to conclude that 79 of the possible 
children of potential class members were not, in fact, 
separated at the border by DHS, and that led us to conclude 
that a total of 162 other children were.
    It's important to understand that we always knew the 
location and the status of every child in our care. We did not 
lose any children at all. But we did have to recategorize some 
who were potentially separated. We also had to effect the 
reunifications of children.
    Working with close partnership with colleagues in ICE, DOJ, 
and the Department of State, we first worked to reunify 
children with parents in ICE custody, and this was an 
unprecedented effort, requiring a novel process which we had to 
develop and which the Ms. L court approved.
    Under the compressed schedule required by court order of 15 
days for children under the age of 5 and 30 days for children 
between the ages of 5 and 17, we reunified 1,441 children with 
parents in ICE custody, all of the children of eligible and 
available Ms. L class members in ICE custody in that timeframe.
    Absent red flags----
    Ms. DeGette. Commander, if you can sum up?
    Mr. White. Yes, ma'am.
    Ms. DeGette. If you can sum up?
    Mr. White. We were tasked with the reunification of all of 
the children of parents in the Ms. L class where it was safe to 
do so. And as of this date, there are, of the 2,816 children 
that we were able to identify as separated that were in our 
care on the 26th of June, only six--only six--remain who might 
potentially still be reunified. None of those are operationally 
reunifiable today. They will need either a change in the 
parent's status or change in the direction from the parent out 
of the country through the ACLU to effect their reunification. 
The other children are all either reunified, appropriately 
discharged, or are in care but won't be reunified.
    I'm glad to answer further questions about that. Thank you, 
Ma'am.
    [The prepared statement of Mr. White follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you very much, Commander.
    It now is time for Members to ask questions, and I will 
recognize myself for 5 minutes.
    Ms. Maxwell, OIG recently concluded that thousands of 
additional children, aside from the ones the commander has just 
identified, may have been separated from their parents or 
guardians beginning in 2017. Is that correct?
    Ms. Maxwell. That's correct.
    Ms. DeGette. And, Ms. Larin, months before the Attorney 
General's April 2018 zero-tolerance policy memo was issued, ORR 
officials saw a tenfold increase in the number of children who 
were separated from their parents. Is that correct?
    Ms. Larin. That's correct.
    Ms. DeGette. Now, Ms. Larin, ORR officials told you that, a 
few months prior to the April 2018 zero-tolerance memo, they 
considered planning for continued increases in separated 
children, but HHS leaders advised them not to engage in that 
planning. Is that correct?
    Ms. Larin. That's what we were told.
    Ms. DeGette. Now also, as part of your audit, did you 
interview the Secretary of HHS to determine whether he had 
advance notice of the AG's April 2018 memo before it was 
issued?
    Ms. Larin. We did not interview the Secretary.
    Ms. DeGette. You did not interview the Secretary?
    And, Ms. Maxwell, do you know whether the Secretary was 
consulted about family separations before the release of the 
April zero-tolerance memo?
    Ms. Maxwell. Our work looking into the challenges the 
Department faced in reunifying the children is ongoing, as are 
interviews with senior HHS officials.
    Ms. DeGette. So, have you interviewed Secretary Azar about 
this?
    Ms. Maxwell. We have not.
    Ms. DeGette. Now, Commander White, do you know whether the 
Secretary was consulted about family separations before the 
release of the April memo? Yes or no?
    Mr. White. I do not know, ma'am.
    Ms. DeGette. OK. Now, Commander, I think that you agree 
that family separations inflicted lasting trauma on thousands 
of children and families, and it also created widespread chaos 
within HHS as it attempted to reunify the children. Do you know 
whether the Secretary or any senior officials at HHS attempted 
to reach out to DOJ or DHS prior to the release of the zero-
tolerance memo to explain how this policy would impact children 
and strain ORR's ability to take care of them?
    Mr. White. Yes, I do agree that separation----
    Ms. DeGette. No, do you--yes, do you know whether they 
reached out to senior officials or the Secretary reached out to 
these other agencies before the order was issued?
    Mr. White. I do not know. It's my understanding that the 
Secretary was not aware of the memo prior to its release.
    Ms. DeGette. OK.
    Mr. White. But I never briefed the Secretary on this issue 
until we were assigned to the reunification mission.
    Ms. DeGette. OK. Now, HHS's stated mission is to enhance 
and protect the health and well-being of the people in this 
country. Under the law, the administration has to consider the 
best interest of the child when it makes these decisions. Do 
you believe that the administration's decision to enact a zero-
tolerance policy, which resulted in the forcible separation of 
thousands of kids from their parents, was in the best interest 
of the children?
    Mr. White. I do not believe that separation of children 
from their parents is in the best interest of the child, but I 
did not participate in the discussions regarding the policy.
    Ms. DeGette. Thank you. Thank you.
    Now, we still don't know what role Secretary Azar played in 
the creation of this policy, but you personally say you did not 
consult with him? Is that correct?
    Mr. White. I had never met Secretary Azar until the day 
that I was assigned to----
    Ms. DeGette. Do you know if anybody else consulted with 
him? Do you know that?
    Mr. White. I am not aware of any communication to Secretary 
Azar about separation prior to the announcement by the Attorney 
General.
    Ms. DeGette. OK, but do you know that for a fact? Yes or 
no?
    Mr. White. I am not aware of any communications with the 
Secretary about this.
    Ms. DeGette. Now, you've heard both the Office of Inspector 
General and the GAO testify that there was an uptick in the 
number of children being removed and put into the custody of 
ORR even before the April memo. And it could be up to thousands 
of children. I'm wondering what ORR is doing right now to 
identify those children and reunite them with their parents.
    Mr. White. ORR does not have visibility or authority over 
children who have exited its care. We never separate--no one in 
HHS separated a single child from their parent. We have the 
ability and have pursued reunification for every child who is 
in ORR's care. The children who have been discharged to a 
family member are outside our authority. No one in HHS knows--
no one in HHS knows--who the children who had been separated 
from their parents and were referred to ORR and appropriately 
discharged to family member sponsors before the 26th of June 
are or how many they are.
    Ms. DeGette. Well, that's not my question. But my time has 
expired. So, I know we will be exploring this.
    I will recognize the ranking member for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chair. I appreciate it very 
much.
    And, Commander White, before I get started with my 
questions, I want to note that I understand that the zero-
tolerance policy was created and implemented by other 
Departments who are not here testifying. So, if you are asked a 
question or if a question is posed today by me or any Members 
that is better answered by the Department of Justice or the 
Department of Homeland Security, please let us know.
    That said, I would like to ask you some questions about the 
role HHS played in the implementation of the zero-tolerance 
policy, if any, and about the ORR program. You just testified 
that you were not involved in creating the zero-tolerance 
policy nor aware of the Secretary. Are you aware of anyone else 
at HHS involved in the planning or preparation for the zero-
tolerance policy?
    Mr. White. So, HHS is not a law enforcement agency. We 
don't have any authorities or equities in immigration 
enforcement.
    Mr. Guthrie. Was anybody involved in the planning of this 
policy, knowing that you may have children come to your care? 
Was anybody involved in the planning of the implementation of 
the policy of HHS that you are aware?
    Mr. White. I'm not aware of that. We participated and I 
also participated in discussions about potential policy 
scenarios that would result in separation of children from 
their parents. However, at no time during the time that I was 
at ORR, and I was there until March 15th of 2018, were we 
notified that there would be family separation, that that 
policy was formal. We observed an increase.
    Mr. Guthrie. When did you become aware of the policy?
    Mr. White. I was aware of the formal policy notification 
when the Attorney General said it on television on April 6th.
    Mr. Guthrie. You have previously testified that you are 
involved in discussions about immigration policies that you 
just talked about that could result in separation of families, 
as you just said. Could you tell us more about these 
discussions? And specifically, when did these discussions take 
place and what concerns did you raise, and what were you told 
in response?
    Mr. White. The first meeting that I attended on this topic 
on February 14, 2017, and that meeting was at the office of the 
Commissioner of Customs and Border Prevention. I and a 
colleague were there for ORR. There were also folks from DOJ's 
Executive Office of Immigration Review, CBP, and ICE present, 
as well as, I believe, DHS policy.
    At that time, one policy option for implementation of 
catch-and-release that was discussed was referral of minors as 
part of family units as unaccompanied alien children to ORR. I 
subsequently shared that with my own leadership, and on a 
number of occasions I and my colleagues made recommendations 
raising concerns not only about what that would mean for 
children, but also what it would mean for the capacity of the 
program.
    Mr. Guthrie. What were you told in response, though, to the 
concerns you raised?
    Mr. White. On the occasions that I raised it, I was advised 
that there was no policy that would result in the separation of 
children and parents. And that remained the answer that I 
received during my entire tenure until I left ORR.
    Mr. Guthrie. OK. Well, Commander White, as I stated in my 
opening statement, I do not believe that children should be 
separated from their parents. In addition, you have previously 
acknowledged in testimony before the Senate, as well as on 
weekly phone calls you do with congressional Members and staff, 
which we greatly appreciate, that separation of minors from 
their parents involves a risk of severe psychological trauma. 
And that is important to note, that almost all of these 
children have sustained quite severe traumatic exposures before 
their journey and on their journey to the U.S.
    It is my understanding that ORR has always been a very 
trauma-informed program. Can you elaborate on how ORR has 
always been a trauma-informed program and what that means in 
practice?
    Mr. White. The children that we receive--and I'm speaking 
now of the vast majority of children in care who are true 
unaccompanied alien children--the children that we receive, 90 
percent of whom come from the three Northern Triangle countries 
of Central America, often have extraordinarily severe histories 
of traumatic exposures and adverse childhood experiences. They 
come from communities that are confronted with severe poverty 
and food insecurity, as well as severe violence. And often, 
they have been victims of violence or an extortion by gangs. 
Their lifetime exposure to violence and sexual assault is very 
high.
    For this reason, the program has always had a trauma-
informed focus. This includes providing every child with a 
licensed mental health clinician.
    Mr. Guthrie. That was my next question. I have about 25 
seconds. So, what medical care and mental healthcare do you 
provide? Now you just got started on that. Would you just 
discuss that?
    Mr. White. Every minor receives routine and emergent 
healthcare, including an initial medical evaluation, age-
appropriate vaccinations, and healthcare. Every child receives 
individual or group modality mental health services 
commensurate with their needs.
    Mr. Guthrie. So, in my final 5 seconds, would you have 
advised DOJ or DHS to implement the policy of zero tolerance, 
if they had asked?
    Mr. White. Neither I nor any career person in ORR would 
ever have supported such a policy proposal.
    Mr. Guthrie. Thank you. And I yield back.
    Ms. DeGette. Thank you. The Chair now recognizes the 
chairman of the full committee, Mr. Pallone.
    Mr.  Pallone. Thank you. And I apologize, I had to go to 
the other hearing on net neutrality, so I missed a lot of your 
statements.
    But I wanted to ask Commander White, if I could, I know 
that when you walk into the HHS's headquarters--and, of course, 
we went there for a briefing after the zero-tolerance policy 
was put in effect--there is a quote on the wall from former 
Vice President Hubert Humphrey, who the building is named 
after. And it says, ``The moral test of a government is how 
that government treats those who are in the dawn of life, the 
children; the twilight of life, the elderly; and the shadows of 
life, the sick, the needy, and the handicapped.'' And today, we 
are focusing on the first part of that quote, how this 
administration treated those who are in the dawn of life, the 
children.
    So, Commander White, do you believe that this policy passed 
the moral test that Hubert Humphrey spoke of?
    Mr. White. I'm really not an expert on such things. I, 
however, have said previously, and will say again, that 
separating children from their parents poses significant risk 
of traumatic psychological injury to the child. And separations 
for cause that are necessary to protect children have always 
been part of this program. I think the national discussion, 
including the discussion for legislators, is specifically, what 
are the legitimate criteria for separation?
    Mr.  Pallone. And again, this kind of goes back to what I 
said in my opening statement, which is that I understand that 
there may be occasions when it is justified. But if you have to 
weigh it in balance and say that you are separating kids and 
all the terrible things that result from that, I think you have 
to be really careful not to separate kids whenever possible.
    And that is why I mentioned, when I went to the detention 
center in New Jersey on Father's Day, I just got the impression 
that, oh, you know, there was no real criteria for deciding, 
even today, when we do this. And it shouldn't just be assumed 
that somehow the parents are bad because they are taking the 
kids over the border and therefore they should be separated. 
So, that is the concern I have.
    But, Commander, in March 2017, the then-Secretary of 
Homeland Security, John Kelly, publicly stated that DHS was 
considering separating children from their parents at the 
border. And at the time, child advocates sounded the alarm on 
the negative effects separation would have. I understand when 
you testified before the Senate Judiciary Committee that you 
personally raised concerns about the policy. I know you have 
said something about this, but could you get specific? What 
specifically were the concerns you had and who did you raise 
them with, if you could?
    Mr. White. The concerns which I expressed were two: first, 
that this would be inconsistent with our legal requirement to 
act in the best interest of the child and would expose children 
to unnecessary risk of harm; second, that it would exceed the 
capacity of the program. Issues of bed capacity are very 
important to ORR because it constitutes our ability to provide 
a safe and appropriate environment to every child.
    I should add, I emphasized that not only would this likely 
exceed our capacity, but it would particularly exceed our 
capacity that was specifically licensed for what we call 
tender-aged children, which is to say children under the age of 
12, and especially children under the age of 5, since those are 
separate licensed facilities, and a facility that's appropriate 
for care to a 16-year-old cannot easily flex to provide care to 
a 4-year-old.
    Mr.  Pallone. Did you say, or maybe you were going to say, 
who you raised these concerns with? That was part of my 
question.
    Mr. White. I raised these concerns within my own--to my own 
leadership.
    Mr.  Pallone. Specifically?
    Mr. White. That would be the Director of ORR, Scott Lloyd; 
the Acting Assistant Secretary of ACF, Steven Wagner; and the 
Counselor to the Secretary for Human Services, Maggie Wynne. 
These were the superiors who I made recommendations to and 
identified these concerns to.
    Mr.  Pallone. Do you know what any of those people did in 
response to the concerns you raised?
    Mr. White. We participated together in modeling and 
discussions. Additionally, I think it is important to note that 
Secretary Kelly, to whom you just alluded, then-DHS Secretary 
Kelly, subsequently made a public announcement that there would 
not be separation, and that announcement was referenced in the 
subsequent communications to me when we revisited this later, 
that there wasn't a separation policy.
    Mr.  Pallone. All right. Thank you so much.
    Ms. DeGette. Thank you. I now recognize the ranking member, 
Dr. Burgess, for 5 minutes.
    Mr. Burgess. I appreciate the recognition and the 
advancement in status. I am not the ranking member of the full 
committee.
    However, let's talk just for a moment. The title of this 
hearing is ``Examining the Failures of the Trump 
Administration's Inhumane Family Separation Policy.'' The 
difficulty--and, Commander White, let me just focus here for a 
minute--the difficulty was because of the numbers of people and 
unaccompanied children that were coming across the border 
through not just the Trump administration, the beginning of the 
Obama administration, and continued to the Trump 
administration. Is that a fair statement?
    Mr. White. It is absolutely a fair statement that one of 
the most fundamental challenges we face every day in the UAC 
program is the number of minors who come in as unaccompanied 
and the fluctuations in the number of minors who come in as 
unaccompanied.
    Mr. Burgess. And let's talk about that for just a minute, 
because the fluctuations are important. I have made at least 
nine trips to not just the Texas border, other places on the 
border, primarily the Texas border because it is my home State. 
I also made a trip to the Northern Triangle countries this 
August, tried to get a delegation to go. Mr. Pallone had a 
cruise or something, and he couldn't go with me.
    I thought it was important that we understand what is going 
on here. The fluctuations that you described, August of 2016, I 
was down in the Lower Rio Grande Valley sector, and the number 
of people who were coming across in August 2016 was high. In 
fact, when I went down to the border with the Border Patrol, 
they in fact encountered a group of people, about five or six 
women, some small children, some teenaged boys, that had just 
been left there by coyotes. Hot sun, out in the brush, cotton 
clothing on, flip-flops for shoes. I mean, they were no way 
equipped to handle a trip across the desert or across the brush 
country to try to get to civilization. They were just left 
there by the traffickers.
    And I asked Customs and Border Patrol, I said, ``This is a 
pretty serious situation. Do you encounter this often?'' ``All 
the time. In fact, sometimes we bring buses down to the border, 
and 40, 50 people will get on the bus and go off to a 
processing center.'' So, it was a big deal.
    Now, in May of 2017, I went back down to that same sector 
on the border, and it was vacant. The holding facility, the 
processing facility, no one there. ``What happened that changed 
this?'' And they said, ``Well, the inauguration of President 
Trump. The word went out that he's going to build a wall, and 
nobody came.''
    Well, Secretary Kelly at the time was Homeland Security 
Secretary. He visited just a week or so before I did and had 
made the statement publicly, according to the papers, that the 
numbers are down but if Congress does not fix the problems with 
the laws that are inconsistent, we can expect this problem to 
reignite. So, Congress must act. And Secretary Kelly was 
exactly correct.
    So, a year later and we are facing another influx. But, 
again, it is not the only time in our history that we have 
faced large numbers of people coming into our country where it 
has become a management problem. An online publication, 
``Moments in Diplomatic History,'' quoting Deputy Secretary of 
State John Bushnell in April of 1980, the Mariel boatlift. You 
may have heard about it. It was a big problem, and the Carter 
administration had to deal with it.
    There were, of course, some difficulties. Humans landed up 
and down the Florida Keys, in Miami, by the thousands, not 
relatives, not related to people that were there. None had 
visas. Most had no documents. Republicans started causing 
problems for President Carter, saying you couldn't control your 
borders.
    So, here is Secretary Bushnell describing this: ``I 
remember sitting in a windowless conference room of the 
National Security Council with Secretary of State Edmund 
Muskie, the Chief of Naval Operations, the Director of the CIA, 
head of the Coast Guard, head of the INS, and several other 
senior officials, debating how to stop this flow of Cubans. 
National Security Advisor Zbigniew Brzezinski chaired until 
President Carter came in. There was a long discussion of how 
the Coast Guard and Navy ships might physically stop the Cuban 
boats. We asked the admirals, how can we do this? It was 
suggested the boats could be rammed or shot.'' Wow, that seems 
even harsher than a zero-tolerance policy, shooting the boats 
at sea. But, again, you have a vast number of people coming 
into your country, and you do have an obligation, the 
Government has an obligation to control that flow.
    Bill Clinton, when he ran against George Herbert Walker 
Bush, just derided George Herbert Walker Bush for his blockade 
of Haitians coming by boat. And Bill Clinton said during the 
campaign, ``By golly, if I win this election, the Statue of 
Liberty will again be open for business and we will not turn 
those Haitians back at sea.''
    What did President Clinton have to do before he took 
office? He had to go on Voice of America, tell the Haitians not 
to come by boat because so many were projected to die at sea on 
that perilous journey. Bill Clinton started a zero-tolerance 
policy----
    Ms. DeGette. The gentleman's time has expired.
    Mr. Burgess [continuing]. Before he was inaugurated.
    I yield back my time.
    Ms. DeGette. The Chair now recognizes the gentlelady from 
Illinois, Ms. Schakowsky.
    Ms. Schakowsky. Thank you very much, Congressman DeGette, 
for this hearing.
    I am going to try and hold it together because this has 
been such a traumatic experience for so many Americans watching 
what has been happening. I have been to the border. I have been 
to shelters, both in McAllen, Texas, and in Chicago, where 
people are getting very good care. The children are getting 
good care.
    But can anybody here on this panel challenge this? The 
United States does not know how many children have been 
separated from their parents. No one?
    Does anyone know how many are still separated from their 
parents? Nobody knows.
    And now we know that those in ORR custody, that there is no 
way to know how to divide out those children that have been 
separated. Is that right, Commander?
    Mr. White. Ma'am, no. I want to be very clear. Children in 
ORR custody, children who have been in ORR custody who were in 
ORR custody on the 26th of June, we have laboriously worked to 
identify them.
    Ms. Schakowsky. No, I understand, but you----
    Mr. White. The challenge is those who exited ORR custody, 
because----
    Ms. Schakowsky. OK.
    Mr. White [continuing]. HHS did not receive from DHS any 
list or any indication of the complete set of separated 
children.
    Ms. Schakowsky. Thank you.
    Mr. White. In partnership with them, we worked hard to 
identify every one of those kids from those who were in care.
    Ms. Schakowsky. Thank you.
    Mr. White. Yes, ma'am.
    Ms. Schakowsky. I just feel like what has been happening is 
more than irresponsible and sloppy. But I really think that 
what we are talking about is state-sponsored child abuse, and I 
would go as far as to say kidnapping of children.
    Ms. Maxwell, I want to ask you, what, if any, criteria have 
been shared with HHS regarding how determinations are currently 
made to separate children from their family and what, if any, 
process exists for HHS or attorneys for the families to dispute 
these?
    My experience when I went to McAllen was a whole courtroom 
of people, these immigrants coming across, these refugees 
coming across, were declared guilty of crossing the border 
illegally. So, is that a criteria? They are criminals? How do 
we know?
    And, Ms. Larin, you mentioned that there was no real 
criteria of who is, then, unfit and who should be separated.
    Ms. Maxwell. Yes, to be clear, there is no Federal statute 
that dictates the circumstances under which families must be 
separated at the border. That is a discretion made by 
enforcement, immigration enforcement agents.
    As it pertains to children who are newly separated, we do 
note in our report that there is information coming about the 
cause of the separations, but there lacks a level of 
specificity to determine whether or not the separations that 
are currently happening meet the spirit of the preliminary 
injunction, as well as allow ORR to have the information 
necessary to care for the children.
    Ms. Schakowsky. Let me ask, Ms. Larin, do you want to 
comment on that, or is that accurate?
    Ms. Gambler. I'll address that for GAO, if that's OK, 
ma'am.
    Ms. Schakowsky. OK.
    Ms. Gambler. We understand from DHS that, under certain 
circumstances, children could be separated from their parents 
at the border, and those circumstances include things like if 
the parent is unfit or represents a danger to the child, if 
they have a criminal history, or if they have----
    Ms. Schakowsky. Criminal history, how is that defined, 
however? Are these people criminals because they crossed the 
border?
    Ms. Gambler. According to what was laid out in the court 
order for that population to be eligible for reunification, the 
court determined that, to be eligible for unification, that it 
would be, in determining fitness, it was if the parent, a 
consideration of if the parent was involved in possible 
criminal violations, but not including improper entry, 
misdemeanor improper entry.
    Ms. Schakowsky. OK. Do we know how many children have been 
separated from their parents for a reason that was given? Do we 
have a number?
    Ms. Gambler. So, ma'am, GAO actually has ongoing work right 
now for the House Homeland Security Committee where we're 
looking at how the Department of Homeland Security is 
addressing families that are encountered at the border. We are 
planning to report out on that work later this year.
    Ms. Schakowsky. OK. I just want to say that my 
constituents--I was hearing from parents, regardless of party, 
who were so, and are so, upset at this child separation. A 
number of them said this is not rocket science. What about a 
hospital bracelet put on a parent with a matching one for a 
child to identify them? It is so shocking that we do not know 
how many. I hope this hearing can get to some at least knowing 
what we need to know.
    I yield back.
    Ms. DeGette. The gentlelady yields back. The gentleman from 
West Virginia, Mr. McKinley, is now recognized.
    Mr. McKinley. Thank you, Madam Chairman.
    A few quick questions to understand. The media and some 
folks here in Congress continue to talk about the children 
being put in cages. Commander, I haven't heard anyone talk 
about that yet. So, I would like to hear how you react when you 
hear that ORR is putting children in cages. How do you react to 
that?
    Mr. White. Well, of course that's false. I mean, this is 
actually--there are so many things about this issue that are 
complex, and this is not one. The images that have been in the 
media are actually images of border stations.
    But the easiest, I think that the best answer for this is 
come and see. Come and see an ORR shelter. And I know that many 
Members of Congress have toured them and we have that process.
    But ORR shelters are licensed by the State in which they're 
housed to be a residential care setting for children. They are 
not detention facilities.
    Mr. McKinley. OK.
    Mr. White. In many States, they have no locked doors to the 
outside because that's not permitted under State law.
    Mr. McKinley. Thank you.
    Mr. White. We do not put children in cages.
    Mr. McKinley. Thank you.
    Mr. White. In fact, that's why we do influx sheltering. 
It's because, for their mission, appropriate for their mission, 
border stations are a detentional holding setting. We don't 
have those.
    Mr. McKinley. OK. Thank you, Commander.
    I would also try to get a grasp--I am from West Virginia. 
We are not seeing the influx or the problems that some of the 
other folks are, but we follow the media. I am trying to get an 
understanding for the American public to understand like, for 
the minors, the accompanied minors, what is the age? What would 
you say the average age for an accompanied minor would be?
    Mr. White. So----
    Mr. McKinley. Yes, just a range maybe.
    Mr. White. So, unaccompanied alien children can be any age, 
although the greatest majority of them are teenagers. Those 
minors who were separated, the demographic is younger because, 
after all, they were traveling with parents. They have a 
different set of needs and a different demographic picture than 
true UACs. Most UACs are teenagers. Sometimes we do get much 
younger children, typically, who were traveling with like a 
teenaged brother or sister.
    Mr. McKinley. Commander, if you could, again, just if you 
could get back, I would like to understand. I can 
compartmentalize it better if you give me an average age. If 
you can get back to me on the short answer if the average age 
is 8\1/2\ or the average age for the unaccompanied minor might 
be 14, I would just like to know what that is.
    Mr. White. The greatest number of unaccompanied alien 
children is 16 and 17.
    Mr. McKinley. My last question, Commander, or whomever 
would like to answer, there are so many misrepresentations 
about--you just heard it here that this is state-sponsored--I 
don't even want to finish the sentence. I would like for you to 
just walk through with me, please, give me a day in the life--
day one, when you first get a child, let's just say one of the 
minors, that they come into your presence. Could you walk 
through what they begin with?
    Because I was told one of the first things they do is 
vaccinate the children to make sure that they are healthy. I am 
told that they have access to doctors, that there's a mental 
health individual that they can be counseled with. Can you walk 
through what a day is like as compared to what others are 
talking about--they're put in cages? Give me, just in the 
remaining time, a minute and a half----
    Mr. White. Sure. So, every----
    Mr. McKinley. What is an average day, first day?
    Mr. White. So, every child who enters ORR care, part of 
their first hours in ORR care will include a comprehensive 
psychosocial assessment and risk assessment to determine their 
needs. They also go through a process we call IME, which is 
initial medical evaluation. That's a complete medical workup. 
And then, we begin the process of their age-appropriate 
vaccinations, which we do to CDC standards. This is all part of 
every child's first day, along, then, with the beginning of the 
process of their know-your-rights and legal screening process 
and their orientation to the program they're going to be in.
    Mr. McKinley. And mental health, because mental healthy, 
they may have begun to have problems based on what life was 
like back in their village or community. And then, they went 
through the ordeal, the trauma of a lengthy march through 
Mexico to come up. What kind of mental health treatment are 
they receiving?
    Mr. White. So, every minor in ORR care has a licensed 
clinician, and we have a specified ratio of clinicians to 
children. Children receive individual and group modality 
clinical services. Some children are diagnosed as having more 
significant behavioral health needs and would receive a higher 
acuity care or be moved to a higher acuity setting consistent 
with those needs. I actually feel, I am very proud of the work 
that we do for the health and safety of children in care.
    Mr. McKinley. Thank you very much. I yield back my time.
    Ms. DeGette. The Chair now recognizes the gentleman from 
California, Dr. Ruiz, 5 minutes.
    Mr. Ruiz. Thank you very much, Chairwoman.
    Let's be very clear. We all know that ORR did not do the 
separation of children. We know that CBP and ICE separated 
children. Let's be very clear that it was CBP and ICE that 
detained children in cages. Let's be very clear with that.
    This is an outrage. Morally, it is a stain in our 
conscience as individuals, and every mother and every father 
that loved any of their children should feel the compassion and 
the hurt that these children and their parents went through 
when this happened.
    And I understand by the look in your eyes, Commander White, 
that you understand that. And as healthcare professionals, you 
understand the experience of having to go through and witness 
that as well.
    And yet, since it was one of the most intentional, hurtful 
experiences in our Nation's recent history that our Federal 
Government has done to any population, this committee held no 
hearings on the topic while it was ongoing. This committee had 
no legislation that we marked up except for this resolution of 
inquiry, and it was not passed with favorable sentiment to be 
voted on on the floor. We were simply asking to have a hearing 
to get questions answered, simply asking for a resolution of 
inquiry that Congress is saying we want more information, and 
that was denied by this committee in the last cycle.
    Commander White, do you understand the effects of toxic 
stress on children?
    Mr. White. I have professional training that does indicate 
that toxic stress--that's an accepted scientific reality--has 
consequences, both for children's behavioral health and their 
physical health, and those consequences are frequently 
lifelong.
    Mr. Ruiz. So, this problem is not over, even after they 
unify the child with the family, right?
    Mr. White. The consequences of separation for many children 
will be lifelong.
    Mr. Ruiz. Yes. In March 2017, the American Academy of 
Pediatrics published a public policy statement opposing the 
separation of mothers and children at the border, stating, 
quote, ``Federal authorities must exercise caution to ensure 
that the emotional and physical stress children experience as 
they seek refuge in the United States is not exacerbated by the 
additional trauma of being separated from their siblings, 
parents, or other relatives and caregivers.''
    You mentioned a tender age, Commander White, children under 
5 or children under 12. In your opinion, were they 
retraumatized by our Federal Government when we separated them 
from their mothers?
    Mr. White. So, I've previously testified before the 
Senate----
    Mr. Ruiz. Yes or no, do you feel that they were 
retraumatized by being separated from their parents?
    Mr. White. Separation of parents is a traumatic event and 
has the potential for having those psychological consequences, 
as a matter of fact.
    Mr. Ruiz. So, let's be clear. Is there a nullification of 
retraumatized or is this an additional trauma that adds 
additional stress and additional harm to a child after they 
experience the difficulties that they experienced in their home 
country, going through the long trek? Did we add additional 
retraumatization to that child?
    Mr. White. For many children, that is----
    Mr. Ruiz. Yes.
    Mr. White [continuing]. Consequence, yes.
    Mr. Ruiz. My understanding is yes.
    So, when you voiced your concern to your leadership, when 
Ms. Maxwell mentioned that you, that the Department of Health 
and Human Services knew that there was a surge of family 
separations, and folks were aware and they were questioning, 
did you voice your concern and did you say these need to--how 
were you treated when you voiced your concern?
    Mr. White. I received a respectful hearing. I was advised 
that there was no policy to result in family----
    Mr. Ruiz. Did you feel like that was a way to tell you 
don't bring it up any further, this was not official, so don't 
mention it anymore to anybody else?
    Mr. White. No.
    Mr. Ruiz. OK.
    Mr. White. That was not how I took it.
    Mr. Ruiz. And did you advise that HHS should take a little 
more proactive step to stop these separations?
    Mr. White. That is the recommendation I give to anybody----
    Mr. Ruiz. And did it occur?
    Mr. White. It did not, in fact, occur, but----
    Mr. Ruiz. OK. In the intake, you said that you, that the 
ORR did not distinguish which children were separated and which 
children were not separated, correct?
    Mr. White. That's correct because, historically----
    Mr. Ruiz. So, let me ask you a question. Were you able--was 
there anything preventing you from asking the question during 
the intake, ORR to say, ``Was this child separated from their 
parent?,'' knowing that that was going on?
    Mr. White. So, that is now part of intake----
    Mr. Ruiz. Yes, but you were not denied or you weren't told, 
``You can't ask that question.'' And you failed, the Department 
of ORR failed to ask that question during the intake of the 
child.
    Mr. White. No, we routinely ask and have asked for years.
    Mr. Ruiz. At that time, you said that you were not able to 
determine if they were separated or not separated. A social 
worker, a case manager would simply ask, ``Was this child 
separated?'' to determine a full history and context to provide 
the adequate treatment for toxic stress. Did that occur? And 
were you proud that it did not occur?
    Mr. White. We did attempt to identify for the----
    Mr. Ruiz. Well, earlier mentioning----
    Ms. DeGette. The gentleman's time has expired. We are going 
to have to----
    Mr. Ruiz [continuing]. You said that you didn't.
    Mr. White. No, I actually was very specific. What we did 
not have is a single comprehensive list because the reality is 
many children who we have identified as separated, there is 
nothing in their initial assessment to indicate their 
separation, even when they're asked a question specifically. 
So, that's not an exhaustive list.
    Mr. Ruiz. So, those questions----
    Ms. DeGette. The gentleman's--I'm sorry----
    Mr. Ruiz [continuing]. Were asked specifically?
    Mr. White. Yes, sir.
    Ms. DeGette. The gentleman's time has expired. The 
gentlelady from Indiana, Ms. Brooks, is recognized.
    Mrs. Brooks. Thank you, Madam Chairwoman DeGette, and to 
Ranking Member Guthrie. Thank you for holding this important 
hearing today.
    I would like to remind the committee that, during an 
important debate over the passage, during the Energy and 
Commerce Committee debate on the Pandemic and All-Hazards 
Preparedness Act, we did accept an amendment offered by 
Representative Lujan and Representative Blackburn, to require 
ORR and the Department of HHS to provide us weekly reports. And 
so, this committee did--in clarification of my friend, the 
gentleman, Dr. Ruiz--this committee did address that, actually, 
during the Pandemic and All-Hazards Preparedness Act debate. 
And it was included and, in fact, has been voted on by the 
House, has passed out of the House twice, once in the last 
Congress, and I am proud to say that Congresswoman Eshoo and I 
already have gotten it out of the House once again.
    And in that bill about pandemic and all-hazard 
preparedness, we addressed this issue in requiring the 
Department to provide weekly updates and to provide the 
Department to deal with this issue. And so, just--I wanted to 
clarify for the record that our committee did address this. We 
have actually passed it in the House, although people might not 
have realized. It was a very important bill having to do with 
pandemic and all-hazard preparedness with vaccines and 
preparedness for public medical emergencies.
    I would also like to share that I, too, have visited not 
only the border and visited the Brownsville facility and saw--
which overwhelmed me--the Southwest Key facility, where I saw 
1,379--I will never forget that number because it was on the 
board as I walked in--1,379 boys, ages 11 to 17. I, like 
others, saw that they were incredibly well cared for.
    I was overwhelmed at the numbers of children at that point 
in time--this was in July of 2018--the vast number of 
unaccompanied children. Some may have been some of those who 
had been separated and were in the process of being reunited 
with their families. But I think, until I saw that, I really 
had not the full understanding of the massive numbers that our 
country has been dealing with since 2014, and the massive 
numbers of children who were separated from their parents in 
their home countries, smugglers and coyotes who were paid to 
bring those children. So, these children have been experiencing 
toxic stress for a very, very long time, including these 
unaccompanied children, as well as those that we separated. And 
for the record, I, too, was opposed to the separation of 
families and separation of children.
    I want to talk very briefly about one of the facilities. 
And, Commander White, there have been media reports about the 
variation of care, the tent city that we saw, Tornillo. It is 
my understanding it has since closed. Is that correct?
    Mr. White. The temporary influx facility, the Tornillo site 
has been closed. It's no longer necessary.
    Mrs. Brooks. And so, can you please talk with us, and I 
think this has to do with the fluctuations. And this has to do 
with what I would call a crisis that we have been handling, but 
not handling incredibly well, since 2014. We still have 
thousands of children. In December, there were about--I have 
the numbers--about 4,000 unaccompanied children that came each 
month in October, November, and December. Do you know what the 
numbers were in January? How many unaccompanied children do we 
have?
    Mr. White. I don't have with me monthly numbers, although, 
as a reminder, we do provide those to Congress monthly. I can 
tell you that, thus far this fiscal year, we've received just 
under 14,000 referrals, and that last fiscal year we received 
49,100 children in care. Over recent years, the fluctuation has 
been between 40,000 to 60,000 children a year that come into 
the care of ORR.
    Mrs. Brooks. And we are at 14,000 now?
    Mr. White. Thus far this fiscal year.
    Mrs. Brooks. Thus far? And do you have any way of 
predicting what is coming for the next three months?
    Mr. White. So, we have to use bed capacity modeling to 
anticipate how many beds we're going to need. But the most 
honest answer to your question is no one can predict how many 
kids will cross the river tomorrow.
    Mrs. Brooks. And because of that challenge--and my time is 
up--because of that challenge, I will be submitting some 
questions in writing relative to the future planning.
    Since we have absolutely no idea how many thousands upon 
thousands of unaccompanied children in addition to--and God 
forbid there are any further separations--but the unaccompanied 
children, our country has not dealt with this problem yet. And 
they continue by the thousands, and these are children who are 
coming to our country with no adults.
    And I yield back.
    Ms. DeGette. The gentlelady yields back. The gentlelady 
from New Hampshire, Ms. Kuster, is now recognized.
    Ms. Kuster. Thank you.
    Like my colleague, Ms. Schakowsky, I will try to keep it 
together. I am a mother. I have been an adoption attorney for 
25 years. I am very, very well versed, to quote the commander, 
and I want to thank you for your courage today, for your 
honesty, and for your compassion.
    The consequences of separation of children from their 
parents will be lifelong. I have been to McAllen, Texas. I have 
been to Brownsville. And I want to be very clear to my 
colleague, Mr. McKinley. I have seen the cages. I have walked 
through the cages. I have seen the children crying. I have been 
with the mothers who had no idea where their children were 
taken. We were all crying. It was a group of women, Members of 
Congress, mothers and grandmothers ourselves, weeping in the 
arms. The guards were weeping. I met two women breastfeeding 
their babies that were taken by the Government of the United 
States of America, breastfeeding their babies.
    So, I understand that you did not make that happen, but we 
are all citizens of the country that made that happen. And with 
all due respect to my colleague, Ms. Brooks, who is a friend 
and a colleague, yes, they faced trauma in their home country, 
and we need to do more. Yes, they arrive with trauma at our 
border, and we need to do better and open our arms with 
compassion. But we have inflicted additional trauma on each and 
every one of those children, and we need not forget until we 
get to the bottom of this. And I appreciate all of your 
professionalism in helping us to do just that.
    Now what I want to focus on is the children who are 
separated in your jurisdiction. I have great respect for the 
care that they are receiving. But they are being placed into 
child placement agencies, and they were sent at that time 
around this country, while their parents, mothers and fathers, 
were sent to detention facilities thousands of miles away. They 
had no contact. The women that we spoke to couldn't make a 
phone call. Then, they were charged for the phone call. They 
had no money.
    And I want to focus on the legality. My colleagues are 
doctors, I am a lawyer. Help me understand how those children's 
rights are being protected, and promise me, please, that not a 
single child has had parental rights terminated against that 
parent's will on grounds of abandonment or neglect because the 
United States of America separated that parent.
    Mr. White. Let me look at the pieces of your question. 
First of all, ORR has no authority, this Congress has never 
provided authority to ORR to terminate parental rights. That is 
not something we do. We also----
    Ms. Kuster. Sorry to interrupt.
    Mr. White. Yes?
    Ms. Kuster. But can you promise me that there's no agency 
across this country where ORR has placed a child that has 
somehow slipped into a State court, a county court, and urged 
the termination of parental rights because this child was, 
quote, ``abandoned at the border''?
    Mr. White. So, as it happens, our grantees are prohibited 
by program regulations from attempting to intervene in 
custodial matters in court. And indeed, in previous years where 
there have been isolated cases where someone attempted that, we 
have fought against that. So, I can be very clear about that. 
We do not allow that.
    But I need to talk, because I think this is also very 
important that people understand this, about what discharge to 
a sponsor means. Because I hear in the media all the time talk 
about discharge to sponsor, like that's some kind of crypto 
adoption. Sponsors are members of the child's family 
overwhelmingly.
    Let me give you the exact statistics for the year, because 
it's very important. Because when we talk about the children 
who transited ORR care and were discharged to sponsors before 
the court's order, let's talk about those children in the 
context of what that population looks like.
    So, in 2018, 86 percent of the children in our care were 
released to an individual sponsor, and 42 percent of them went 
to parents, 47 percent of them went to close relatives. That 
means an aunt, an uncle, a grandparent, or a sibling. And 11 
percent went to a more distant relative, like a cousin, or a 
nonrelative that's a family friend generally identified by the 
parent in home country.
    Ms. Kuster. Commander, I am sorry to interrupt.
    Mr. White. And that's important.
    Ms. Kuster. My time is up. I agree with you that is 
important, and I would far rather have those children in a 
loving home with a parent, a grandparent, someone who will care 
for them, than to have them separated and placed in an agency. 
So, I appreciate that.
    Ms. DeGette. The gentlelady's time has expired. The 
gentleman from Virginia, Mr. Griffith, is recognized for 5 
minutes.
    Mr. Griffith. I thank our chairman very much, and am 
pleased to welcome you to that chair, and look forward to 
working with you over the next several years in that capacity.
    Let me just make it clear that the question earlier was, 
Could somebody slip into a state court? As a former practicing 
attorney in that arena, and with a spouse who is a juvenile and 
domestic relations district judge in the Commonwealth of 
Virginia, you can't guarantee somebody won't commit an improper 
act, but it would be a fraud on the court to indicate that a 
child had been abandoned when that child came into this country 
with a parent.
    But the bigger question for all of this is all those 
thousands of children. How many did you say it was last fiscal 
year that came across who were unaccompanied when they came to 
the border?
    Mr. White. So, the total number referred last year was--
excuse me--I believe 47,000. I had it in front of me a moment 
ago. I'm sorry.
    Mr. Griffith. I believe you said the average over the last 
several years had been between 40 and 60. So, 47 would be on 
track.
    Mr. White. Right.
    Mr. Griffith. If not exactly accurate, it would be 
consistent with the average, is that correct?
    Mr. White. Right. If I take my glasses off, I should be 
able to give you the number. Yes, last year, in fiscal year 
'18, it was 49,100 children. Over the last several years, it 
has fluctuated between 40,000 and 60,000 children a year.
    Mr. Griffith. And when they come across unaccompanied, you 
all take charge of them, as we heard earlier, make sure they 
get some medical attention, both physical and mental health, is 
that correct?
    Mr. White. Yes, they're referred to us by another Federal 
agency, and only a Federal agency can refer. We cannot lawfully 
take children directly, nor can State entities refer them. DHS 
refers them. And then, we designate which of our facilities is 
right for the child and has a bed for that child. And DHS 
brings the child to that facility. That's where we begin to 
provide services.
    Mr. Griffith. And for those who come unaccompanied in the 
first place, the 40,000-some predominantly, you all then try to 
find someplace for them, whether it's with family or with an 
agency, a placement agency, is that correct?
    Mr. White. So, we are required by TVPRA and the Homeland 
Security Act to place the child in the least restrictive 
setting. That means, almost invariably means, an individual 
sponsor, and we work with the family to identify that 
individual sponsor. But I really want to emphasize this. 
Children do not go out into the State adoption systems. That 
does not happen. And if we cannot find a family member, if we 
can't find a sponsor, working with the family, that can meet 
the emotional and financial needs of the child, and that can 
get through our vetting process for child safety, that child 
remains in ORR care, and can remain in ORR care in some cases 
until their 18th birthday.
    Mr. Griffith. And it's also a fact that there's lots of 
children who cross the border that you don't how many that is 
because they never are placed into any agency's hands at all 
and they don't come to your referral, and they're just in the 
country? Isn't that also true?
    Mr. White. Certainly. The majority of apprehended children 
are children who are a part of family units. That's what all of 
the separated kids were. But, ordinarily, family units are 
managed by ICE and the children don't come to ORR. Then, of 
course, also, there's some children who enter the country 
without status and they're not apprehended. We don't know, we 
don't have this ability on any of them.
    Mr. Griffith. And as a part of all this, of the 49,000 last 
year, roughly 2,800 were people who came across with a parent 
or with somebody in the family, and then they were separated, 
of which I also was opposed. And you all have placed all, I 
think you said, but six of those or determined that they can't 
be placed and are putting them through the standard process? Is 
that correct, yes or no? My time is running out on me.
    Mr. White. The 2,816 are the potential children of Ms. L 
class members.
    Mr. Griffith. OK. And Ms. L is a court case that the court 
said that you have to deal with these children in an expedited 
manner and get them back to their parents.
    Mr. White. Right.
    Mr. Griffith. I am going to have to move this along because 
I am running out of time.
    You have six cases left, but my understanding is that five 
of those, under the Ms. L case, the ACLU is playing a role, and 
that five of those have been delayed resolutions because you 
have been notified by the ACLU that there is something going on 
that they want to take a look at. Is that not correct?
    Mr. White. So, of the six children who might potentially 
still be reunified, one has a parent in custody. I don't mean 
ICE custody. I mean criminal custody.
    Mr. Griffith. OK. I need to know, are the five being held 
up by the ACLU?
    Mr. White. And the other five, I would not say they're 
being held up by the ACLU.
    Mr. Griffith. OK.
    Mr. White. I'm saying that we are awaiting an indication 
from the ACLU what the parent's final decision is regarding the 
child.
    Mr. Griffith. What the parent's decision is regarding the 
child?
    Mr. White. Right.
    Mr. Griffith. There's some question whether they want the 
child, as tragic as that is?
    Mr. White. Whether the parents wish to have the child 
reunified within, them in home country or stay in ORR care. 
There are five that we are awaiting that notification.
    Mr. Griffith. And that would create toxic stress, too, if 
your parent says, ``I don't want you back.''? The answer is, it 
answers itself.
    I yield back.
    Ms. DeGette. The Chair now recognizes the gentlelady from 
Florida, Ms. Castor.
    Ms. Castor. Thank you, Chairwoman DeGette.
    I want to associate myself with the remarks of my 
Democratic colleagues who have expressed outrage over the Trump 
administration's family separation. And it was entirely 
frustrating that the Republican majority refused to allow us to 
have a real oversight hearing. And I want the public to know 
what did happen. Rather than have an oversight hearing, they 
marched us over to HHS. And so folks understand, that is right 
next door. And the HHS leadership could have come here across 
the street, so that the public could understand and hear 
questions being asked in front of everyone. But, fortunately, 
we have rectified that here today.
    Commander White, we know that the Trump administration 
started this routine family separation well before it was 
announced, formally announced, in May of 2018. You have 
testified here today that you did express concern over family 
separations. How did you express that? You said you had 
conversations. Did you also put it in emails or write any memos 
to that effect?
    Mr. White. It's important to distinguish two different 
points in time. First, the discussion of this as a potential 
policy option, that began in February of 2017 and went through 
spring of 2017.
    Ms. Castor. Did you write any memos before, during that 
time?
    Mr. White. Yes, I produced memos, emails, and I raised it 
in meetings.
    Ms. Castor. OK. And then, after the policy was announced in 
2018, did you write additional memos and emails expressing 
concern over the----
    Mr. White. No, because I was not in ORR at that time. The 
subsequent period of discussion about this was regarding our 
informal observation within ORR that we were receiving a number 
of children who appeared to be separated in much greater 
numbers than----
    Ms. Castor. Did anyone, after the policy was announced in 
May 2018, did anyone within ORR tell HHS leaders that family 
separations should be stopped?
    Mr. White. I was not working in ORR at the time.
    Ms. Castor. But do you know of any? Have you seen any memos 
or emails, any written documentation?
    Mr. White. I have not seen memos or emails. The concerns 
that I had about separation were shared by every career member 
of my team. So, I'm confident that they continued to make 
those----
    Ms. Castor. After the separations began taking place, are 
you aware of anyone from HHS attempting to tell DOJ or DHS that 
the separations should be halted?
    Mr. White. I'm not aware of that, but that doesn't mean it 
didn't occur.
    Ms. Castor. You haven't seen any emails or memorandum from 
HHS to other agencies along those lines?
    Mr. White. No, but I'd----
    Ms. Castor. How about to the President? Or the President's 
Chief of Staff.
    Mr. White. Yes, I would not know.
    Ms. Castor. If HHS leaders didn't know that separations 
were under consideration, they were willfully blind. If they 
did know and they didn't speak up, they were complicit in the 
trauma that was inflicted on the children. And at the very 
least, when it became clear that separations were taking place, 
as the top health officials in the country, Secretary Azar and 
HHS leaders should have put their foot down and stood up for 
the children.
    Mr. White. Secretary Azar----
    Ms. Castor. There is little doubt that this administration 
failed that moral test. This administration failed the 
children.
    So, Ms. Larin, thank you for the work of the Government 
Accountability Office here.
    ORR officials told you that they were not given advance 
notice of the Attorney General's April 2018 zero-tolerance 
memo. It strikes me as inconceivable that the agencies that 
would be most affected and would be responsible for separating 
children and caring for them were not given any advance notice.
    Based on your expertise of looking into the operations of 
numerous Government agencies, wouldn't you expect all of the 
agencies that would be responsible for carrying out this policy 
to have been part of interagency discussions?
    Ms. Larin. Yes. One of the key things that we look at when 
we're assessing agency performance is whether they have 
appropriate internal controls. And by that, I mean, do they 
have a structure in place to achieve agency objectives?
    Ms. Castor. Including impact of family separations on the 
health and well-being of children?
    Ms. Larin. A key principle of internal controls is 
operating on the basis of reliable and accurate information, 
including information both internal and external to the agency.
    Ms. Castor. And we still don't know if Secretary Azar or 
Secretary Nielsen were given advance notice of the April 2018 
memo. However, if they weren't, once they became aware of the 
chaos that ensued, the trauma being inflicted on the children, 
the huge burden on ORR, would it have been reasonable for 
Secretary Azar to have reached out to DOJ and DHS to at least 
raise concerns about the harm the policy was causing?
    Ms. Larin. So, GAO has reported on the importance of 
interagency coordination, and that that is key to planning, the 
involvement of stakeholders----
    Ms. Castor. Did you come across any memos along the lines I 
asked Commander White of anyone at HHS expressing concern to 
DHS, DOJ, the President, or the President's Chief of Staff?
    Ms. Larin. We did not get any evidence that that 
consultation occurred.
    Ms. Castor. Did you ask for it then?
    Ms. Larin. We asked if there was any consultation, and we 
were told there was none.
    Ms. DeGette. The gentlelady's time has expired. The Chair 
now recognizes Mr. Duncan from South Carolina for 5 minutes.
    Mr. Duncan. Thank you, Madam Chair. Thanks for allowing us 
to delve into the issue of children apprehended at the southern 
border when they cross illegally into this country.
    The gentlelady from Illinois, Ms. Schakowsky, just asked 
Commander White from HHS, ``Do we know how many kids are 
currently separated from their parents at the southern border 
in this country?'' Let me ask this: Do we know how many 
children were brought into this country by coyotes and sold 
into the sex slave market to be violated primarily by men in 
towns like Chicago or Atlanta? The answer is no, we don't. 
Because we don't know how many people, children or otherwise, 
cross our southern border annually.
    We are investigating today the separation of kids when 
apprehended at the border and what we, as a nation, when 
apprehending unaccompanied or accompanied children illegally 
entering this country, working to assess their situation--is 
that a family member they are with or is it a coyote, somebody 
that is wanting to traffic that child? What is their physical 
condition? What is their health? A lot of them come with a lot 
of problems. We need to assess, do they have immunization or 
are they bringing in something that may affect the children 
within our communities where they are relocated? That is the 
absolute appropriate thing to do in this Nation, to find out 
the health of these children before they are turned over to 
loved ones.
    That takes a little time to do DNA tests on who they were 
accompanied with and that child to see is that a family member, 
to make sure that we are not allowing that child to go with a 
human trafficker to be sold into the sex slave market. Super 
Bowl weekend, 169 individuals were arrested in a sex sting 
operation. Eighteen victims were freed.
    I am wearing this ``X'' because today is Human Slavery 
Awareness Day. Forty million people in this world are currently 
in the slave market, are currently enslaved. Seventy percent of 
those are women, and 1 in 4 in the world are children--
children. It is right that we are shining light on this issue 
at the southern border of these children. It is right that our 
Nation is trying to do right by these children, to make sure 
that they don't end up in the sex slave market or end up in the 
slave market working for someone in their household, to make 
sure that they are reunited with family members here or 
reunited with family members back in their country.
    Because let me remind this committee that they have entered 
this Nation illegally. Right or wrong, whether they are sent 
north by their families from Guatemala, Honduras, El Salvador, 
or other places, to try to, hopefully, make a better life for 
that child, or whether they are accompanied with a parent 
coming across the border--right, wrong, indifferent, whatever 
the issue is--we, as a nation, need to make sure that we are 
doing right by the children.
    And so, I want to urge this committee and this Congress to 
not just focus on this issue of children at the border and what 
HHS and ORR are trying to do, because I believe you are trying 
to do the right thing. And there are laws on the books about 
what we are supposed to do. But to also focus on the issue of 
what is a reality for many children that enter this country and 
enter the slave market, whether it is the sex trade or others, 
all over the globe, we have the power in this Congress to do 
that.
    And, look, I am for a border wall because, according to a 
DHS special agent, we need to build the wall for the children. 
This is an article that is dated January the 29th that I would 
ask to include in the record, Madam Chair.
    It is great that we are focused on this issue, Madam 
Chairman. It is important that we make sure that our Nation is 
doing right by those that want to come into this country, and 
that we are doing right by American citizens, where those that 
do come into this country are immunized and are healthy and are 
reunited with loved ones, and all that. But let's focus also on 
this ``X'' and the human trafficking that is going on all over 
the globe and is a big issue on our southern border, that we 
failed as a committee and as a Congress to address as part of 
this issue.
    And with that, I will yield back.
    Ms. DeGette. Without objection, the gentleman's Fox News 
submission is entered into the record.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. The Chair now recognizes the gentleman from 
New York, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Madam Chair.
    Later today, we will hear about the chaotic attempts to 
reunify children with their parents from child welfare experts 
outside of this administration. We will hear shocking stories 
of how children were ripped away from their parents and the 
effect that this trauma will have on the rest of their lives.
    Before we have that dialog, however, I think it is 
important to understand from this panel how we got to that 
place. So, Ms. Larin, the very first line in your report 
states, and I quote, ``The agencies did not plan for the 
potential increase in the number of children separated from 
their parent or legal guardian as a result of the Attorney 
General's April 2018 zero-tolerance memo.'' Is that correct?
    Ms. Larin. That's correct.
    Mr. Tonko. OK. And then, further, Ms. Larin, is it also 
true that CBP and ICE and ORR officials told you that they did 
not take specific planning steps because they did not have an 
advance notice of the AG's memo and only became aware of it 
when it was announced publicly?
    Ms. Larin. That's correct.
    Mr. Tonko. So, then, further, Ms. Larin, did GAO speak with 
anyone in the Secretary's office at HHS about the awareness of 
the AG memo?
    Ms. Larin. We did not talk to the Secretary.
    Mr. Tonko. If not, as you are indicating, is it possible 
that they had some awareness of that situation?
    Ms. Larin. We're not aware of any awareness.
    Mr. Tonko. Commander White, last year in front of the 
Senate Judiciary Committee, you testified that, while neither 
you nor anyone who reported to you had any advance knowledge of 
the Attorney General's memo, they had been in discussions over 
the previous year about policies that could result in a 
separation of kids from their family unit. We also know from 
GAO that ORR considered planning for continued increases in 
separated children, but HHS leaders advised them not to engage 
in such planning. During this time, you were the Deputy 
Director of ORR with responsibility for the unaccompanied 
children's program. Who specifically within HHS leadership told 
you not to plan for continued increases in separating children?
    Mr. White. I received that from Scott Lloyd and from Maggie 
Wynne, who were, respectively, at that time the Director of ORR 
and the Secretary's Counselor for Human Services.
    Mr. Tonko. Thank you. And, Commander White, given that you 
previously testified that you never met Secretary Azar prior to 
the implementation of the family separation policy, is it 
possible that discussions occurred amongst HHS leaders prior to 
implementation without your knowledge or awareness?
    Mr. White. I couldn't speculate on what occurred without my 
knowledge.
    Mr. Tonko. But is it possible? I'm not asking you to 
indicate that it did happen. Is it possible?
    Mr. White. Of course it's possible, but I wouldn't be the 
person to ask because I don't know.
    Mr. Tonko. Commander White, did you agree with the decision 
not to plan for continued increases?
    Mr. White. It was my hope that the reason that we were not 
planning it is that that meant that separation would not occur. 
I experienced relief at that notification that separation would 
not occur.
    Mr. Tonko. Do you believe ORR would have been better 
prepared to care for and reunify separated children had it been 
allowed to plan for continued increases?
    Mr. White. We would have been better prepared for the 
capacity issues. However, to be clear, we were able to 
successfully reunify thousands of children with their parents 
because Judge Sabraw in the Southern District of California 
created a pathway through his orders for us to do that. We 
could not have effected the reunification of children with 
their parents in ICE custody absent his providing a way to do 
that, under our steady-state authorities.
    Mr. Tonko. But it took hundreds of HHS staff, did it not?
    Mr. White. Well, it absolutely did.
    Mr. Tonko. Well, thank you for your responses.
    This administration should never have had a family 
separation policy to begin with, but they made it worse by not 
even notifying ORR about it, the very agency that would be 
tasked with caring for these thousands of kids. I just find 
that totally unacceptable. And as a New Yorker, we are proud of 
the fact that we border along the bay with the Statue of 
Liberty and the inscription included therein: ``Give me your 
tired, your poor, your huddled masses yearning to breathe 
free,'' and not including your children looking to be separated 
from their parents. I find this whole approach so deplorable on 
behalf of our kids and the trauma that will follow them for 
their lives.
    With that, I yield back, Madam Chair.
    Ms. DeGette. The gentleman yields back. The gentleman from 
Oklahoma, Mr. Mullin, is now recognized for 5 minutes.
    Mr. Mullin. Thank you, Madam Chair. And thank you, 
everybody, for being here.
    Obviously, this is a very emotional topic that people have 
strong feelings about, which we should. I am a father of five, 
and two of my beautiful kids are adopted. And every child 
deserves a home and a loving parent. And there is just not 
enough homes out there welcoming everybody. Unfortunately, that 
is what we face.
    We do that currently right now. In Oklahoma, there are not 
enough foster parents out there. There are not enough parents 
that are willing to adopt that are out there. Yet, we have an 
influx of children coming across our southern border. The 
question is, what do we do with them? How do we do it?
    Ms. Maxwell, HHS OIG issued an issue brief which found in 
part that thousands of additional children may have been 
separated from their adult parents by DHS and referred to ORR. 
In the context of this report, is it referring to children who 
may have been separated from a parent or legal guardian only 
for any specific reason?
    Ms. Maxwell. So, with respect to the agreement, this issue 
brief is a broader perspective, and separations could have 
occurred for a myriad of reasons.
    Mr. Mullin. But you said thousands more. You said there are 
possible thousands more. Where did you come up with that 
information where you said thousands more?
    Ms. Maxwell. Sure. Thank you for the opportunity to talk a 
little bit more about that. So, the thousands estimate was 
provided to us by HHS officials that were running the program 
and tracking separated children. And it relates to a 
significant increase in the number of separated children that 
they noted----
    Mr. Mullin. But you said ``possible''. How would we not 
know the exact number? I think Commander White said that, you 
know, I mean you keep track of every child, is that not 
correct, that is referred to you?
    Mr. White. We absolutely do. However, the question as to 
how many of the children we received who had been appropriately 
discharged before the judge's order, how many of them were 
separated, no one in HHS has a definitive list to work from.
    Mr. Mullin. How long has this separation been going on? Not 
underneath the current policy, how long has separation from an 
adult or a parent been going on on the southern border?
    Mr. White. So, let me make one bright-line distinction. 
Separation from parents and legal guardians is legally 
different from separation from anyone else.
    Mr. Mullin. Well, but we have got to determine if they are 
actually legally their parent, right?
    Mr. White. Correct. Separation----
    Mr. Mullin. But how long has that separation been going on 
on the southern border?
    Mr. White. Some separations have, as I've said elsewhere, 
have always been part of the program.
    Mr. Mullin. OK.
    Mr. White. We have separations for cause.
    Mr. Mullin. So, this was going on during the Obama 
administration, too?
    Mr. White. Separations for cause are distinct from large-
scale separation----
    Mr. Mullin. Well, but we still do separation of cause.
    Mr. White. Correct.
    Mr. Mullin. There is a large number that is coming into it. 
We know it is a $2.4 billion human trafficking industry now 
that the cartels are running. So, there is always a cause for 
us to have concern about anybody coming across the border when 
we don't know for sure that it is their parent. And we can't 
just take the adult's word for it. How long has this separation 
been going on, though? Was this practice not going on 
underneath the Obama administration, too?
    Mr. White. So, prior to what we saw beginning in July of 
2017, separations from parents occurred typically for one of 
four circumstances. The parent was medically unable; there were 
doubts about parent----
    Mr. Mullin. But, no, just it's been going on before, 
though? That is what I am trying to get----
    Mr. White. What we have seen over the last few months, 
however, was not going on prior to July of 2017. However----
    Mr. Mullin. But the separation for the concern of the child 
has been going on through the Obama administration, too?
    Mr. White. Correct.
    Mr. Mullin. OK.
    Mr. White. And before.
    Mr. Mullin. Now we have talked about this cage that is a 
detention holding area that----
    Mr. White. Correct.
    Mr. Mullin. We have been talking about this cage. Now there 
is a picture floating all around the internet of this cage. 
That cage is from 2014.
    Mr. White. The images that I have seen in the media are 
mostly from the Nogales processing center during the 2014----
    Mr. Mullin. Right. So, 2014. So, that was under the Obama 
administration, right?
    Mr. White. Correct.
    Mr. Mullin. Yes, correct.
    Mr. White. Yes, I worked----
    Mr. Mullin. So, my colleagues on the other side want to say 
that this is the Trump separation, the family separation, but 
the separation was going on prior to this. And all it is, is 
about the safety of the children. Now, if we can't agree on 
anything, let's not make a political point out of this and 
start pointing fingers at each other. It is about the children. 
It is about the children.
    I know some of you guys have opened your homes up to kids, 
but how many of you have actually opened your homes to kids? 
Right now, I have six living with me. Three are biological. So, 
you want to talk about opening your family and talk about the 
kids? Then get off your butt and do it yourself. Do you want to 
really be compassionate about it? Then open your house up. Oh, 
wait, just make a political point: ``I am OK with just sitting 
here. I am OK with just saying we need to do something.'' Well, 
do more than just say something. Now, there are some colleagues 
of mine on both sides of the aisle that have been great, that 
have opened their houses up, but there are few. But everybody 
wants to make a political point.
    The fact of the matter is, at the end of the day, it is 
about taking care of the kids. And if we can get away from the 
political rhetoric and just focus on the kids, then we might 
actually be able to get something done. But, as long as we dig 
in and point fingers, we are going to be right here 2 years 
from now, too.
    I yield back.
    Ms. DeGette. The gentleman yields back. The Chair now 
recognizes the gentleman from California, Mr. Peters, 5 
minutes.
    Mr. Peters. Thank you, Madam Chairman. Thank you. Thank 
you, Madam Chairman.
    And thank you to the witnesses. I have found your testimony 
so far to be very forthright and helpful.
    I will just say that families coming to the United States 
seeking refuge and asylum are expected to be met with American 
welcome, and I think, in the style that Mr. Mullin might have 
wanted, but this administration chose to go against decades of 
immigration policies that kept families together and court 
rulings that establish protections for migrant children. And 
when we talk about separating kids for cause, it is because it 
is for cause in those individual circumstances where the 
evidence suggests that that would be the right thing for the 
child. It wasn't this wholesale separation that took place 
under the Trump administration. I think that is what is new and 
that is what concerns a lot of members of this committee.
    As a San Diegan, I know the border is part of our identity 
and our culture, and San Diego and Tijuana are inextricably 
linked. The border we see as an opportunity, not as a threat. 
And ripping terrified children from their parents' arms is not 
the policy of neighbors.
    We must acknowledge the lasting trauma that these children 
may face for the rest of their lives. It is horrific to know 
that our Government causes pain, and we, as a Congress, have a 
duty to provide support and resources to assist separated 
families.
    I do want to acknowledge the work of the court system as an 
institution that has stepped in and made a difference here, 
partly because it was the court in my home district, the 
Southern District of California. It was Judge Sabraw, who I 
actually practiced law with a long time ago. And he is one of 
many Federal judges. He happened to be a Republican appointee 
who takes his job of providing justice very seriously in an 
impartial and nonpolitical way.
    Commander White, in a recent court filing, you stated the 
statistics suggest that, if a separated child who ORR 
discharged before June 26th, 2018, remains in the United 
States, then he or she is, quote, ``probably with their 
family.'' In considering what we know about the challenges HHS 
has faced in identifying separated children, what level of 
confidence do you have that these separated children were 
placed with their family?
    Mr. White. Thank you, sir. So, let me clarify this. While 
we do not know because it was never provided to us in HHS, 
while we do not have a list of every kid who was referred to us 
as separated, we absolutely do know to whom we have discharged 
every child who's been in our care. So, when we speak about 
those children who were separated and referred to us and 
appropriately discharged before Judge Sabraw's decision on the 
26th of June, we can speak with certainty about what happens to 
children in that process.
    So, the answer is--and I alluded to the statistics 
earlier--is, during that year, 86 percent of children in our 
care went to an individual sponsor. Ninety percent of the time 
that's to a parent, sister, brother, aunt, uncle, or 
grandparent, and the remaining 10 to 11 percent of the time, 
it's to a cousin or their distant relative or a family friend. 
So, while I don't know which of the kids were separated, 
because I haven't been given that list, I do know what happens 
to children who exit ORR care. And indeed, if someone cared to 
give us that list, we could walk through it. But that is the 
answer to that question. That's why I said probably they're 
with family members, because that is to whom we discharge the 
vast majority of children.
    Mr. Peters. And in your recent court filing, you stated 
that you believed ORR would face significant hurdles if it 
tried to collect information from separated children who were 
discharged before June 25th.
    Mr. White. Yes, sir.
    Mr. Peters. And that you believe that attempting to reunify 
them with separated parents would present, quote, ``grave child 
welfare concerns''. Can you explain why you think that that 
would be a grave concern?
    Mr. White. Yes, sir. I think it's helpful if you look at 
the whole paragraph in the declaration. So, here's what I said 
about grave child welfare concerns. And what I said was that, 
is that, in some instances, the sponsor, that family member, 
might not wish to have the child, or the child might not wish 
to come back into Federal custody, so we could go through this 
legal process.
    And since in ORR there is no capacity to go and take 
children into custody, what would that actually look like? And 
I really want this understood. What that would actually look 
like is ICE agents or other Federal law enforcement going into 
an immigrant family's home to forcibly remove that child and 
put them back in Federal custody.
    So, yes, I believe that has a very significant risk of 
retraumatizing a child who's already been traumatized in many 
cases by separation, and I stand behind the truth of what I 
said in that declaration.
    Mr. Peters. But you agree----
    Mr. White. That's not how it's appeared in the papers, but 
that's what I said.
    Mr. Peters. But you do agree that we should try to 
determine where children went, who they are separated from, 
make sure their parents and guardians know where they are?
    Mr. White. I think we are eager to comply, as we have thus 
far, with whatever Judge Sabraw determines that we need to do. 
And I think it's very important that people know the full 
story. But I want to be clear, we will not have at our disposal 
the same tools to identify children in care, nor will we have 
the same capacity for children who are no longer in care. It's 
just a completely different ball game.
    Mr. Peters. All right. Thank you.
    I yield back.
    Ms. DeGette. The Chair now recognizes the gentleman from 
Massachusetts, who I am delighted to say will serve as the vice 
chair of this subcommittee for the 116th Congress, Mr. Kennedy, 
for 5 minutes.
    Mr. Kennedy. Well, thank you, Madam Chair.
    I want to thank our witnesses here for your testimony and 
for your service to our country.
    A couple of points, right off the bat. One, I think if I am 
hearing everybody correctly, Commander White, you indicated 
that there was a policy put in place on a memo signed by the 
Attorney General of the United States of America that directly 
impacted individuals would be or should be in your care, and 
you didn't know about it until it was announced on television. 
And when asked, it was denied that that policy existed. Is that 
right?
    Mr. White. So, my questions about separation preceded the 
policy announced, based on observations that we were seeing 
above what we would expect to see in terms of the ordinary 
separations for cause.
    Mr. Kennedy. So, the second point, my colleagues have 
pointed out how good a job a number of agencies are doing on 
the border and trying to address this and a number of other 
concerns, which they have gone to great lengths to explain that 
this is being well addressed and well taken care of, which I do 
hope that the lawyers from the White House are looking at that, 
as they contemplate an emergency declaration for immigration, 
for potential immigration moves, depending on what happens next 
week.
    Third, Commander, you had mentioned a number of folks who 
raised concerns about what was taking place, but that that 
didn't change. Do you have any idea why your concerns weren't 
heeded?
    Mr. White. I elevated to my leadership, my immediate 
leadership, my concerns that separations were occurring, and 
that if we saw larger-scale separations, it would exceed our 
capacity, and additionally that separating children from family 
units was inconsistent with the best interest of the child.
    Mr. Kennedy. Understood, sir, and I apologize to cut you 
off. You have been forthcoming. I just don't have that much 
time.
    You never got additional--but you well entered those 
concerns, and were you ever told why they weren't going to do 
anything about it?
    Mr. White. I was told that family separation wasn't going 
to happen. And I have no reason to doubt the veracity of their 
statements. I think that's what the people who told me that 
also believed.
    Mr. Kennedy. I appreciate that.
    There is testimony that is coming on the second panel that 
indicates that children are still being separated from their 
parents at the border. And while these reasons for separation 
are not often clear, it is evident that separations are 
occurring at elevated levels compared to past years. Ms. Abbott 
I believe will testify to those words.
    Ms. Maxwell, you testified to the fact that ORR has 
continued to receive children who have been separated from a 
parent or guardian. Do you know whether those separations are 
still at an elevated level?
    Ms. Maxwell. Indeed, the separations that have occurred 
after the preliminary injunction are about twice the level as 
they were in late 2016. It's still significantly less than the 
peak that we saw in the summer of 2017, but the average is a 
little less than 1 percent.
    Mr. Kennedy. And, Commander, do you have any concern that 
those separations are coming for anything other than good 
cause, given the four strict limited categories of good cause 
that you enumerated earlier?
    Mr. White. So, we strive to identify the reasons for 
separations. That is part of the information that we've added 
to the portal. But, to answer your question, Congressman, there 
is no specification in law from you all in Congress about the 
permissible grounds for separating a child from a parent. And I 
would submit that, if you want to see that, that's on you all.
    Mr. Kennedy. I appreciate that, sir.
    Moving from the children to the facilities, I visited a 
number of them as well. I want to ask specifically, though, 
about some reports that have come to my attention that the 
Trump administration is working to house detained children on 
land that was owned, or is owned, by the Department of Defense 
that is not currently being used because it is contaminated 
with toxic chemicals, including lead, arsenic, mercury, PFAS, 
and perchlorate. Even for an administration that seems to go 
out of its way to treat immigrants as less, this seems a new 
low. We know that children are vulnerable for toxic waste and 
that even low levels of exposure can result in permanent health 
damage, as if, given the testimony that we've heard, these kids 
have not already gone through enough.
    So, Mr. White, can you detail for the committee any 
discussions that HHS or ORR has had with DoD regarding the use 
of the land that might contain toxic chemicals?
    Mr. White. Thank you. We actually got your letter 
yesterday, and you allude to two military installations. Let me 
be clear. One of them is a military installation we did use in 
2016 to shelter 8,800 children. That's Fort Bliss. As a 
reminder, Fort Bliss is 1\1/2\ times the land area of the State 
of Rhode Island.
    We do not--I really want to be as clear as I can be about 
this--we do not set up temporary influx shelters on sites that 
pose an environmental health risk to children. In fact, we have 
ruled out sites in the past specifically on that basis that 
were otherwise suitable. We vet hundreds of potential sites 
that sister agencies identify. The sites that you identify in 
your letters are ones that had already been precluded by HHS. 
We had already ruled them out before we even got to the 
environmental health assessment because there were other things 
that made them unsuitable.
    Mr. Kennedy. And, sir, just briefly, because I am running 
out of time here. I appreciate that feedback.
    A facility in Homestead, Florida, was not required to 
obtain State licensure because it is located on federally owned 
property. That begs a question as to whether recent efforts to 
identify more Federal property to house these children is in an 
effort to circumvent some of those State licensing 
requirements. Do you have any knowledge as to any effort to do 
so?
    Mr. White. So, I have worked on every single influx 
sheltering mission in the history of this program. And I'll 
tell you something that goes back. I would love it if they were 
State-licensed. The life of every career person and every ORR 
official who works on that would get tons easier. But the 
reality is, it's not that we get around licensure, it's they're 
licensure-exempt.
    We are not appropriated with enough funds to maintain a 
steady capacity that accounts for the real surges we see. So 
there are times when we must use temporary influx facilities 
because the alternative is border stations, and we've heard 
conversations today about why border stations, although they 
are absolutely suitable for law enforcement, are not suitable 
for child welfare.
    I am very proud of the work that I have done and my 
colleagues have done in influx shelters and the way that we 
maintain program standards under incredibly difficult time 
situations with fluctuations in the numbers of children we get.
    Ms. DeGette. The gentleman's time has expired.
    Mr. Kennedy. I appreciate it, sir. Thank you.
    Ms. DeGette. The gentlelady from California, Ms. Barragan, 
is recognized for 5 minutes.
    Ms. Barragan. Thank you, Madam Chair.
    And thank you all for being here today and, Commander, for 
some of your responses.
    I actually have visited an ORR facility down in San Diego 
with several of my colleagues. So, one of my colleagues on the 
other side of the aisle asked, what's a day in the life, you 
know, what is it like, a day in the life? And let me tell you, 
when I went to go visit this facility, and talking to some of 
my other colleagues that have visited other facilities, what we 
saw were children, children who were very quiet, children who 
were not playing and happy and interactive like kids should be. 
And what we saw was the impact of trauma that was happening, 
kids that were crying for their parents, kids that wanted to be 
with their parent.
    And I heard an official say, ``Oh, the kids have it really 
good here. They've got a bed. They can play.'' And one of them 
even said, ``They have it better than my own kids do at home.'' 
And I was shocked. Well, your kids at home get to be with you. 
And to indicate and to just even say that a child has it well 
off here, when they are separated from their family, I think 
just shows just a complete ignorance of the trauma that is felt 
by these kids.
    And we have heard report after report of kids being 
reunited with their parents, feeling like they were abandoned 
by them, not recognizing them, not wanting to go back to them. 
I think it is so critical.
    Now, I have introduced a bill, a mental health bill, to 
making sure that we provide ongoing medical treatment for kids, 
even after they have left these facilities, because I don't 
think they are getting that care. And this trauma goes on for a 
very long time.
    Now, one of my questions was going to be about where can a 
Member of Congress actually find a standard that is being used 
to say that a parent is unfit and should be separated from 
their child. But what I think I have just heard you say is, 
there is no place a Member could look because there is no 
standard, and that is upon us in Congress to do. Is that 
correct?
    Mr. White. So, it is a question for DHS, the criteria that 
they use to effect separations for cause. But, to be clear, 
there is nothing in law which either precludes arbitrary 
separation or defines the terms for separations. Neither is 
there anything in law that gives us in the ORR program the 
authority to say that child is not separated after all and 
refuse a placement.
    Ms. Barragan. And equally speaking, there is no process for 
a parent to actually say, ``Well, that's not true'' or to 
appeal a finding that they should be separated from their 
child. Is that correct?
    Mr. White. So, there is no process.
    Ms. Barragan. OK. Thank you.
    One of the other mind-boggling parts of this whole aspect 
on this separation has been on how difficult it has been for 
the administration to reunite families and the lack of a 
tracking system. I read the January 17th, 2019, HHS OIG report. 
And from my reading of it, it says--the report is still not 
clear that ORR, HHS, and DHS can track separated families 
across agencies even today. Is that true, Ms. Maxwell?
    Ms. Maxwell. Yes. Both agencies have stated they've made 
improvements to their tracking systems. We do have ongoing 
concerns with the quality of the data being input into those 
systems. As I mentioned, current separations, information about 
them is being sent to ORR, but not always at the level of 
specificity and sometimes even limited information as to the 
reason of the separation. For example, while most of them are 
separated and the indication is for criminal history, we did 
note that some separations were, the reason given was 
immigration offense only. And some reasons were just given as 
``other.''
    So, given that lack of transparency about the reasons for 
current separations, we made a referral to the DHS OIG to look 
into this, because we think the quality of the information in 
those systems is as critical as having those systems.
    Ms. Barragan. So, Ms. Larin, maybe you can also chime in 
here. What needs to happen so that we can make sure that these 
data systems have the proper information-sharing and that 
vulnerabilities could be addressed?
    Ms. Larin. As I mentioned in my testimony, both agencies 
have made changes to their systems. Prior to the court order, 
neither one of them had a way to consistently indicate whether 
a child had been separated. Now each of them have a checkbox. 
But, initially, it was not clear that data was consistently 
being shared between the agencies. So, we have not assessed 
since then whether the systems are working to identify every 
child who's been separated.
    Ms. Barragan. OK. And then, Commander, when my colleague 
from Oklahoma was asking the question about how long 
separations have been going on, I think you tried to at least 
explain that they were not going on like this prior to the 
zero-tolerance policy. Would that be accurate?
    Mr. White. There have always been separations for cause 
throughout the history of the program. That is different from 
wholesale separation.
    Ms. Barragan. Commander, I am already over my time. There 
has been a change, hasn't there been?
    Mr. White. There has been a change. That's why we're 
talking.
    Ms. Barragan. Yes. So, just so everybody knows, I sit on 
Homeland Security as well. Secretary Nielsen came in, said 
there was no separation policy. She's lied before. But, then, 
of course, she starts mincing words, and when you really find 
out what is happening, it is they started prosecuting parents 
and that resulted in the separation of children. So, it is this 
administration's zero-tolerance policy. It is this 
administration that started this from happening, was trying to 
hide it. And now Congress is trying to make sure we provide 
that oversight, and we will continue to do so.
    I yield back.
    Ms. DeGette. The gentlelady yields back. The gentleman from 
Florida, Mr. Soto, is recognized for 5 minutes.
    Mr. Soto. Thank you, Madam Chairwoman.
    So, as far as I could tell, the timeline, we saw a 
Draconian immigrant family separation order come down without 
prior planning, coordination, or advice, from the White House, 
leading to absolute chaos. And for that, I am sympathetic to 
those of you who had to implement that, because you weren't 
given any advice on that.
    And we saw a population of separated children skyrocket. My 
colleague Mr. Kennedy mentioned the Homestead facility that I 
had the unfortunate honor of having to go to, after being 
blocked initially from being able to go. And there at the 
Homestead facility, the second largest that we had, 1,179 
teenagers were at this facility made for 500. And that was the 
first clear point for me that there was no preparation for 
this, much to do with the fact that the White House didn't give 
anybody advance notice and just threw it out there.
    The bottlenecking of these kids was caused by several 
policies like zero tolerance, but another one was the 
fingerprinting of entire adult members in the household that 
was an HHS decision in the Tornillo influx care facility and in 
other facilities.
    Commander White, did HHS implement the extra vetting 
process in 2018 to include all members of the household, in 
addition to parents or potential sponsors? Yes or no, because 
we will go into----
    Mr. White. I apologize. Could you say--I had a hard--I 
didn't actually hear you. I'm sorry.
    Mr. Soto. Did HHS implement extra vetting processes in June 
2018 to include all members of the household, in addition to 
the parents or potential sponsors?
    Mr. White. We expanded our biometric background check in 
2018, and subsequently we had a change in operational policy to 
waive some of those requirements again. We have been 
iteratively changing our review process in response to 
oversight from Congress, as well as our own lessons learned, 
since 2014.
    Mr. Soto. And, Commander, we will get into some of those 
things. Did HHS consider this new policy would affect the 
increase of the number of children under ORR's care and whether 
you all had the resources to meet those needs at that time when 
you implemented that additional fingerprinting?
    Mr. White. The two main variables that drive the number of 
kids in care at any time are the number referred each day on 
average and the number discharged each day on average. So, 
among the variables that we looked at in modeling scenarios was 
a continued decline in discharge rate that did occur.
    Mr. Soto. And then we saw later HHS announce that it would 
no longer require the additional vetting, determining, quote, 
``Additional steps required to fingerprint all household 
members has had an impact on timely release of UAC without 
demonstrating benefit to the safety of children after they're 
released from ORR care.'' And we saw HHS Assistant Secretary 
Johnson state that adding anything to the protection or safety 
for these kids through the extra vetting was accomplished 
without those means.
    Going into sort of our next question, within a month of the 
actual vetting policy reversal, the last of the children held 
at the Tornillo influx care facility were gone. Did HHS conduct 
an analysis of this fingerprinting policy prior to or after its 
implementation?
    Mr. White. So, both. So the right way of understanding this 
is that we iteratively are constantly looking at our release 
processes for safe and timely discharge. And I want to be clear 
with you, Congressman. Safe discharge and timely discharge have 
some friction between them.
    Mr. Soto. Sure.
    Mr. White. The safer you make a review process for a 
sponsor, the longer the average length of care. Our motivations 
were to increase child safety. That particular operational 
change, after we were able to see how it rolled out in 
practice, it burdened discharge rate more than it benefitted 
safety, and that is why Assistant Secretary Johnson made the 
announcement that she did. We continue to strive, and will 
continue to strive, to make changes as we need to, to find the 
optimal ratio between safety and timeliness in discharge.
    Mr. Soto. So, given the fact that it caused more of a delay 
than actually kept children safe and led to more mushrooming of 
the population, you all determined ultimately it wasn't in the 
best interest of the child to do that?
    Mr. White. That's right. All of our decisions in the ORR 
program must be guided by the best interest of the child, but 
they're also bounded by the appropriated resources we receive.
    Mr. Soto. Thank you.
    Ms. DeGette. The gentleman yields back. I have extended the 
courtesy to the ranking member for an additional around of 
questioning.
    Mr. Guthrie. Thank you very much.
    And, Commander White, it was mentioned that you had 
unaccompanied children at Fort Bliss, ORR had at Fort Bliss. I 
understand Fort Bliss is a massive place. I am sure you didn't 
put them in the parts of Fort Bliss that they don't belong. But 
you also said that was 2016?
    Mr. White. Correct. We----
    Mr. Guthrie. I want you to verify that was 2016.
    Mr. White. We operated a temporary influx shelter in 2016 
at the Dona Ana Range Complex on Fort Bliss. We sheltered 
nearly 9,000 children there. And because of that, we were also 
able to safely evacuate children out of the path of a hurricane 
from Florida and to prevent a backup in the border stations. I 
am proud of what we did at Fort Bliss. I'm proud of what we did 
over two administrations in every one of our influx missions.
    Mr. Guthrie. OK. And that was previous to President Trump's 
administration?
    Mr. White. Yes, sir.
    Mr. Guthrie. I just want to ask this question, and then I 
will finish up because I know we have got another panel coming.
    But just kind of putting where we are now is where I am 
getting at. So, has ORR's accounting and tracking of children--
separated children--changed since the zero-tolerance policy? 
Are you receiving the proper information from DHS to properly 
have the information you need about children that are 
separated, not unaccompanied, but separated for cause? And if 
not, what can Congress do--or, overall, let me finish--what can 
Congress do to make your job more effective?
    Mr. White. So, we have added--essentially, it's a box in 
the referral, the electronic referral system, that DHS 
personnel use and CBP personnel use to refer a child into ORR 
care, for the referring agency to indicate if this child has 
been separated and, if so, the circumstances of the separation, 
right. So, that is an improvement we've made electronically.
    We, additionally, have added more robust procedures in our 
own intakes process to identify and notify up if there are 
minors that the program that's providing care to the child 
believes are separated, so that we can more comprehensively 
track them.
    In terms of what Congress can do, it is reasonable to 
believe that, if there was clear legislative guidance about 
when a child may be separated from a parent, that would ease 
the work of both Departments, both our colleagues at DHS who 
are striving honorably to execute their requirements and us. 
Additionally, many problems would be prevented if ORR shared 
with DHS the power to determine who is unaccompanied. As a 
reminder, we accept all the children who are referred to us. A 
lot of things might be different if that power were equally 
shared between the two agencies. That's what Congress could do 
for us.
    Mr. Guthrie. Thank you. I appreciate it.
    Mr. White. That is only my opinion.
    Mr. Guthrie. I appreciate that.
    And I yield back.
    Ms. DeGette. Thank you. And Mr. Cardenas from California 
has come in. So, I will recognize him for 5 minutes.
    Mr. Cardenas. Thank you very much, Madam Chairwoman, and 
thank you for giving us, the legislative body, an opportunity 
to shed some light in full view of the American people and the 
world on how to get down to the bottom of what has been going 
on with the--I personally consider it an atrocity that any 
country would wholesale take action, intended action, of 
separating babies, children from their parents.
    I haven't heard of anybody in the psychological field that 
has said anything other than that is probably the worst thing 
that a person, that a society or any individual can do to a 
young brain, is to give them that experience of that trauma. I 
have not heard any of them say anything other than that trauma 
lasts a lifetime. Not only does it have a mental effect on that 
human being for a lifetime, it actually translates into 
negative physical effects as well.
    So, that having been said, it is alarming to me that 
earlier, I think it was you, Commander White, was quoted as 
making a statement along the lines that perhaps you are not 
even going to be able to reunite all of the children in custody 
today with their appropriate parents. My point on that is, if 
in fact that is what you were willing to admit, I thank you for 
that admission because, until that moment, we were given 
stories from the administration and from various departments 
that everything is going to be OK at the end of day, it is not 
that bad, all the children are going to be just fine.
    And nothing could be further from the truth. No offense. 
Once a child has been traumatized like that, it is never going 
to be just fine after that fact.
    I just want to remind us that the ability of not being able 
to return every single child to their rightful families 
eventually, and for us to do anything less than everything that 
we can do to make that right with that child and their family--
anything less than that would be like we are treating them like 
sweaters left behind in a lost and found. These are human 
beings. They might not be American human beings, but they are 
human beings.
    With that, I would like to ask some questions. Commander 
White, with the reports of children crying themselves to sleep 
at the ORR facilities, did HHS provide any advice or training 
to CBP on how to minimize trauma for these separated family 
members, particularly the children?
    Mr. White. So that's something we'd have to get back to you 
on. I do not know if there was any interagency discussion. HHS 
is a big agency. I did not myself provide any technical 
assistance to an interagency, but that is a question we'd need 
to get back to you on.
    Mr. Cardenas. OK. If you can provide that to the committee, 
that would be very important for us to know the answer.
    And again, Commander White, I am not here to beat you up. I 
am actually here to compliment you, because everything that I 
have heard about your comments have been pretty darn forthright 
and just straightforward with trying to paint a truthful 
picture about what happened and what has been going on.
    I apologize, I am having a hard time even asking some of 
these questions because it is just so startling that in the 
greatest country in the world we actually participated in this, 
in separating thousands upon thousands of children.
    But at what point in time was your Department made aware 
that there was going to be an increase, a drastic increase, an 
influx of children that would have to end up in your custody?
    Mr. White. I am not aware of any HHS--I have no personal 
knowledge of any HHS person being advised of ZTP, zero-
tolerance policy, prior to its public announcement.
    Mr. Cardenas. Because my time is short, thank you.
    Did you personally inquire or did you discuss with any of 
your colleagues at your level, above or below, if they were 
inquiring to ask if anybody else has heard, or at least----
    Mr. White. Because----
    Mr. Cardenas. Maybe they were inquiring, but they weren't 
getting any answers?
    Mr. White. Because in many interagency meetings it was 
clear to me that there were--that the possibility existed that 
separation was going to happen, indeed, that preparation for 
that policy possibility was underway, as I've testified 
previously, I did elevate those concerns to my own immediate 
leadership.
    Mr. Cardenas. But, as far as you know, no direct answers 
were given, based on the question I just asked earlier?
    Mr. White. Again, to my knowledge, no one in HHS knew the 
zero-tolerance policy. I have never heard an HHS person say to 
me, ``Yes, I knew the zero-tolerance policy was going to 
happen.''
    Mr. Cardenas. Thank you for your frankness, Commander 
White.
    Thank you, Madam Chair.
    Ms. DeGette. The Chair now recognizes the gentleman from 
Maryland, Mr. Sarbanes, for 5 minutes.
    Mr. Sarbanes. Thank you, Madam Chair. Thanks for the 
hearing.
    Thanks to our panelists.
    Ms. Larin, your inquiry in terms of the GAO's review of all 
this, was that confined to looking at what was happening in ORR 
or was it broader than that, looking at the other agencies and 
how they touched this issue of the zero-tolerance policy?
    Ms. Larin. We looked at planning both by HHS and by DHS.
    Mr. Sarbanes. DHS? Good.
    Ms. Larin. Or the lack of planning.
    Mr. Sarbanes. OK. So, I was fascinated when you gave your 
initial testimony, because you seemed to be describing a 
situation in which the official policy of the administration 
was that there would be no family separation, but the 
unofficial policy, going back to 2017, was that there would be 
a family separation, which obviously puts the professionals who 
are trying to do their job well in an incredibly difficult 
position. They sit in meetings having to interpret coded 
language or winks and nods, as in our official policy is not to 
separate families, but, in effect, on the down-low this is what 
we are really up to. Terribly disrespectful of people who are 
trying to do the right thing, as I believe, Commander White, 
you have indicated you were trying to do at every step along 
the way, and having to tolerate the kind of atmospheric 
conditions that seemed to be happening in these meetings and 
gatherings, where you are trying to pull information to allow 
you to do the right thing.
    So, Ms. Larin, I would just like you to expand a little bit 
on that disconnect. I mean, I have seen the Trump 
administration issue kind of shoot-from-the-hip policy 
directives that get carried on cable television before people 
in the agencies that have to own those directives even know 
about it through a combination of incompetence sometimes or 
other motivations. But this is an interesting case, because 
this is one where the powers that be seemed to know what they 
were up to, and they were saying officially, ``We're not doing 
any of that stuff. There's no zero-tolerance policy. There's no 
policy of separating families,'' but actually that is what we 
are doing.
    Describe that disconnect to me because you touched on it in 
your initial comments, and I think it is very telling as to the 
difficult position that so many people, just trying to do their 
job and trying to protect the interests of these families and 
children, were placed in as a result.
    Ms. Larin. So I noted in my testimony that there was an 
increase in separated children, children who were separated 
from their parents, between 2016 and 2017. And we were told 
that there were two different policies that potentially led to 
that increase. One of those was a memo by the Attorney General 
that was issued in April 2017, so a year before the April 2018 
memo, that prioritized enforcement of certain immigration-
related offenses. And there was also an initiative that was 
specific to the El Paso Border Patrol sector, which, again, 
increased referrals and prosecutions of immigration-related 
offenses, including parents of minor children, and that likely 
resulted in separations. So there were policies that were being 
implemented that could have led to that increase.
    Mr. Sarbanes. What is interesting about that is it almost 
sounds like the administration was finding ways to test this 
out before they moved into a more official posture on it. One 
would have thought, based on some of the ripple effects, that 
those more localized or targeted deployment of this policy 
would have demonstrated that they would have come back 
realizing that that was a terrible direction in which to go. 
But apparently the lesson they drew from it was that they 
should expand the policy more broadly, with the disastrous and 
tragic impacts that it has had for these children.
    And I yield back.
    Ms. DeGette. The gentleman yields back.
    I just have a couple of final questions for the panel.
    Commander, I think you had said, for the children separated 
before the April order, that it would be very difficult for HHS 
to now figure out where those kids went because most of them 
were released into custody, into their parents or whoever, 
right? Is that right?
    Mr. White. The important timeframe is not when they were 
separated. It's whether they had already been discharged from 
ORR by the 26th of June. When we looked at the direction of the 
court in Ms. L, every child, every single child who was in 
care, there was no start date.
    Ms. DeGette. Right. OK.
    Mr. White. The earliest separation of any kid on that list 
was separated in 2014. We went back as far as they went.
    Ms. DeGette. But the court order said you had to identify 
children after the time of the order. Is that right?
    Mr. White. There was no start date from when they were 
separated. What mattered for the order was whether they were in 
care on or after the 26th of June.
    Ms. DeGette. I see. So, what you are saying today is--and 
you painted this Draconian picture of if ICE went back into 
these homes and took these kids. I don't think anybody is 
suggesting that that is what we should do. But, if we were 
going to identify what Ms. Maxwell talked about, the potential 
thousands of kids who might have been separated--we don't 
know--it would probably take another court order to do that 
because of the interagency operations. Is that what you are 
saying today?
    Mr. White. I'm saying that I don't believe that we're 
capacitated to do--from July of 2017 until the court date, more 
than 47,000 children moved out of our door.
    Ms. DeGette. Right. Yes, but----
    Mr. White. The best way to get that would be to pose this 
question to the Department of Homeland Security because, as a 
reminder, HHS separated zero children.
    Ms. DeGette. Right. I understand.
    Mr. White. We weren't there when it happened.
    Ms. DeGette. Believe you me, I understand that. But, 
however--and you don't really have to answer this--but HHS said 
they couldn't identify those children before, and the court 
said to do it. So, we are going to hear from our next panel 
about what they want to do, but this is what we are concerned 
about, is these thousands of kids that the IG has identified 
that may or may not be with family members now. So, we will 
have to explore this further.
    There is one other thing. You had mentioned to 
Congresswoman Castor a memo that you wrote in 2017. Is that 
right?
    Mr. White. I apologize, the Castor memo?
    Ms. DeGette. No, you had told Ms. Castor you wrote a memo 
in 2017 to your supervisors.
    Mr. White. Yes, I wrote at least multiple memos.
    Ms. DeGette. OK. So, this is really more a message for your 
Department, and not for you. But, on January 18th, 2019, Mr. 
Pallone and I sent a letter to the Secretary asking for a 
number of documents. That would have been included in those 
documents. While we have received some documents in this 
committee, we did not receive that document or many other 
relevant documents. And so, I am asking you to please 
communicate to the Department that they do need to comply with 
this document request.
    And I would ask unanimous consent to put our January 18th 
letter into the record. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. White. And I know HHS is going to fully honor your 
request, and I've talked to folks. They're working very hard on 
going through that number of documents.
    Ms. DeGette. OK.
    Mr. White. That will happen.
    Ms. DeGette. And the last thing I will say is we really do 
value the efforts that you have made, but we intend to continue 
this investigation because many of the questions the Members 
have asked are questions you can't answer because these 
conversations took place above you.
    And I also want to thank all of the other witnesses for 
participating in this hearing and for your thorough 
investigations.
    Members will submit questions for the record. And I ask 
that the witnesses respond promptly to the questions.
    And with that, the subcommittee will dismiss panel 1.
    After the next panel has been set, we will invite them to 
the table.
    [Recess.]
    Ms. DeGette. The Chair will announce, because people have 
asked, we are expecting a series of votes between 1:30 and 2 
o'clock. And so, we are going to start with testimony from the 
second panel, and then, we will break when we go for votes. So 
that if people need to use the restroom or grab a quick bite, 
they can do that. And then, we will reconvene 15 minutes after 
the vote ends.
    I would now like to introduce our second panel. I don't 
know where Mr. Gelernt is. He is on his way.
    Mr. Lee Gelernt, who is the deputy director of the 
Immigrants' Rights Project of the American Civil Liberties 
Union, will be joining us.
    Ms. Jennifer Podkul, who is the senior director of policy 
and advocacy of Kids in Need of Defense.
    Welcome, Mr. Gelernt.
    Dr. Julie Linton, who is the cochair of Immigrant Health 
Special Interest Group of the American Academy of Pediatrics.
    Dr. Cristina Muniz de la Pena, who is the Terra Firma 
mental health director of the Center for Child Health and 
Resiliency, who is here on behalf of the American Psychological 
Society.
    Dr. Jack Shonkoff, Professor of Child Health and 
Development and Professor of Pediatrics, of Harvard Medical 
School.
    And Ms. Dona Abbott, the vice president of refugee and 
immigrant services of Bethany Christian Services.
    Ms. Abbott, I am sorry we don't have a name tag yet for 
you, but we are printing one off. These are the glitches when 
you have your first committee hearing of the year.
    I know all the witnesses are aware we are holding an 
investigative hearing, and when doing so, we have the practice 
of taking testimony under oath. Does anyone have any objections 
to testifying under oath?
    Let the record reflect that the witnesses have responded 
no.
    The Chair advises you, then, that under the rules of the 
House and rules of the committee, you are entitled to be 
accompanied by counsel. Do you desire to be accompanied by 
counsel during your testimony today?
    Let the record reflect that the witnesses have responded 
no.
    If you would, then, please rise and raise your right hand, 
so that you may be sworn in.
    [Witnesses sworn.]
    Ms. DeGette. Please be seated.
    Let the record reflect that the witnesses have responded 
affirmatively, and you are now under oath and subject to the 
penalties set forth in Title 18, Section 1001, of the Criminal 
Code.
    The Chair will now recognize the witnesses for a 5-minute 
summary of their written statements.
    There is a microphone and series of lights in front of you. 
It turns yellow when you have a minute left and red to indicate 
your time has come to an end.
    Mr. Gelernt, you are now recognized for 5 minutes, and 
thank you for being with us.

STATEMENTS OF LEE GELERNT, DEPUTY DIRECTOR, IMMIGRANTS' RIGHTS 
   PROJECT, AMERICAN CIVIL LIBERTIES UNION; JENNIFER PODKUL, 
   SENIOR DIRECTOR FOR POLICY AND ADVOCACY, KIDS IN NEED OF 
   DEFENSE; JULIE M. LINTON, M.D., COCHAIR, IMMIGRANT HEALTH 
    SPECIAL INTEREST GROUP, AMERICAN ACADEMY OF PEDIATRICS; 
  CRISTINA MUNIZ de la PENA, PH.D., TERRA FIRMA MENTAL HEALTH 
DIRECTOR, CENTER FOR CHILD HEALTH AND RESILIENCY, ON BEHALF OF 
   THE AMERICAN PSYCHOLOGICAL ASSOCIATION; DONA ABBOTT, VICE 
PRESIDENT OF REFUGEE AND IMMIGRANT SERVICES, BETHANY CHRISTIAN 
 SERVICES; AND JACK P. SHONKOFF, M.D., DIRECTOR, CENTER ON THE 
             DEVELOPING CHILD AT HARVARD UNIVERSITY

                    STATEMENT OF LEE GELERNT

    Mr. Gelernt. Thank you, Chair DeGette, Ranking Member 
Guthrie, and the rest of the Members. I apologize I was late.
    I am the lead ACLU lawyer in the family separation lawsuit. 
So, I'm going to talk a little bit from that background, talk a 
little about the lawsuit, where we are, what I think needs to 
happen.
    I've been working at the ACLU for more than 25 years doing 
civil rights work in the immigration area. And I feel confident 
in saying that the family separation practice is the worst 
thing I have seen in my 25-plus years. No other administration 
has done anything like this family separation policy. I think 
the prior panel made it clear that it was very limited in the 
past, it was for cause. It was not this widespread systemic 
family separation. And I think, worse still, family separations 
are still occurring, as the prior panel mentioned.
    We filed our lawsuit in March of 2018, and this is before 
zero-tolerance policy. And at that point, we alleged, based on 
talking to lots of people all over the country, that there were 
hundreds of separations. By the time I stood up in court in the 
beginning of May, the media had recorded roughly 700 
separations. I think it now is clear that there may have been 
many more, but this is even before the zero-tolerance policy.
    And when the court ruled on June 26th, the Government 
reported that there were 2,700 separations. Those 2,700 are 
not, obviously, the whole story, as this committee has talked 
about previously with the prior panel. The Government's 
response now to the HHS report doesn't dispute that there may 
have been thousands more kids separated and released from ORR 
before the June 26th date of the court's order.
    What I find remarkable is that HHS is saying it may not be 
worthwhile and just too hard to actually try and find where all 
these children are and where the parents are, and that it is 
remarkable that HHS is saying it may be in the child's best 
interest not to do so.
    And Commander White mentioned that it would not be great 
for ICE to now be showing up at all these children's houses. 
And I'd like to talk about this more, hopefully during the 
questions, but we see no reason why that would have to be how 
it would be done. The information could be provided to social 
workers, to us, just as it has in the past, and we could find 
out what the family wants to do. But to say in the United 
States it's not worth finding children the Government separated 
seems to us to be an untenable position.
    At a minimum, I think we need to find out the full scope of 
the problem. And I think that the Government really needs to 
participate in that process. I think one of the things that the 
committee knows is that there were roughly 400 parents that we 
know of who were deported without their kids, and at one point 
the Government stood up in court and said, ``Well, if the ACLU 
wants to find those parents, let them find them.'' Ultimately, 
Judge Sabraw put his food down and said no, the Government has 
to help the ACLU. But I think going forward, that's a lot of 
time and resources. We're happy to do it, but we certainly need 
the participation of HHS to help us and for the rest of the 
agencies.
    Let me just sort of conclude by stating five points that I 
think are critical going forward.
    First, as I said, we think the committee should ensure that 
HHS accounts for these thousands of kids talked about in the 
report to see how many there are, where they are, and what 
needs to happen.
    The second point is that we think it's critical going 
forward that there be proper procedures put in place and proper 
processes going forward, so separations do not occur based 
solely on a unilateral determination by an untrained CBP 
officer at the border.
    Third, in the extremely limited situation where separations 
do occur going forward, it's absolutely critical, as the prior 
panel pointed out, to have an integrated database that allows 
tracking quickly. And Judge Sabraw was shocked, truthfully, 
about how bad the tracking system was. He called the 
separations brutal and offensive, but then, on top of that, he 
said he was really startled by the lack of any kind of tracking 
system. And I don't think one is in place at this point.
    Fourth, there were many parents deported without their 
children who were misled or coerced into giving up their own 
asylum rights. We believe that those parents, if they have 
legitimate asylum claims and were coerced or misled into 
leaving without their children, ought to be given a fair 
opportunity to have an asylum hearing. And some of those 
parents got on the plane, were told their children will be on 
the plane with them, only to have the plane take off, and now 
they're stuck in Central America and their children are here.
    Finally, we believe strongly that funds should be allocated 
for the families that were separated to assist them with 
obtaining medical and other types of assistance. As was pointed 
out in the prior panel, and I think is going to be strongly 
reinforced by the doctors on the panel, these children are 
suffering real trauma and harm, and they need assistance.
    I'd just conclude by saying, when I met with one of our 
plaintiffs, the mother who had had a 4- and 10-year-old child 
taken from her for months, and what she said when they came 
back was that the 4-year-old still asks her, ``Are they going 
to come and take me away again in the middle of the night?'' 
And I think that's what's going on with these children. Any 
sense of stability has been shattered, and without real medical 
assistance, I think it's going to be very difficult for them to 
recover.
    I'll stop there. Thank you.
    [The prepared statement of Mr. Gelernt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you, Mr. Gelernt.
    Ms. Podkul?

                  STATEMENT OF JENNIFER PODKUL

    Ms. Podkul. Thank you, Chairwoman DeGette, Ranking Member 
Guthrie, and members of the subcommittee.
    I'm very grateful for your invitation today. I'm here to 
represent Kids in Need of Defense, a national organization 
dedicated to promoting the rights of child migrants and 
ensuring every child has access to high-quality legal 
representation.
    Traditionally, KIND has only represented children who 
arrive in the United States unaccompanied, meaning without a 
parent or a legal guardian. However, last summer during the 
family separation crisis, we expanded our services to serve the 
separated children and families.
    The majority of children that we serve come from El 
Salvador, Guatemala, and Honduras. These children have fled 
their countries out of a desperate need for protection. Extreme 
violence and threats to their lives and safety leave them with 
no choice but to flee. Children are telling us that they're 
embarking on what they know will be a dangerous journey. As one 
11-year-old told me who I interviewed, he said, ``If I stayed 
in my country, I would die. If I took the journey, I might die. 
So, I had to take the chance.''
    Because of these levels of fear and desperation, any 
policies designed to deter future asylum seekers from asking 
for protection will be unsuccessful. You can't deter away a 
refugee crisis.
    Unfortunately, what we saw this administration do last 
summer was an attempt at deterrence, but in the most cruel way 
imaginable. Once the systematic separations began taking place, 
KIND sent emergency teams of lawyers to serve these families. 
Their stories were heartbreaking.
    There is an 8-year-old boy who's separated from his father, 
and he was put on an airplane to an ORR facility over 2,000 
miles away. The DOJ officer told him he would see his father 
when he got there. That was not true.
    There is a 7-year-old who is highly traumatized by being 
separated from her father. And when the KIND attorneys went to 
go meet with her in a shelter, they could not even begin to 
discuss her legal case. She couldn't even answer questions. She 
was just sobbing during that entire meeting.
    There is a mother who is separated from all four of her 
children. And when she was finally waiting the return of her 
youngest, she was given the wrong baby.
    Our attorneys heard several hundreds of these kinds of 
stories. We were serving younger children than we had ever 
before. As attorneys, we're obligated to represent a client's 
express wishes. Yet, some of these children couldn't even talk.
    While some of the children have legal claims that are 
distinct from their parents', many children's cases are 
dependent on their parents' claim. But because there is no 
system in place to track the separated children and their 
parents, our attorneys didn't even know which children had been 
separated, let alone how to find the parents.
    We must demand accountability for what happened last 
summer, but we must also focus on the separations that are 
continuing to take place and address the systematic 
shortcomings that are still harming children. Although the law 
allows DHS to separate a child from their parent if there is 
ever a risk to the child's safety, there are no standards for 
how that decision should be made. In order to reduce 
unnecessary traumas, we need to have answers to these six 
questions:
    One, who is doing the screening to evaluate the rare 
instance in which a child should be separated?
    Two, what specialized training does that screener have to 
make a decision with such grave consequences?
    Three, what standards are they using to make that decision?
    Four, who reviews that decision?
    Five, how can a decision be challenged if there's a concern 
that the separation was not necessary?
    And six, what tracking systems are in place to ensure 
communication and future reunification in the event that a 
separation must occur?
    We need answers to these questions immediately. Congress 
gave the care and custody of unaccompanied children to Health 
and Human Services because of their expertise in child welfare 
issues. HHS should help DHS develop standards for screening and 
make sure that a trained child welfare professional is doing 
that screening to ensure that it only happens when it's 
absolutely necessary. When DHS sends a child to HHS, HHS must 
demand that DHS provide complete information about that child, 
and then, HHS must always provide that information to the 
child's attorney or advocate.
    What happened to children under the family separation 
policy must never happen again. Intentionally harming children 
is not who we are as a country, and we must act now to ensure 
that we are protecting any child that comes to us asking for 
help.
    Thank you, and I'm happy to answer any questions.
    [The prepared statement of Ms. Podkul follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you.
    Dr. Linton, you are recognized for 5 minutes.

                  STATEMENT OF JULIE M. LINTON

    Dr. Linton. Chairwoman DeGette, Ranking Member Guthrie, and 
members of the Energy and Commerce Committee, thank you for the 
opportunity to speak here today.
    I'm Dr. Julie Linton, a practicing pediatrician in 
Greenville, South Carolina, where my clinical work is focused 
on the care of children in immigrant families. I'm the cochair 
of the American Academy of Pediatrics Immigrant Health Special 
Interest Group. On behalf of the American Academy of 
Pediatrics, or the AAP, and our 67,000 members, thank you for 
holding today's hearing.
    The AAP is nonpartisan and pro-children. Pediatricians care 
about the health and well-being of children, all children, no 
matter where they or their parent was born. As pediatricians, 
we know that children do best when they are together with their 
families. After reading media reports in March of 2017 that the 
Department of Homeland Security, or DHS, was considering a 
policy that would separate immigrant mothers from their 
children upon arriving at the U.S. border, we immediately spoke 
out against this proposed policy.
    We, subsequently, wrote to DHS six times to urge the agency 
to reject such a policy. The AAP also issued roughly half a 
dozen statements about why family separation devastates the 
most basic human relationship we know, that of parent and 
child. The AAP has repeatedly said that separating children 
from their parents contradicts everything we stand for as 
pediatricians, protecting and promoting children's health.
    Today, I will underscore the health effects of separation, 
both what we know from the scientific literature and what I 
know from caring for patients. Prolonged exposure to highly 
stressful situations, known as toxic stress, can disrupt a 
child's brain architecture and adversely impact short- and 
long-term health. A critical role of a parent or known 
caregiver is to buffer this stress. Separation from a parent 
robs children of that buffer.
    Separated children can face immediate health problems, 
including physical symptoms like headaches and abdominal pain; 
changes in bodily functions such as eating, sleeping, and 
toileting; behavioral problems like anger, irritability, and 
aggression; and difficulty with learning and memory. Children 
who have been separated may also experience feelings of 
mistrust and bereavement, guilt, or shame. In the long term, 
children who have been separated may be susceptible to chronic 
conditions such as depression, post-traumatic stress disorder, 
diabetes, or heart disease.
    I have seen the impact of family separation with my own 
eyes. In June of 2018, I cared for an 8-year-old boy that I 
will never forget. This boy and his pregnant mother fled 
violence and direct personal threats in Central America. 
Realizing that the zero-tolerance policy was at that time in 
effect, I specifically and gently asked the boy and his mother 
if they had been separated at the border. With my question, a 
chilling silence arose. They both became tearful and their 
angst was palpable. The boy shook and his mother shuttered 
whispering, ``Seven days.'' For seven days, this boy and his 
pregnant mother did not know about the other's location or 
safety.
    This separation was shorter than many children harmed by 
the zero-tolerance policy, but he still suffered the 
consequences. He could no longer sleep through the night. He 
had trouble being away from his mother for even a short period 
of time. And his mother reported he was a shell of his previous 
self.
    Children are not little adults. To untrained eyes, they can 
appear quite healthy, even when their systems begin to shut 
down. Tragically, this was the case for Jakelin and Felipe 
while in the custody of Customs and Border Protection in 
December.
    We urge our Federal agencies to apply a child-focused lens 
when considering policies that could have an impact on child 
health. The AAP remains committed to working with Federal 
agencies to offer our expertise as medical providers for 
children in order to protect and promote child well-being.
    Additionally, children should not be placed in unlicensed 
facilities, whether they are run by HHS or DHS. The findings of 
the HHS Office of Inspector General about Tornillo and family 
separation are troubling. We urge all relevant Federal agencies 
to address these findings.
    It is critical that all reunified children receive 
appropriate medical care in the community to help them recover 
from the traumatic experience of separation from their 
families. Children and families who have faced trauma, with 
trauma-informed approaches and community support, can begin to 
heal. As a pediatrician, I know that, first and foremost, we 
must treat all immigrant children and families seeking safety 
in the U.S. with dignity, compassion, and respect.
    Thank you.
    [The prepared statement of Dr. Linton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you, Doctor.
    Now, Dr. Muniz de la Pena, recognized for 5 minutes.

             STATEMENT OF CRISTINA MUNIZ de la PENA

    Dr. Muniz de la Pena. Thank you for the opportunity to 
share my thoughts before the subcommittee related to the 
adverse health impact of family separation at the border.
    I'm Cristina Muniz de la Pena, licensed psychologist and 
director of mental health services at Terra Firma Immigrant 
Youth Clinic in New York City. I'm speaking today, also, on 
behalf of the American Psychological Association, or the APA.
    Terra Firma is a program designed to serve unaccompanied 
immigrant children and families since 2013. Over the past six 
months, however, Terra Firma has received increased requests 
for mental health services from foster care agencies and 
immigration attorneys caring for these children, as well as 
from the parents themselves who had been reunited with their 
children and are still struggling with the aftermath.
    My thoughts are drawn both from kids' examples from my 
therapeutic work with these children and from research 
findings. The traumatic impact of the separation of children in 
the border involves at least two different types of trauma. One 
is the acute trauma of the insensitive manner the separations 
were performed, and the other is the trauma from the length of 
the separation. The level of impact of these vary depending on 
crucial factors, such as the child's age and gender, 
developmental level, the level of harshness of the separation, 
the length of the separation, the degree to which the child had 
communication with the parent during the separation, and the 
degree to which the child was informed and predictability was 
offered during the separation.
    Ample research tells us that unwanted and unexpected 
separation from parents may have severe consequences in a 
child's developmental processes and psychosocial functioning. 
When separated from their parents, high levels of anxiety and 
distress occur which impair the developmental trajectories in 
otherwise healthy children. The following two examples 
illustrates some of the adverse circumstances and outcomes of 
parent-child separations.
    The youngest child seen in our program was a 2-year-old 
Honduran boy who had been separated from his mother while 
asleep and was kept away from her for 2 months. The mother had 
been told to leave the detention cell, and when she asked to 
wake her son up to take him with her, the officers told her to 
not bother because she was going to be right back. After 2 
months of helpless wait, the mother was reunited with her son 
in New York. She came to our program asking for help, concerned 
about the then-3-year-old son and anxiety of separation and 
persistence of hypervigilance. During the sessions, the boy 
clung to his mother with fearful demeanor and had great 
difficulty relaxing and letting go to initiate the normal 
exploring behavior of a child his age.
    Another 4-year-old Salvadorian boy I evaluated, who 
appeared highly pleasant, engaged, and animated at first, would 
suddenly turn quiet, stare off, and become emotionally flat 
following each question about his father and the separation. 
During these episodes, the child appeared to struggle to return 
his attention to the present moment and reengage in 
conversation and play. These are clear symptoms of 
disassociation from the trauma of being snatched from his 
father without any explanation or opportunity to say goodbye.
    Research shows that the longer parents and children are 
separated, the greater the reported symptoms of anxiety and 
depression. According to the APA's Presidential Task Force on 
Immigration, sustained parental separation also predicts 
ongoing difficulty trusting adults and institutions, as well as 
reduced educational attainment.
    Attachment is the emotional bond that typically forms 
between infant and caregiver. In lay terms, attachment, love, 
and protection from a parent is to a child's mental health what 
water, oxygen, and food are for physical health. It is the 
means by which helpless infants get their primary needs met. It 
is also the needed platform of safety and comfort that allows 
for a child to explore, learn, and develop.
    As an example, the mother of the 2-year-old described 
earlier expressed feelings of profound anxiety and depression 
because she was terrified of connecting emotionally with her 
son, then being detained, causing him a second trauma of 
separation. As a result, she found herself keeping her 
emotional distance to protect her child from a second trauma of 
separation. And therefore she was unable to provide the 
emotional safety and nurturing necessary for her son to feel 
safe, venture into the world, and develop.
    In sum, from my observations and well-documented research 
findings, attachment with a main caretaker must be protected 
and preserved. Meaningful access to trauma-informed mental 
healthcare is critical to ensure that both adult and child 
survivors of separation trauma heal.
    I would urge this committee to consider the serious mental 
health impact of parent-child separation on both children and 
parents, and put an end to the practice of family separation 
and help to ensure that immigrant children and their parents 
reunite and receive needed mental healthcare.
    Chairwoman, I would ask that the letter that the APA wrote 
to the President in June about family separation be included in 
the record.
    And I will be pleased to answer any questions. Thank you.
    [The prepared statement of Dr. Muniz de la Pena follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you.
    Now, Ms. Abbott, I am pleased to recognize you for 5 
minutes.

                    STATEMENT OF DONA ABBOTT

    Ms. Abbott. Chair DeGette, Ranking Member Guthrie, and 
members of the subcommittee, thank you for this opportunity to 
appear before the committee today, so that I may share the 
impact that family separation had on the children Bethany 
serves and to propose solutions, so that we as a nation may 
better care for children and their families who are seeking 
refuge. My hope is that the protection and care of children 
evokes a bipartisan response.
    Bethany partners with the Office of Refuge Resettlement as 
well as Lutheran Immigration and Refugee Services and the U.S. 
Conference of Catholic Bishops to meet the need of 
unaccompanied children. These children have fled from 
dictators, gang violence, sex and labor trafficking, 
starvation, and countries with the highest murder rates in the 
world. ORR does a good job of ensuring that children in 
transitional foster care have access to the services they need, 
including a safe temporary foster home, education, medical 
care, case management, mental health services, legal screening, 
and postrelease services.
    As soon as children enter our care, we immediately begin 
the process of locating their families. Since 2013, Bethany has 
directly reunified more than 2,000 unaccompanied children with 
sponsors. Our mission always has been, and always will be, to 
quickly and safely reunify children with their families.
    During the implementation of the family separation policy, 
Bethany provided care for 108 separated children. Bethany staff 
worked diligently to identify the location of their parents 
and, jointly with their parents, develop a reunification plan 
for every separated child in our care, as we do with every 
unaccompanied child in our care.
    Sadly, some children are still being separated from parents 
and caregivers at the border. While the reasons for continued 
separations are not often clear and continue to be concerning, 
it is never OK to take children from their families for the 
purpose of immigration enforcement. Children should never be 
used as a deterrent, leverage, or bait.
    Many more children could be better protected by giving ORR 
authority at the border. Under current law, CBP has 72 hours to 
determine if a child is fleeing to the United States as an 
unaccompanied child, with a parent or known guardian, or being 
trafficked. CBP is a law enforcement agency, and their agents 
are not trained in child welfare best practices. ORR social 
workers with a background in child protection could facilitate 
quick, adequate investigations and assist in making decisions 
about the appropriateness of separation.
    I would also like to address a major barrier to reunifying 
children with families. In May 2018, the Department of Homeland 
Security and HHS announced a memorandum of agreement mandating 
continuous information-sharing on unaccompanied children, 
including their sponsors. We are no longer able to reassure a 
sponsor that claiming their children won't lead to their arrest 
and potential deportation to a country that they've fled to 
escape violence and persecution. Sponsors are being forced to 
choose between the safety of their households and their 
children, a decision no parent should ever be forced to make. 
The MOA should be rescinded.
    As I was preparing this testimony, I was reminded of two 
sisters, 15 and 11, who were raised by their grandmother in 
Guatemala. Their mom lived in the U.S. and regularly sent money 
back home so the girls could be fed, clothed, and go to school. 
It wasn't long before gang members started visiting their home 
and demanding protection money. The price for their protection 
eventually surpassed their ability to pay. Gang members beat 
Grandma in front of the girls and promised to return for the 
girls if payment was not made in full. The girls fled. Bethany 
and ORR helped these girls find safety and then, eventually, 
their mother. Young girls should not have to live in fear of 
being raped and prostituted, especially when people in this 
great country can do something to help them.
    Like these two girls, every unaccompanied child is made in 
the image of God. Each of them mattered deeply to Him, and each 
of them should matter to us.
    Thank you.
    [The prepared statement of Ms. Abbott follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you so much, Ms. Abbott.
    And batting cleanup, Dr. Shonkoff. Thank you so much for 
joining us. You are recognized for 5 minutes.

                 STATEMENT OF JACK P. SHONKOFF

    Dr. Shonkoff. Chair DeGette, Ranking Member Guthrie, 
members of the subcommittee, I want to thank you, also, for 
myself for the opportunity to be here with you today.
    My name is Jack Shonkoff. I am Professor of Child Health 
and Development at the Harvard Chan School of Public Health and 
the Graduate School of Education, and Professor of Pediatrics 
at Harvard Medical School. And I direct the Center on the 
Developing Child at Harvard University. I'm a pediatrician by 
training, and my work is focused on early life influences on 
learning, behavior, and health.
    I took the liberty--I promise I will not exceed my time--
but I cut two paragraphs out of my prepared remarks because 
they've been said by everybody who has spoken here this 
morning. So, what I want to do is take a chance on using this 
opportunity to give you a deeper understanding of what the term 
toxic stress means. It's been mentioned a great deal. I'm going 
to give you a deeper understanding of that. And my testimony is 
based on strong scientific consensus from decades of scientific 
research. This is not about a single study, but it's the 
consensus of the scientific community.
    Sudden forcible separation of children from their parents 
is deeply traumatic for both the child and the parent. But, 
above and beyond the distress we see on the outside, this 
triggers a massive biological stress response inside the child 
which remains activated until the parent returns and provides 
some sense of comfort.
    Without exaggeration, there are literally thousands of 
studies that have converged on the following two simple, basic, 
core scientific concepts. No. 1, a strong foundation for 
healthy development in young children requires a stable, 
responsive, and supportive relationship with at least one 
parent or primary caregiver. And the second concept is that 
high and persistent levels of stress activation, known as toxic 
stress, can disrupt the architecture of the developing brain 
and other biological systems, which I will say a little bit 
about in a moment, with serious negative impacts on learning, 
behavior, and lifelong physical and mental health, not just 
mental health.
    So, early experiences are literally built into our brains 
and our bodies from the beginning. Stable and responsive 
relationships promote healthy brain development, they establish 
well-functioning immune and metabolic systems and 
cardiovascular systems, and they strengthen the building blocks 
of resilience. If these relationships are disrupted, young 
children are hit by the double whammy of a brain that is 
deprived of the positive stimulation it needs and is assaulted 
by a stress response that disrupts its developing circuits.
    When any of us feels threatened, our bodies' stress 
responses are activated. Heart rate and blood pressure go up. 
Stress hormone levels are elevated. Blood sugar arises, and 
inflammatory responses are mobilized. This is the fight-or-
flight response, and every one of us knows what it feels like 
physically to be optimally stressed out. And I want to repeat 
that. The toxic stress response is what everybody here 
understands. When you are most stressed, you know what you feel 
physically. We all know what that feels like.
    This response is automatic, and it's essential for 
survival. It is built into our biology, but it is designed to 
go back to normal when the threat is over. And if the sense of 
danger continues, the ongoing activation of the stress response 
system shifts from being protective and allowing us to deal 
with threat to becoming disruptive and outright damaging over 
time.
    For example, persistently elevated stress hormones can 
disrupt brain circuits that affect memory, the ability to focus 
attention, and regulate behavior. Excessive inflammation and 
metabolic responses to stress in childhood increase the risk of 
heart disease, diabetes, hypertension, stroke, various forms of 
cancer, as well as depression and a vulnerability to addictions 
in the adult years.
    A number of people have alluded to this. It's not magic. We 
are opening up this black box. We are beginning to understand 
what is it about all of this constant stress that makes you 
more at risk for heart disease decades later. It's because the 
underlying biology is what is happening to these ensuring 
systems.
    Unlike positive or tolerable stress, which can build 
resilience, extensive, prolonged toxic stress has lifelong 
consequences. So, what I want to do is conclude by sharing with 
you how these scientific principles that I've just described 
provide a powerful framework for understanding the damage 
caused by the current family separation policy.
    All children who are abruptly separated from familiar 
caregivers at the border experienced overwhelming stress. Will 
some survive without significant problems? The answer is yes. 
Will many be seriously impaired for the rest of their lives? 
The answer, again, is yes.
    The biology of adversity suggests three factors that 
influence who is at greatest risk.
    The first is age. Younger children are the most vulnerable 
because their brain circuitry and other biological systems are 
relatively underdeveloped, and they are the most dependent on 
adult caregivers.
    The second is previous harm from adversity. Many people 
have alluded to this. The pile-up of stress on children who are 
already compromised shifts the odds against them even further. 
Intentionally withholding the most powerful healing 
intervention we could possibly offer, the care of their parents 
when children are in danger, goes against everything that 
science tells us. Everything.
    The third reason for variation in outcomes is the duration 
of separation, and that's the part that I want to leave you 
with. Toxic stress is a ticking clock, and prolonged separation 
inflicts increasingly greater harm as each week goes by. From a 
scientific perspective, the initial separation and the lack of 
rapid unification are both highly indefensible. Forcibly 
separating children from their parents is like setting a house 
on fire, and prolonging that separation is like blocking the 
first responders from doing their job.
    Thank you very much for the opportunity.
    [The prepared statement of Dr. Shonkoff follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you very much, Doctor. Thank you.
    On popular demand, we are going to recess the committee 
until the conclusion of this series of votes that we are about 
to have on the floor.
    I would ask the witnesses to stay close, because we will 
reconvene immediately after the conclusion of the last vote. 
Thank you.
    The committee is in recess.
    [Recess.]
    Ms. DeGette. The committee will come to order.
    And the Chair will recognize herself for 5 minutes for 
questioning.
    Mr. Gelernt, I wanted to start with you because I wanted to 
ask you about this point that Commander White made about the 
court ordering the reunification of the families. And what he 
said is that, because of the different agencies that are 
involved in that process, it really took a court order to get 
them operating together, which seems kind of ridiculous to me, 
but that is what he said. So I am wondering what the ACLU is 
planning to do in the pending lawsuit about the new reports 
that we have that there may have been thousands of children 
separated even before the April order. And what processes are 
you guys going to undertake?
    Mr. Gelernt. Right. Thank you for that question, because I 
think that is a critical point.
    And I want to be absolutely clear. It's the Government's 
position that the court did not require reunification of the 
children who were released from ORR before June 26. Our 
position is that the court was including those children. So we 
have a motion now before the court to clarify that those 
children who were released--separated and released--before June 
26 are part of the class. The Government has an obligation to 
find them and reunite them. So we will be in court on February 
21st where the court will hear that motion. And so what we will 
ask the court is to clarify that those children are part of 
this class and then to come up with a plan to reunify those 
children.
    I would emphasize, though--and I think this is a point the 
Chair made before--there is, we believe there is a legal 
obligation, and we will try to clarify that on February 21st, 
but we see no reason why the Government should need a court 
order to do the right thing here and try and reunify those 
kids.
    And to a point I think the Chair made and a few others made 
from the last panel, we do not believe that it's either ICE 
goes into all these households and gets the children or nothing 
is done. We believe it can be done by the Government giving the 
NGOs information about the parents and children, and that we 
contact them. That's what the court has ordered in the past, 
and that works perfectly well.
    Ms. DeGette. So, if it is in the best interest of the 
child, then that is what the agency will do?
    Mr. Gelernt. Exactly. We would contact the parent. We would 
contact the child welfare agency. We'd contact the child's 
lawyer. And we'd say, ``What's the situation with this family? 
What do they want to do?'' There's no reason why ICE needs to 
go in. And that's worked perfectly well in the past, and that 
could work for these thousands of children going forward.
    Ms. DeGette. Thank you.
    Dr. Linton, in your testimony you state that there is 
overwhelming research confirming irreparable harm caused to the 
children by separating them from their family, and that the 
trauma by forced separations leads to a host of health 
challenges. Is that correct?
    Dr. Linton. Yes, Congresswoman, that's correct.
    Ms. DeGette. And, Dr. Muniz de la Pena, based on your own 
observations, you have found that when children are separated 
from their parents, high levels of anxiety and distress occur 
which can impair the development trajectory of otherwise 
healthy children. And that includes intense fear, helplessness, 
and vulnerability. Is that also correct?
    Dr. Muniz de la Pena. That's correct.
    Ms. DeGette. And, Dr. Linton, to put a fine point on it, as 
I think you testified, separations lead to toxic stress. And 
Dr. Shonkoff testified that that actually disrupts the child's 
brain architecture and affects short- and long-term health. Dr. 
Linton, is that correct?
    Dr. Linton. Yes.
    Ms. DeGette. And, Dr. Shonkoff?
    Dr. Shonkoff. Yes.
    Ms. DeGette. Yes?
    So I just want to pivot for a second to figure out how we 
can prevent something like this from ever happening because, as 
we heard, kids are still being separated from their parents at 
the border. And sometimes in limited circumstances separations 
are appropriate to protect the child, but it is still being 
elevated.
    And so, Ms. Podkul, I wanted to ask you--you said, 
according to your observation, the separation decisions are 
still being made arbitrarily. And so I want to ask you, what do 
you think we should do in order to ensure that the separations 
are only happening in the very limited situation where there is 
a genuine reason to believe that the parent is unfit or 
presents a danger to the child?
    Ms. Podkul. I think there needs to be clear guidelines 
about when separations are appropriate, and I think we need to 
ensure that child welfare professionals are making those 
decisions. Right now, those decisions are being made by Customs 
and Border Protection officials and not somebody with 
specialized training.
    Ms. DeGette. And do you believe we can put systems in place 
to track these kids, so that DHS is providing ORR with 
sufficient information so the families can be reunited?
    Ms. Podkul. Absolutely. I don't think that's going to be 
hard to do.
    Ms. DeGette. Thank you. Thank you.
    I yield to Mr. Guthrie.
    Mr. Guthrie. Thank you very much. I appreciate that.
    Thank you to you all for being here today.
    And I have a couple of questions directed to Ms. Abbott. 
Bethany Christian Services has spent more than 20 years caring 
for and helping unaccompanied children reunify with their 
family in the United States. Can you please describe how this 
process has changed over the past 20 years?
    Ms. Abbott. We always have provided care to unaccompanied 
children, children who come to the United States without a 
parent or an adult, to provide care for that. What had changed 
over the last year is seeing children separated from their 
parents. Foster care is meant to provide care when the parents 
aren't available to provide care or cannot provide healthy care 
for a child. We were seeing children who are healthy and 
attached to their family--their family was providing good 
care--being separated.
    Mr. Guthrie. How many that were separated not for cause 
other than illegal entry, the zero tolerance, how many children 
under zero tolerance did you care for?
    Ms. Abbott. A hundred and eight.
    Mr. Guthrie. A hundred and eight? And they are all 
reunified?
    Ms. Abbott. They have all been reunified as of September 
24.
    Mr. Guthrie. What kind of difficult thing did you find in 
reunifying? What was the hardest thing to do in a reunify?
    Ms. Abbott. I think it's the information that's available. 
Because we've had a long history of finding family for children 
who've been separated, we have staff well-trained at figuring 
out how to track down parents. So sometimes the information 
would come that was just inadequate information or parents 
would be moved from one detention facility to another.
    Mr. Guthrie. Because Captain White testified that they now 
have--are they separated and what is the issue, I mean, why 
they were separated.
    Ms. Abbott. Yes.
    Mr. Guthrie. Has that been helpful?
    Ms. Podkul. It's been helpful because we can identify that 
a child has been separated, but sometimes it doesn't give 
enough explanation. So, it says illegal, you know, they've been 
charged with criminal history or maybe even in their own 
country with abuse or neglect. We don't know what that means 
until a child comes into care, we have a chance to communicate 
with the parent and the child to figure out whether it raised 
to the level that a separation should have occurred.
    Mr. Guthrie. OK. How many organizations like yours are 
helping refugee children?
    Ms. Abbott. We work with the United States Catholic 
Conference a bit, USCCB, and LIRS, in providing care----
    Mr. Guthrie. There's several? Many doing it?
    Ms. Abbott. Yes.
    Mr. Guthrie. Did your organization work with any Federal 
agencies such as HHS or DHS when trying to create these 
unifications, reunification plans?
    Ms. Abbott. Yes, not directly, only through USCCB and LIRS. 
But we were, we do have a Federal field specialist onsite----
    Mr. Guthrie. OK.
    Ms. Abbott [continuing]. Who is directly contracted with 
the Office of Refugee Resettlement and advises us on all of our 
reunification findings.
    Mr. Guthrie. OK. There have been reports in the media that 
separations may still be occurring for zero tolerance.
    Ms. Abbott. Yes.
    Mr. Guthrie. Has Bethany Christian Services continued to 
see any cases for children who are separated from a parent or 
legal guardian without cause other than illegal entry or zero 
tolerance?
    Ms. Abbott. I hate to say, after 40 years of working in 
this field, that I'd have been naive not to have realized that 
our Government would separate children purposefully. So, after 
zero tolerance occurred, an alert went out to our staff saying 
you need to inform leadership the minute we see any referrals 
in children who have been separated. So, in the last three 
months, we received 12 referrals on children separated from a 
parent.
    Mr. Guthrie. Were they separated for cause or for----
    Ms. Abbott. Well, the cause is usually a criminal history 
or inaccurate reporting at the border, not proof of the 
relationship. So sometimes families in crisis don't always tell 
the whole truth about the situation. And so the officer on the 
spot is trying to make a decision as to whether this child 
belongs to the family or not.
    Mr. Guthrie. OK. Thank you.
    I have just a few minutes. I won't take all my time. But I 
just want to comment.
    I know there is a lot of stress in the immigration system 
today. I can specifically speak to families in my community of 
Bowling Green, wonderful families who are from El Salvador, 
came in 2001 under TPS. And they are extended, they don't know 
from year--I don't know exactly what their window is, but it is 
getting short on them. But it has continued to be extended. 
They have been there for 18 years, and they are still not sure 
what their next, what is going to happen after a few months. I 
think it is another year.
    Their children are U.S. citizens. Their children speak 
English as a first language. As a matter of fact, I was talking 
to one the other day and used a double negative. And I said, 
well, the problem isn't whether they are going to speak 
English, but whether they will speak it ``good'' or ``well.'' 
So, that is kind of a joke. English teachers like that one.
    And they just don't know, and you see that with DACA 
children and the opportunity to fix--and it seems like kind of 
the frustration when we have--this policy was bad. I didn't 
support it. We shouldn't have done it that way. But if you look 
at the concerns with DACA, the concerns with TPS, whatever, the 
administration is enforcing the law as we wrote it--not 
necessarily us sitting here, but as Congress has written the 
law, particularly TPS and those such things as that. And the 
President has offered, he said in last year's State of the 
Union that he was for a path to citizenship for DACA. He said 
that. He brought up TPS just a few weeks ago and said that, 
once the Government is open again, we will discuss these things 
and they will be on the table. And so, I really hope that this 
never happens again, but I do hope that we, as a committee, as 
a Congress--not necessarily in this committee, but this 
Congress--will look at all of the issues that are going on in 
the immigration system and take care, do the right thing.
    I know my constituents--oh, I am sorry, I ran out of 
time?--I know my constituents say secure the border and we can 
deal with these other issues, and I hope we do.
    I am sorry, I wasn't looking at the clock.
    Ms. DeGette. Dr. Ruiz, for 5 minutes.
    Mr. Ruiz. Thank you.
    This hearing has been very good for the human soul. It 
holds a mirror to our conscience as a nation and as 
individuals. And it has been very difficult to take. 
Personally, my heart swells. As a father, just to imagine that 
I was separated from my child brings me to tears. And it is 
hard. I'm emotionally drained. And I just can't imagine what 
the children and the parents went through and what they felt.
    As a physician, we have the Hippocratic Oath, ``First do no 
harm''. And I believe that should be a guiding principle for 
our Federal Government as well.
    You see, talking about the cases of real people humanizes 
this story. And oftentimes, that affects our conscience, and 
oftentimes perhaps it could create a sense of not allowing that 
to affect us as human beings. It is easy, then, to turn to 
dehumanizing the individual, so that you feel guilt-free 
perhaps or don't allow it to enter your conscience. And I see a 
lot of that going on. But separating families is dehumanizing, 
not only for those that have been separated but also for the 
separators, because it will affect them and their conscience as 
well.
    We have talked about--I have heard some statements that, 
well, they already had toxic stress in their home countries, 
almost implying that, well, they are kind of damaged goods, 
like we didn't cause any more harm to them.
    So, Dr. Muniz de la Pena, is there additional harm, 
additive harm to an individual when you separate them from 
their parent? Is there any difference that we did versus what 
they felt in their home countries?
    Dr. Muniz de la Pena. There's no doubt about it. If you 
think about physical harm, it is the same concept. If you have 
someone physically injured and you continue to injure that 
person, they will have more injury.
    Mr. Ruiz. It is compounding. It is additive.
    Dr. Muniz de la Pena. Of course.
    Mr. Ruiz. And the other thing is, back home, when they are 
threatened or being raped or they were going to be killed, and 
whatnot, or extreme poverty, or other stimuli for toxic stress, 
at least they have their parents to help them cope. When you 
separate that parent, then you are leaving that child 
completely vulnerable with nobody to hold them and to comfort 
them.
    Dr. Linton, what are the long-term effects years from now 
that they are going to experience?
    Dr. Linton. Well, what we know about toxic stress--and 
certainly Dr. Shonkoff can describe the large body of science--
but what we understand is that serious prolonged stress, in the 
absence of a buffer, places children at risk not for just those 
short-term effects that I discussed in my opening statement but 
also long-term effects, including depression, substance use, 
diabetes, and heart disease. And that really stems from the 
biology of having stress hormones coursing through the body 
without any control and the damage it does to the body.
    Mr. Ruiz. It rewires the brain to a point--and this is the 
part that gets me--to the point where they won't be able to 
interpret love. They won't be able to feel that comfort of 
trust with anybody in any relationship. They will have 
difficulty feeling intimacy that many of us have the luxury of 
feeling with our spouses and the vulnerabilities.
    Dr. Shonkoff, welcome. I am a Harvard Medical School 
graduate. Thank you for being here.
    And I wanted to ask you, what is the treatment? What do we 
do now? What should ORR be doing to mitigate and lessen those 
symptoms that they are going to face for their lifetime?
    Dr. Shonkoff. As you know, there is a prevention question. 
There is a treatment question. There is kind of a long-term 
outcome question. In this case, it is all the same.
    In fact, this committee has responsibility for so much in 
the healthcare domain. All of the health problems of adulthood, 
the expensive ones, have their origins early on.
    Mr. Ruiz. So, what do we need to do to mitigate and to help 
these children now?
    Dr. Shonkoff. We need to provide kind of a stable, 
nurturing, responsive environment in which predictable 
relationships help protect children from excessive stress 
activation. That affects every part of their developing system.
    Mr. Ruiz. If I may, just a quick thing. There were reports 
that people weren't allowed to hold babies when they are crying 
and have their fit. What happens to the physiology of that 
child, of that baby, that is not held, that was left alone 
without being coddled by another human being?
    Dr. Shonkoff. It is a critically important question 
because, in fact, what's happening is that biologically that 
baby is responding to what is essentially a life-threatening 
situation, not being taken care of, because babies are so 
helpless.
    And I think the misconception is we say, well, none of us 
remember things that we had experienced when we were babies----
    Mr. Ruiz. We do.
    Dr. Shonkoff [continuing]. And babies don't really 
understand what's going on anyway. But the reality is it may 
not be a conscious memory, but the body doesn't forget. The 
body is affected. The body is affected biologically. And that's 
why statistically these children in those circumstances are 
already more at risk for problems later on. So it's the 
invisible part. It's what's going inside the body that we're 
understanding more and more now. But when we look at young 
children and we say, well, they're either crying and they seem 
upset or they seem better and they're not acting out, we don't 
see what's going on inside. And that's what 21st century 
science is telling us, about how to address what is essentially 
a commonsense moral issue----
    Ms. DeGette. Thank you.
    Dr. Shonkoff [continuing]. Which is how important these 
issues are.
    Ms. DeGette. The gentleman's time has expired.
    Mr. Ruiz. Thank you.
    Ms. DeGette. The gentleman from Oregon.
    Mr. Walden. Thank you, Madam Chair.
    And I want to thank all our panel here today. We've got a 
couple of hearings going on simultaneously. So some of us had 
to go back and forth. But I appreciate the concern you are all 
showing for these children.
    I don't know anybody up here that supported the separation 
policy, certainly not me. And we want to do the best for these 
kids.
    Ms. Abbott, Bethany Christian Services has been a 
subgrantee for ORR for some time, right?
    Ms. Abbott. Yes.
    Mr. Walden. How long?
    Ms. Abbott. We have been, we have worked with ORR since 
'75.
    Mr. Walden. 1975?
    Ms. Abbott. With refugee children fleeing Southeast Asia, 
and then have worked with the unaccompanied children since ORR 
took responsibility for those children.
    Mr. Walden. Walk me through, because you are there on the 
ground. How many children do you deal with at any given time?
    Ms. Abbott. Right now, we have the capacity to have about 
99 children in foster care. We don't offer large shelter 
settings. We do really believe that a family setting is best--
--
    Mr. Walden. Sure.
    Ms. Abbott [continuing]. For an unaccompanied child.
    Mr. Walden. Yes.
    Ms. Abbott. So, at any one time, we could have 99 children 
in care. And we are expanding our foster care capacity into 
three other States, so that we can continue to meet the need of 
truly unaccompanied children----
    Mr. Walden. Yes.
    Ms. Abbott [continuing]. Who need a family setting.
    Mr. Walden. I figure it is somewhere around 11,000 children 
right now are in the ORR system. It varies, I know, because it 
is a daily intake and a daily----
    Ms. Abbott. Exit.
    Mr. Walden. Yes. And ORR is kind of in the middle, right?
    Ms. Abbott. Yes.
    Mr. Walden. I mean, they just have--the Border Patrol turns 
over these people, these kids, to ORR. They take care of them 
and give them----
    Ms. Abbott. Find sponsors and assure that the release is to 
a safe, caring adult.
    Mr. Walden. And that is something I think you have heard 
all of us talk about as well, because there were mistakes made 
by the Government in the past in some instances, right, of 
turning kids over to people we thought were their responsible 
parent or guardian or something? It turned out they ended up in 
really bad environments, right? Have you seen that?
    Ms. Abbott. Not at Bethany, but I have heard----
    Mr. Walden. Right.
    Ms. Abbott [continuing]. And been involved in consulting in 
some situations where that has happened. We try hard to do home 
studies, background checks on the families, and so forth, and 
the children and get information from parents. We can contact 
parents back in country of origin, if the other parent is 
there.
    Mr. Walden. Right.
    Ms. Abbott. Often, many of the reunifications you've heard 
about are with another parent that's already here. One parent 
was coming with other children to join that parent.
    Mr. Walden. I know when I toured, led the delegation to 
Texas, and we went through one of the facilities and met with 
the kids and all, to a certain extent--obviously, we respected 
their privacy--it seemed like they had access, we were told at 
least they had access to call their parents or loved ones back 
in their home country, as well as to be in regular contact with 
whoever they might be going to be placed with here in the U.S. 
Is that----
    Ms. Abbott. That is correct, and ORR policy mandates that 
we provide that service.
    Mr. Walden. And my understanding is, what we saw, again, at 
this facility was they had access, basically, to 24/7 medical 
care as well as routine mental health services in the facility. 
Is that your experience as well?
    Ms. Abbott. Yes, at least with our transitional foster care 
program and our small shelter program that we have in Grand 
Rapids and Maryland, that's been our experience.
    Mr. Walden. OK. I was just thinking back to, literally 
thinking of the facility and the doctors and then the mental 
health services, and the phones they could access.
    When you are with these kids, what do they tell you? I 
mean, unlike the rest of us, you are actually there, you and 
your folks. I mean, some of you may be doing this work too. So, 
I am not trying to say that. What do these kids tell you, what 
stories?
    Ms. Abbott. The stories are much like the story I told 
about the two girls. Their stories are as compelling as any 
refugee story I've heard. Like I say, I've been working with 
refugee kids for 40 years, and their stories about 
victimization, their fears----
    Mr. Walden. On the way up?
    Ms. Abbott. Well, in their own country.
    Mr. Walden. In their own country or on the way up.
    Ms. Abbott. It forces them to flee to begin with, yes.
    Mr. Walden. OK.
    Ms. Abbott. The idea of the gangs that are out of control, 
governments either unable or too corrupt to intervene to 
protect their citizens.
    Mr. Walden. So we were told when we were there in the 
bipartisan delegation that, for some of these people, it is 
literally the first time they have felt this safe and cared for 
since they left their home country, because of the kind of 
victimization you were talking about in the home country or the 
horrific things we have all read about on the journey north. Is 
that what your experience is?
    Ms. Abbott. Yes. I believe that a lot of people who come 
here as refugees or asylum seekers are looking just for that. 
They want safety.
    Mr. Walden. Yes.
    Ms. Abbott. They want all the things that we all want.
    Mr. Walden. So, in conclusion--I know my time is about 
out--it feels to me like we have a humanitarian crisis or a 
problem at the border. Is that your take, too?
    Ms. Abbott. Yes, yes. I tend to refer to those at our 
border as refugees----
    Mr. Walden. Yes.
    Ms. Abbott [continuing]. Rather than migrants, because I 
think people think, when they think migrants, that people have 
a choice.
    Mr. Walden. Or they are going back and forth?
    Ms. Abbott. Yes.
    Mr. Walden. Yes.
    Ms. Abbott. But the majority of children we're seeing 
coming from the border right now are truly--again, we get well-
founded explanation of fear of persecution.
    Mr. Walden. Thank you, Madam Chair, for your courtesy in 
extending extra time.
    Ms. DeGette. The gentlelady from New Hampshire is 
recognized for 5 minutes.
    Ms. Kuster. Thank you.
    And thank you to the panel and for your expertise.
    I want to go back to the scene of being inside. We were, 
again, in Brownsville and in McAllen, Texas, with the families. 
I want to get at, do you have a professional opinion--and we 
will continue with Ms. Abbott--whether those children would be 
better off with their parent?
    Ms. Abbott. A child is always better off with their parent.
    Ms. Kuster. Right.
    Ms. Abbott. And if a parent and a child has to be 
separated, there needs to be a reason, that the child's safety, 
whether it's physical or emotional, is threatened.
    Ms. Kuster. And again, I would just say from my own 
experience, 25 years in the child welfare and child protection 
legal world of adoption, that in fact our laws are very, very 
strict of what it would take to terminate parental rights, and 
particularly to terminate parental rights against the will 
rather than in a consensual way.
    So I want to go back, if I could, to Mr. Gelernt and Ms. 
Podkul, about the process, because I know that you are going 
back into court. I want to understand what we could be doing 
differently, from all of the witnesses, to protect these 
children and to make sure this decision is not being made in an 
arbitrary or perhaps even capricious way.
    And I think there was a reference made to separation being 
used as a technique or a tactic of immigration, which, by the 
way, the Trump administration didn't hide that. I mean, they 
spoke openly that this was going to be used as a threat. ``We 
will take your children if you come into our country. We will 
take your children.'' That is the moral failure. 
Internationally we lost moral authority in the league of 
nations, in the world of nations. I certainly feel that way.
    What could this committee, what could we in Congress be 
doing differently? And would it be to have well-trained people 
under contract with ORR who understand child welfare, who 
understand the psychology?
    And you talked about the acute nature of the separation and 
the length of the separation, and the circumstances. Let me 
tell you, the women I met, just briefly, the circumstances were 
that they were told they had to go to court, they had to go to 
a court hearing, and they were not allowed to bring the 
children into the courtroom. And the children were taken by our 
Government while they were in the courtroom. And I mentioned 
two mothers breastfeeding, breastfeeding infants that were 
stolen by our country.
    So how could we change? Could we have social workers at 
that initial moment to sort this out?
    And then, because my time is short and I want to give you 
time, why can't we have a hospital band? Why can't we have a 
number that the parent and the child has? How, in this day and 
age, has our country lost track of these children and these 
parents?
    Mr. Gelernt. Yes, so taking your last question first, 
there's no question we could have an integrated database and a 
tracking system. And the judge in our case is very concerned 
that there wasn't one, and he has asked that we work with the 
Government to come up with one. And if he's not satisfied, he 
is going to add to it.
    But I think this committee and Congress certainly can do 
oversight of that, and they could implement something even 
better, if they decide to do that.
    In terms of going forward, we're absolutely seeing 
separations, and we don't know what standards CBP is applying. 
They certainly are not using experts in child welfare to do it. 
So there have to be very clear standards. There has to be 
someone who's trained in child welfare to do it. And there has 
to be a way where the information flows to the parent and the 
people taking care of the child to say, ``Wait, we need to 
contest that.'' So there has to be processes to contest it.
    Ms. Kuster. Do the children have any kind of legal advice? 
Do they have access to an attorney to----
    Mr. Gelernt. Not all of them, unfortunately. But, even the 
ones that are getting legal advice, what we're hearing--and 
I've been getting texts all morning saying, ``Make sure the 
committee understands that, even if we are with them, we're not 
always being told that they were separated from a parent in the 
U.S. The child is just being dumped on us. And so, we don't 
actually know what the situation is.''
    So that information has to be told to the people taking 
care of the child, so they can look for the parent and get to 
the bottom. But we are seeing separations for the most minor 
crimes or even allegations, and we are very concerned that 
these, although they are being called for-cause separations, 
there's really no basis for them.
    Ms. Kuster. And I just have to close because my time is up.
    The capricious nature of this, one of the mothers, 
finally--finally--after months, by the way, not days, not 
weeks, months, was able to get through on a telephone to her 
child, and her 4-year-old child refused to come on the phone to 
speak to her because the child had been told that she abandoned 
the child at the border.
    Ms. DeGette. The gentlelady's time has expired. The 
gentleman from Virginia, Mr. Griffith.
    Mr. Griffith. Thank you, Madam Chair, and I look forward to 
working with the gentlelady in regard to a number of items.
    It is interesting that we just had a bill today--and I am 
not sure, I haven't sorted it all out yet, it was voice voted--
where we cut advocates or defenders in the juvenile courts, we 
cut them out of getting some grant money. I am sorting it all 
out, and I was going to vote ``present'' if it had come up for 
a recorded vote. Because, if you were watching the first panel, 
my wife is a juvenile judge, and they cut that money as well. 
And so, I wanted to check on that.
    Ms. Abbott, you all had 108 children. Can you tell me how 
long it took you all to get them back--what the shortest and 
longest was--back with their parents?
    Ms. Abbott. I don't have that information.
    Mr. Griffith. Roughly, do you have any ideas? I won't hold 
you to it exactly.
    Ms. Abbott. OK. Roughly, 54 days.
    Mr. Griffith. About 54 days?
    Ms. Abbott. It's our average.
    Mr. Griffith. OK.
    Ms. Abbott. But I can't tell you the, yes, the earliest and 
the rest. Because we're used to reunifying children all the 
time. Even before we were aware that there was going to be a 
new policy, we were already in the process of reunifying 
children. Even when they've been separated, we have been 
talking to parents in detention centers and identifying other 
relatives if the parent didn't want the child to remain in 
foster care.
    I think one of the things we have to emphasize is that we 
need to talk with parents. Parents have a right to make 
decisions about their children and how to keep their children 
safe and where their children belong. Many families may choose 
to have their children stay with a relative in the United 
States than be reunified with them in country because it's so 
unsafe for the children to reunify--a tough decision for a 
parent to make, but one we need to respect.
    Mr. Griffith. And I don't know the answer. I am just 
looking for answers. Mr. Gelernt, I asked earlier, there 
apparently are five kids that the ACLU has said--hold up a 
minute--as a part of the court action, that had not yet been 
reunified with their parents, of the six that are still out of 
that first grouping remaining. And I was wondering if you could 
enlighten us as to the what the complications were, what the 
problems were. I understand some of them might be out of 
country, the parent my be out of country. And just wondering if 
you could enlighten us as to what that process is and why we 
are holding up on five of those.
    Mr. Gelernt. Right. Yes, Congressman. I think it may 
actually be down to three now, but I'm going to double-check 
that.
    Mr. Griffith. OK.
    Mr. Gelernt. And I could let the committee know.
    It's certainly not us holding it up. It's respecting the 
parents' wishes. I think they were particularly complicated 
cases where the child may have been in danger coming back. The 
parent was having trouble understanding what the child's rights 
would be in the U.S. I think one parent was difficult to find. 
So, for those complicated reasons, we're giving the parent a 
little more time to make the choice.
    And it's an agonizing choice, just to pick up on my 
copanelist. When I was in Guatemala talking to these families, 
you would have a father saying, ``Well, look, my life is 
basically over.'' And this was someone in his forties. ``The 
gangs may kill me, but I can't bring my child back here. It's 
just too dangerous.'' And to see the agony on the face of these 
parents. And so, I think no one should be under the mistaken 
belief that these parents don't want their children. It's they 
are making what is a classic choice for many vulnerable 
immigrants, that they are just going to have to leave their 
children in the U.S.
    And so, for these three parents, there are certain 
complications where, for privacy reasons, I can't get into.
    Mr. Griffith. Yes, sir.
    Mr. Gelernt. And so, we are just giving them a little more 
time to respect their wishes.
    Mr. Griffith. And I understand that, but I would then turn 
to Dr. Shonkoff's testimony. Doctor, the child may not 
understand that. The child is not likely to understand that if 
they're a particularly young age, are they?
    Dr. Shonkoff. Well, it depends on what you mean by 
``understand''. You're absolutely right.
    Mr. Griffith. OK. Yes.
    Dr. Shonkoff. You're absolutely--children don't understand 
that, but----
    Mr. Griffith. And I think you testified earlier that they 
don't know what is going on, and even if the parent has made 
this decision, for all reasons that we might agree with, it 
still creates the problems that you were talking about with 
toxic stress for the child, particularly if they are--I mean, 
if they are 17, maybe not--but if they are 4 or 5, 6, 7, even 9 
or 10, they don't understand all that, do they?
    Dr. Shonkoff. Well, what's wonderful about your question, 
Congressman, is that for young children the forcible separation 
from a parent in our child welfare system, even in 
circumstances where the child is in danger, is seen as 
threatening and upsetting for the child. No young child sees 
the separation as a relief, even in tough circumstances. And 
so, that's the problem. We have to think through the mind of 
what does this look like for the child, not just the adult.
    Mr. Griffith. I appreciate it. I appreciate all of your 
testimony today, and we are going to try to make sure that this 
doesn't happen again. And even where there are cases where 
there are justified reasons--I think you said, Ms. Abbott, you 
had about 12 or so that had been referred because there was a 
belief--we need to try to make it minimal. And if there is a 
legitimate reason for the separation because the person is a 
really bad actor who is the parent who came with them, we need 
to make sure that we're taking action to get them into a secure 
situation where they have got somebody who creates that safe 
space that you talked about, Dr. Shonkoff.
    And I yield back.
    Ms. DeGette. Thank you.
    The gentlelady from Illinois.
    Ms. Schakowsky. Thank you so much.
    I know we are mainly talking about the effects on children 
of this separation, but I wanted to ask about the issue of 
essentially our country making decisions, and it seems rather 
quickly that these are made, on who is a fit parent. And so, if 
someone could just describe to me--my understanding of our 
domestic child welfare system, ending parental rights is really 
a big deal and is a very prescribed process for that to happen. 
So, I don't know if anybody wants to--I don't want to go too 
long on it, but it has to be done over time, right?
    Dr. Muniz de la Pena. Normally, if there's not an imminent 
threat, like the kid has a physical injury visible, the child 
remains in the home, and they activate an investigative process 
where social workers go to the home and interview the children 
separately from the parents. And they visit the family every 
week or every other week to continue an ongoing supervision 
process to see if the indicators of possible abuse or neglect 
are real. And that, it takes a lot for, in my experience in New 
York State, it takes a lot to take the children from the home.
    Ms. Schakowsky. So, I am assuming that the premise behind 
that is that it is best to try and keep a child with the 
parent. There is a bias toward, because it is so important to 
keep a child with a parent. So my understanding here is that 
criminal behavior can be a reason for someone being taken away 
from a parent. Now does that always, regardless of what it is, 
make that parent--I mean, how do they decide what is a reason 
to take the parent away? I don't know if there is, you know----
    Dr. Shonkoff. I think, especially when you talk about young 
children, young children don't exist outside of a relationship 
with a caring adult. They can't survive. So that, in any of 
these circumstances where we consider the possibility of an 
alternative arrangement, it's a developmental and psychological 
emergency to kind of preserve for the child a protective 
relationship. It starts in the family, and if in some 
circumstances it's deemed unsafe, it's still a relationship 
emergency to determine what happens next, as opposed to feeling 
like removing the child is somehow an answer. Young children 
cannot exist without a caring relationship.
    Ms. Schakowsky. So, yes, go ahead.
     Ms. Podkul. If I may, I think your question is very 
astute, because what you're saying is, it's not only do we have 
no standards and no child welfare professionals making the 
decision in that moment, there's no followup so a parent or 
child could ever challenge that, if that was the wrong 
decision. So, there's two points where we're failing these 
families: at the point of separation and also we're not giving 
them an opportunity to have that reviewed and challenged, in 
case it was an erroneous decision.
    Ms. Schakowsky. Go ahead. But, before that, let me make 
sure that I put on the record, I am not saying that we want to 
keep children in unsafe situations. And if someone is a child 
abuser or posing as a parent and really it's a trafficker of 
some sort, obviously, we have to deal with that.
    But go ahead.
    Mr. Gelernt. Right. I think what you just said there is the 
key. A criminal conviction under State child welfare laws does 
not mean you would separate from parent. It has to be the type 
of criminal history that suggests the parent is a real danger 
to the child,
    And what's happening now is, the Government is separating 
for very minor crimes, nonviolent crime, crimes that happened 
decades ago, that would never under our domestic laws allow for 
the separation of parent and child. It has to be where the 
parent is either unfit or presents a danger to the child. That 
has to be the standard. That's the standard the court laid out.
    And I think what some of my copanelists were suggesting is 
one role for this committee is to flesh that standard out, so 
there is really clear guidance for whoever is doing the 
separations. And hopefully, that's someone who knows about 
child welfare.
    Ms. Schakowsky. I want to tell a really quick story. When 
we were down at the border, we saw a woman who was inconsolable 
in a cage. And she was crying because she came in with her 7-
year-old granddaughter. That granddaughter was taken away, 
redefined as an unaccompanied minor, 7 years old, because we 
didn't recognize a grandparent. There was no paper saying she 
was the legal guardian. But, clearly, they could have seen the 
relationship, I am sure.
    So is there something we should do about definition of what 
a family is? Whoever.
    Dr. Shonkoff. So many of these are moral issues. From a 
scientific point of view, a child's brain is not asking about 
the genetic relationship between----
    Ms. Schakowsky. She had raised that child, by the way.
    Dr. Shonkoff. Yes. What a child's brain needs is a 
responsive, consistently responsive person, and it doesn't have 
to be someone you're related to, but it has to be the person 
who is the important adult caring for you. Grandparents----
    Ms. DeGette. The gentlelady's time has expired.
    Ms. Schakowsky. Thank you. Thank you. I yield back.
    Ms. DeGette. The gentlelady from Indiana.
    Mrs. Brooks. Thank you, Madam Chair.
    Each of you have so much background and expertise in 
various aspects of this really horrible situation we've been 
dealing with now for many, many years. And I would love to 
actually hear from each of you in my 5 minutes because we all 
want to fix--we all want a better system. We all want a system 
that does not include separating families who are legitimate 
family members.
    And so, we don't have a terrific system. We don't have 
standards. We don't have procedures. I am hearing from all of 
you that we just have been lacking this for years and years.
    So I would love for each of you, very briefly, to just 
share, if you could fix one thing--and you all have very 
different expertise--if you could do one thing that helps not 
only the separation issue but also my continued concern for the 
unaccompanied children as they are going into all of our 
communities.
    And Bethany I understand is opening or has just opened a 
facility in Indianapolis. So I welcome you. I look forward to 
visiting. I haven't had the opportunity to do that yet.
    What should we be doing? And very quickly, I mean, and I 
know all have said--and I respect--I am a lawyer. I have been 
in these courts, and I have talked to my juvenile judge. And 
she is seeing some of these children coming into the courts. 
But yet we have no idea where they are around the country or 
even maybe how to help them.
    So very quickly, Mr. Gelernt?
    Mr. Gelernt. I think other people will probably talk about 
the standards and processes going forward. I think one thing 
this committee should think about is, for the kids who were 
separated and were subjected to this kind of trauma, as the 
doctors have pointed out, that really may be permanent, what 
this committee can do to get them potentially some medical 
health. Because I think there's no way that these children and 
these young parents are going to be able to cope without 
professional help.
    Mrs. Brooks. Thank you.
    Ms. Podkul?
    Ms. Podkul. I think we need to make sure that we are not 
being wasteful with our resources in trying to deter away a 
refugee situation. I think what we need to do is dedicate our 
attention and resources to getting the bottom of every person's 
story and finding out who needs protection here in the United 
States. And the best way to do that is make sure we have an 
efficient court process and that people are represented 
throughout that process.
    Mrs. Brooks. And have more trained professionals figuring 
out who is in a dangerous versus in a family situation?
    Ms. Podkul. Exactly. Exactly.
    Mrs. Brooks. Do we use DNA testing, swabs? Do we use that?
    Ms. Podkul. Yes. Well, I think what we can----
    Mrs. Brooks. To figure out if they are actual family 
members?
    Ms. Podkul. Well, a lot of family members are coming with 
appropriate documentation to show family relationships. So, I 
think what we need to do is have a specially trained cohort of 
professionals who know what are all the tools that can be used 
and then let the families decide what they want to do in terms 
of moving forward.
    Mrs. Brooks. Thank you.
    Dr. Linton?
    Dr. Linton. And, Representative Brooks, you mentioned the 
needs in the community. And I would, as a pediatrician who is 
on the ground in my community, I would say that every child who 
is coming to our country in search of safe haven, including 
those who have been separated, really does need access to 
comprehensive medical care and mental health services where, in 
partnership with our legal colleagues, we can ensure that their 
stories are told and they have access to legal counsel, to 
education, and to health services that allow them to stay 
healthy as they proceed through their immigration cases.
    Mrs. Brooks. And so, expansion of legal/medical 
partnerships? But we have got to know where the children are.
    Dr. Linton. Yes.
    Mrs. Brooks. We have to know where they are.
    Yes, Doctor?
    Dr. Muniz de la Pena. I want to say that I think we do have 
the guidelines and best practices. In the child welfare 
agencies, we have the guidelines of how to separate children 
and how do we reunify when there was risk. They are being 
practiced in every State. So, we could adopt those guidelines 
in the immigration context and bring those professionals to 
really counsel people there on the ground.
     And then, in the community, I also work with the children 
that are released in the community. I agree with you that they 
need ongoing mental health and medical services, integrated 
care.
    And I would add that one of the biggest barriers is that 
these children are released to the community, and most States 
don't have health insurance. So, they face great barriers to 
access basic medical and mental health services. So, that's a 
big issue.
    Mrs. Brooks. Thank you. Thank you.
    Ms. Abbott?
    Ms. Abbott. I would suggest that an expansion of the 
postreunification services--those are services that follow a 
child after they're reunified with a family. It would help make 
referrals to community professionals, look for where healthcare 
could be provided, and identify whatever the needs are that 
that family and child has. Right now, ORR does not have enough 
resources to assure every child and family gets that service.
    Mrs. Brooks. Thank you.
    In my 10 seconds, Dr. Shonkoff?
    Dr. Shonkoff. So, I would say the urgency is the passage of 
time, in a sense that the crisis, as much as it is a crisis of 
plan of separation, the urgent emergency is the amount of time 
it takes to reunite the child with family, because the increase 
in damage is real.
    Mrs. Brooks. Thank you all. Thank you all for your work.
    I yield back.
    Ms. DeGette. Thank you.
    The gentlelady from Florida, Ms. Castor.
    Ms. Castor. Thank you, Madam Chair.
    And thank you to all the witnesses for what you have done 
to help children, especially in the midst of this inhumane 
family separation policy.
    Mr. Gelernt, the ACLU is engaged in ongoing litigation to 
reunify the children who were separated from their parents as a 
result of the family separation policy. So, I'm going to ask 
this of you, but if any of the other witnesses have answers, I 
would like to hear those too.
    Earlier today on the first panel, Director Gambler from the 
Government Accountability Office, who oversees the Homeland 
Security and Justice Departments, responded to a line of 
questions that the action taken by a parent or guardian in 
properly entering the U.S. with a minor is not a factor in 
deciding whether a child should be separated from that parent 
or guardian. Is my characterization of Director Gambler's 
response consistent with your understanding of the test for 
separation that immigration officials or judges have been 
applying before and under the zero-tolerance policy?
    Mr. Gelernt. What we saw was that people were separated for 
entering illegally until the court said, ``No more of that. 
That can't happen.'' But we believe it may still be happening.
    But one of the other things I think that's tricky is that, 
although they may say it's not the basis for separation, they 
put the parent in jail for 48 hours and then they say, well, 
the child can't come to jail, so we're going to separate. So 
it's sort of, they know what's going to happen, and then they 
say, well, you don't want the child going to jail. And we say, 
well, what about giving the child back after the 48 hours when 
the parent is released?
    And that's really what the court got its hands around, is 
parents were not getting their children back for 8, 9 months. 
And so I think you're right to characterize it. It's very much 
a factor of, we're going to prosecute this mother, put her in 
jail for 48 hours because it's just a misdemeanor, and then 
we're not going to give the child back. And the judge said it 
cannot be a factor, but it very much was a factor, and we think 
it may still be a factor.
    Ms. Castor. Thank you.
    How many parents or guardians separated from their children 
in percentage terms have been previously charged, detained, or 
arrested for improper entry into the United States?
    Mr. Gelernt. That's a very good question, and we've been 
trying to figure that out and have not been able to get 
statistics on it. And I don't know that the Government keeps 
track of it. So I think we are trying to interview people and 
get some sense of it, but it's very difficult. But by no means 
was everyone who was separated someone who went and crossed 
between ports of entry. Our main plaintiff, Ms. L, went to a 
port of entry, applied legally, and was still separated from 
her child. And there were many people like that. So the 
narrative that ``Oh, we won't take your child if you go to a 
port of entry and apply legally'' is simply not true.
    Ms. Castor. Could a prior case that has been brought 
against a parent or guardian for attempting to cross the border 
or enter the U.S. improperly be used as a factor in determining 
whether to separate that parent or guardian from their child?
    Mr. Gelernt. We don't believe so, and we don't believe that 
the court is allowing that. So, if we see that--the problem is 
we're not getting full information, and I don't think the 
providers on the ground are getting full information. But we 
will go back to court anytime we see that because we think the 
court made it clear that that's not a basis for separation, 
because then you would be separating lots of asylum seekers 
where they're not presenting a danger to their child.
    Ms. Castor. As we heard on the previous panel as well, 
several ongoing and unresolved issues between HHS and DHS have 
impaired efforts to reunify children with their parents and may 
have resulted in additional separations even after the family 
separation policy supposedly ended. Incomplete data, failure to 
share information collected between Departments.
    Ms. Podkul, I would like to start with you. Why is it 
important to ensure that the data about children's separation 
status be tracked and shared with HHS?
    Ms. Podkul. There's so many reasons.
    Ms. Castor. So many?
    Ms. Podkul. But I would say, just looking at the child's 
legal case, oftentimes it's going to be the parent who has the 
information about why the family fled the country in the first 
place. The adult is often the one that's going to hold the 
documents that would be used to prove a case.
    So, if our attorneys are representing a child, they're 
going to have incomplete information and the child won't be 
able to make their case about why they need protection. So it's 
incredibly important not only for reunification purposes but 
for our Government to find out what is the story with this 
child and does this child need protection here in the United 
States.
    Ms. Castor. Were you surprised by the January 2019 OIG 
report about ORR, that they are still having problems? The ORR 
systems are still not where they need to be to properly track 
potentially separated children?
    Ms. Podkul. Unfortunately, I was not. I can tell you, just 
a few weeks ago, a colleague reported that she was interviewing 
a child, and the only way she found out that that child had 
been separated from a parent was through her own interview with 
the child. She was never notified through the official files, a 
file for the child. She was never notified by the ORR case 
worker. It was only because she interviewed the child and 
specifically asked him that she found out that he had been 
separated.
    Ms. Castor. There is so much more to do.
    Thank you very much. I yield back.
    Ms. DeGette. The gentleman from South Carolina is 
recognized.
    Mr. Duncan. Thank you, Madam Chairman.
    Let me remind the committee that it's Shine a Light on 
Slavery Day today. Forty million people around the globe are 
enslaved. Seventy percent are women. One in four are children.
    I want to thank the panelists. It is obvious that your 
heart is in the right place, that you care about children, and 
you want to do what is best for them.
    I actually supported money for the Northern Triangle 
countries when we had the unaccompanied children issue back 
during the Obama administration. I had a conversation with 
President Obama at the Summit of the Americas in Panama, where 
I told him I probably supported more money than he was asking 
for to deal with the problem down there, to try to stop the 
flow of unaccompanied children. It is hard to believe that 
parents would send their children north unaccompanied that way.
    To shift gears just a little bit, on Monday, McAllen agents 
working near Hidalgo, Texas, arrested eight illegal aliens 
shortly after they entered the U.S. When they did the 
background check, a Mexican man's records checked that he had 
been arrested in Cobb County, Georgia, for child molestation. 
Later that night, agents from the Rio Grande City, working near 
Roma, Texas, arrested a Honduran mule. Records checks indicated 
that he had been arrested and convicted in North Carolina for 
indecent liberties with a child.
    Tuesday morning, Arlington agents working near Progressa, 
Texas, arrested 16 illegal aliens after making their illegal 
entry into the United States. Record checks for a Honduran man 
revealed he is a member of MS-13, a gang with a criminal 
history that included aggravated assault with a deadly weapon, 
kidnapping, false imprisonment, State of Florida. The Border 
Patrol is processing these subjects.
    And that is a real issue. People are coming into this 
country, and they are all not children. They are all not with 
their parents. We have a situation at our border.
    But I am hearing today things like toxic distress and 
traumatic life experiences. So let's talk about some of those. 
How about the traumatic life experience of having your loved 
one murdered by an illegal alien, like Kate Steinle or Brian 
Terry, or the David family, or countless other Angel Moms and 
Angel Dads who will never hold their children in their arms 
again because of violent illegal aliens?
    How about the traumatic life experience of having your 
neighborhood taken over by MS-13? Having your school terrorized 
by illegal alien gangs? American children raped, beaten, and 
murdered by MS-13 thugs? The President mentioned one in New 
York on the subway, the first subway murder in I don't know how 
many years there, by MS-13 gang members. That is toxic distress 
for American families that they face every day because of 
illegal immigration.
    So we are not here today to talk about asylum reform or 
changing the Flores Settlement or building the wall or 
mandatory E-Verify. We are not talking today about illegal 
immigration magnets that created the incentives for illegal 
families to do the stupid things that endanger their kids by 
traveling thousands of miles across a desert to come in the 
country that they may or may not get asylum or citizenship 
from.
    We are not talking about the drug trafficking of the meth, 
and the fentanyl, and the cocaine, and the marijuana that is 
pouring across our southern border. We are not talking about 
the sex trafficking today and human trafficking in general that 
happens along our southern border. We are not talking today 
about sanctuary city policies. We are not talking about the 
murder of American citizens on American soil by illegal 
immigrant thugs. We are not here to discuss how to end the 
crisis at our border by strengthening American security. No, we 
are here playing politics to muddy this President and the laws 
that are on the books that require what is going on.
    Now I mentioned earlier today, when children are 
apprehended at the border, either alone or with someone, we 
need to make sure that that person they are with is a relative 
or a parent. So get that child away from maybe a potentially 
dangerous situation. I just mentioned some--child trafficking, 
human trafficking, sex trafficking--that affects children. 
Let's separate that child and make sure that that person is who 
they say they are, that there is a DNA test, make sure that 
that child who has just traveled thousands of miles is healthy.
    They don't all get the inoculations that we get and give to 
our children here in this country. So there is a potential that 
they have the diseases that we have beat back in this country 
that they could be bringing in and exposing American children 
when they are relocated in our communities. That is important, 
to make sure that that child is healthy and he gets the 
vaccination that is needed.
    And then we will figure out if that person that he came 
with is a parent or, if he is alone, maybe there is somebody in 
the country that will take care of that child. That takes a 
little bit of time. You can't do it overnight, and many times 
you can't do it in 72 hours.
    And so, when I talk to the Office of Refugee Resettlement 
and I talk to the folks at HHS, they are doing the best they 
can to make sure that those kids have a comfortable, safe 
environment to live in while we are figuring all this out, 
places to kick a soccer ball and interact with other kids while 
we are figuring this out, because heaven forbid we release a 
child into the country that ends up in Atlanta, Georgia, during 
the Super Bowl, providing a service because they are a sex 
slave in this country. It is hard for me to fathom that we even 
have that going on in this country.
    But it is Shine a Light on Slavery Day, and it is going on 
around the world, and we can put an end to it.
    And with that, I yield back.
    Ms. DeGette. The gentlelady from New York is recognized for 
5 minutes.
    Ms. Clarke. I thank you, Madam Chair, and I thank the 
ranking member.
    I thank our experts for being here and sharing with us 
their observations and the work that they are doing.
    My colleague, I know, was not trying to make us believe 
that he is in favor of innocent individuals having their 
children orphaned by a broken process that was established 
under this administration.
    And so I just want to focus in once again on why we are 
here. There are innocent families who have been separated at 
the border, and an incompetent administration that did not take 
into account all of the steps that need to be in place to 
accept individuals into our Nation as refugees along with their 
children.
    I wanted to ask a couple of questions. Dr. Muniz de la 
Pena, I understand that your clinic has also provided services 
to children who have been affected by this policy. Could you 
describe some of your firsthand experiences in working with 
these children and their families?
    Dr. Muniz de la Pena. One of the first experiences that was 
different from the general unaccompanied immigrant children 
population that we see is that it was younger ages. And so, the 
trauma, how it showed up, the stress was very different, from a 
7-year-old who was sobbing from the minute she was in the room 
and I started asking questions and couldn't talk the entire 
session and hung onto me because that's all she could do, from 
the child I described earlier with disassociation symptoms, so 
he couldn't even be present to answer the questions about that, 
but he was able to answer any questions about what sports he 
played or what toys he liked. A teenager who was depressed and 
feeling hopeless and helpless that nothing else was going to 
change in her life, because that's what trauma does to you. 
When terrifying experiences happen to you that you don't have 
control over, you might generalize that to any experience in 
your life and any figure of power in your life.
    Ms. Clarke. And how would you say that these experiences 
have impacted the mental health of the children that came 
through your clinic, both now and in the long term?
    Dr. Muniz de la Pena. In the short term, you see a lot of 
symptoms of acute stress, so a lot of anxiety. I have a way of 
describing this. Children and humans in general, we tend to 
internalize this stress or externalize it. When we internalize 
it, we become depressed, we become anxious. There's low self-
esteem, fear. When you externalize it, you are the kind of 
person that acts out, that becomes loud, that has impulsivity. 
So you see that in the children in the short term.
    In the long term, the way that you relate to people is 
affected, the way that you feel about yourself, the way you 
feel about the world, the beliefs you have and perceptions and 
expectations you have about others, the way you are able to 
love your family, your own children in the future, your 
partner. So it affects the basic elements of your life 
experience.
    Ms. Clarke. Very well.
    Dr. Linton, you mentioned in your testimony that you have 
served patients who were separated from a parent as a result of 
this policy. And your description of the boy and his mother who 
were separated for over a week is heartbreaking. One shudders 
to think how many children had to go through these experiences.
    But, Dr. Linton, from a clinical perspective, how were 
these children affected by the experience of being separated?
    Dr. Linton. Well, I think we can use the framework again of 
toxic stress to think about that, both the impact on the short 
term and then the impact on the long-term health. I think 
what's broader here and what's different about this particular 
set of children is that this is really Government-sanctioned 
child endangerment. So, rather than the experiences that a 
child had in country of origin that left the family with no 
choice but to flee, upon arriving on our border, rather than 
providing a response that was characterized by dignity, 
compassion, and respect, we've retraumatized the child and 
reinitiated the process of toxic stress, compounding that 
stress, as Dr. Ruiz mentioned, and furthering that stress, such 
that we have a much more serious risk of both short-term impact 
and long-term impact.
    I saw with that child, who had only been separated for a 
mere seven days, a serious physiologic reaction right in front 
of my eyes. And I can only imagine what that looks like, and I 
have seen what it looks like when it's much more prolonged.
    Ms. Clarke. Well, let me thank all of you. And I want to, 
in particular, thank you at the ACLU for taking on a role and 
responsibility that really wasn't necessarily part of your 
mission but has become a part of your mission. Our Nation is 
reeling from the realization of what the United States 
Government under this particular administration has done. And I 
really believe in the end we are going to have to start 
restitution. So I hope that the ACLU will look into ways and 
work with this Congress to look at what restitution could look 
like for these families, because there is no way that this 
crime against humanity should go just the way that it has.
    Mr. Gelernt. Thank you, Congresswoman, and we absolutely 
will.
    Ms. Clarke. I yield back.
    Ms. DeGette. The gentleman from Texas, Mr. Burgess, is 
recognized.
    Mr. Burgess. Thank you, Madam Chair.
    And thanks to our witnesses, our panel, for staying with 
us. This has been a long day, an important day, an informative 
day.
    Let me just be sure that I am clear on a couple of items. 
First, Mr. Gelernt, as we have heard throughout the course of 
this long day, the problem on the border during the Trump 
administration, but may have actually predated the Trump 
administration. So I remember going down in 2014, 2013. I think 
in the height of the surge of unaccompanied immigrant children 
in 2014 I remember a Customs and Border Patrol individual 
giving me a figure of we pick up 1,300 a day, we process 1,300 
a day, we have got 90 beds. So that was a problem.
    And ORR, subsequently, has said--one thing Mr. Duncan 
referenced, some of the appropriations that were done during 
the Obama administration. So, got more resources down there, 
but still it was a big problem to have to manage.
    At that point, children were being held at a reclaimed 
barracks in San Antonio at the Air Force Base there. Was ACLU 
involved in any of those cases?
    Mr. Gelernt. Well, Congressman, I would like to distinguish 
between two types of unaccompanied children. The first I think 
is what you are talking about, which are kids who were 
genuinely unaccompanied, coming here without a parent. And they 
need some place to go. I think that presents one issue.
    But what we're talking about here that's different than 
prior administrations is children being rendered unaccompanied, 
taken from their parents.
    Mr. Burgess. And let's stay with that concept for a minute. 
Because, in 2014, the child comes and is unaccompanied. Yes, 
it's Lackland Air Force Base. If they have a parent with them, 
the procedure, if I remember correctly, particularly down in 
south Texas, was they got dropped off at the parking lot at 
Sacred Heart Church in McAllen. And a volunteer at the church 
would provide a bus ticket, and off they would go. They had a 
notice to appear. And I referenced the term ``permiso.'' That 
was how it was referred to locally back in home country.
    So that was part of the problem, as well, because folks 
were just going into communities without really a lot of 
control, and no one knew who they were, where they were showing 
up.
    The pediatricians on the panel can tell us that there are 
some public health implications to that. 2014 saw one of the 
largest outbreaks of Enterovirus D68 that had ever been seen in 
this country. I am not saying it was a result of the surge of 
unaccompanied alien children and their family units, but 
certainly the timeline, it was August of 2014 when that 
occurred.
    Dr. Linton, you talked about you had a child that had 
recorded a seven-day separation, is that correct? In general, 
were the separations longer or shorter than that? You gave that 
one as an example.
    Dr. Linton. Yes. So the majority of the separations were 
much longer. And as the chair of the American Academy of 
Pediatrics Immigrant Health Special Interest Group, I have the 
privilege of connecting with pediatricians across the country 
who have cared for children who've been separated----
    Mr. Burgess. Let's stick with ones you, yourself, directly 
administered to.
    Dr. Linton. So I've seen children separated from anywhere 
from several days to several months.
    Mr. Burgess. And my understanding from information you 
provided to the staff, that there was a three-month separation?
    Dr. Linton. Yes, I did see a three-month separation.
    Mr. Burgess. Do you remember when that was?
    Dr. Linton. Yes. It was in a previous administration. And 
what I would add to that would be that what I learned from that 
was seeing the horrible short- and long-term effects of health 
that made me attune to what I may see in a future separation, 
which was then reported by pediatricians across the country.
    Mr. Burgess. So that occurred before the unenlightened 
Trump administration came to power. So that was 2015 or 2016?
    Dr. Linton. That separation was an example of one of the 
specific separations that may have occurred prior to systematic 
Government-sanctioned separation for merely crossing a border.
    Mr. Burgess. But what were the circumstances of that 
separation?
    Dr. Linton. I'm not privy to discuss the separation, but 
the mother was not reported to----
    Mr. Burgess. Well, I think it would be important, Madam 
Chairwoman, if there is some way you can provide in a public 
forum that----
    Dr. Linton. I think I can share that this woman was 
victimized by a gang and had fled as a result of that and was 
subsequently accused of violence, which she had not in fact 
willingly been part of. She was forced by----
    Mr. Burgess. See, I do agree with Mr. Duncan, and he said 
that he had requested from the Obama administration to perhaps 
consider additional funding for countries in Central America, 
and I don't disagree with that. I did travel down there this 
summer. Yes, there is a problem with violence, but the violence 
is begotten by corruption of their governments. I guess the big 
news this morning is there's a new President in El Salvador.
    Ms. DeGette. The gentleman's time has expired.
    Mr. Burgess. And he sounds to be a reformer. I encourage 
this administration to make the inroads and outreach to that 
new administration in El Salvador. We are not going to solve 
this problem----
    Ms. DeGette. The gentleman's time has expired.
    Mr. Burgess [continuing]. On the southern border. It is 
going to have to be solved farther upstream.
    Ms. DeGette. The Chair recognizes----
    Mr. Burgess. Thank you. I yield back.
    Ms. DeGette. The Chair recognizes the chairman of the full 
committee, Mr. Pallone.
    Mr.  Pallone. Thank you, Madam Chair.
    Some in the administration claim the family separation 
policy is over, the crisis is past, and we should move on. But, 
even if the administration has cleaned up their act, which 
remains unclear based on what we heard today, the children who 
were ripped from their families still suffer enormous physical 
and psychological consequences long after being reunited with 
their loved ones.
    So I just want to dive a bit deeper into the research that 
has been conducted on these impacts. I think it is safe to say 
that forcibly separating a child from their parent would 
disrupt that relationship and would substantially impact the 
stability and predictability of that child's environment, and 
this could cause immense damage to the child's development that 
would only compound the longer the disruption occurred.
    So let me just ask some questions in this regard. Dr. 
Shonkoff, what made the policy of forced separation uniquely 
damaging to the children affected by it?
    Dr. Shonkoff. That's a really good question. Uniquely 
damaging is that it was Government-ordered separation 
arbitrarily. Beyond that, it's not unique at all. I mean, this 
is not a new phenomenon for us to understand what the 
consequences are for children to be separated from their 
parents. And we know a lot about how to minimize the trauma and 
how to meet the needs. But I think the only thing in my mind 
that was unique was that I have no memory of the Government 
ever ordering kind of arbitrary separation of children from 
parents.
    Mr.  Pallone. And, Dr. Linton, is there anything you would 
add about what the research shows regarding the unique harms 
caused by the forced separation policy?
    Dr. Linton. I think I would add that, again, we're 
retraumatizing children who have already fled violence and are 
seeking safety. And then, doing that in a systematic way is 
much different than doing that on a case-by-case basis under 
the provision of child welfare standards where you're concerned 
for the safety of the child at the hand of a parent, and you 
have the supervision of a competent family court making that 
determination.
    Mr.  Pallone. Let me go back to Dr. Shonkoff. Is there any 
way to design a policy of forced separation that would not be 
harmful to children?
    Dr. Shonkoff. Any abrupt separation is traumatic for a 
child. The question of whether it's harmful depends upon what 
is prompting the need for separation. So I think the message 
here is really clear from any perspective. It is that 
separating children from their parents should have a very high 
threshold for being done. And when it's done, for whatever 
reason, it immediately creates an urgent situation of how do we 
protect the child from the effects of the separation.
    Mr.  Pallone. I am going to go back to Dr. Linton again. In 
your professional opinion, is there any research that shows 
that a policy of forced separation is good for children?
    Dr. Linton. There's no evidence at anytime a separation 
from a parent is good for children.
    Mr.  Pallone. Well, let's say if the Government had 
consulted you on a family separation policy. What would you 
have told them?
    Dr. Linton. I would have told them that separation of a 
parent and a child should never occur unless there are concerns 
for the safety of that child at the hand of a parent and a 
competent family court makes that determination with the best 
interest of the child at hand.
    Mr.  Pallone. And, Dr. Muniz, can I ask you to comment on 
that too, the same thing?
    Dr. Muniz de la Pena. Yes. I think that we have systems in 
place already in each State to investigate cases where there is 
indication of child abuse or neglect. And so, that can inform 
the process in which we separate those children. But it takes a 
lot legally for a court to take away a child from a parent. It 
doesn't happen immediately without signs of immediate harm, 
physical, especially physical. So I think we have already 
systems that we could use.
    Mr.  Pallone. I appreciate all this. I mean, I know I sound 
like a broken record, Madam Chair. And I know that HHS is not 
in charge of the separation. They are not the agency that 
orders the separation and when people are separated.
    But I just think that, when I weigh these things, and even 
today, based on the advocates in my district that I talk to, 
they are very concerned about the fact that, even today, that 
sometimes--I don't know how often--children are separated from 
their parents at the border because there is this sort of 
innate concern that they shouldn't be taking the kids off to 
the border and there is something wrong with the parents that 
do that.
    I experienced that too, as I said earlier, when I went to 
visit the fathers that I visited in New Jersey on Father's Day, 
that there was this sort of notion by the people that were 
watching them that, just because they brought the kids over the 
border, that they are bad parents. And it seems to me that, 
even if you believe that, which I don't, the harm that is done 
by separating them is so much worse than if they were kept with 
the parent.
    And so I think what Dr. Linton said is true, that unless 
you have--what did you say? You said that you actually would 
want to see it litigated in court before it was done, that this 
parent was abusive or this parent, you know, it was something 
harmful to the child. And I agree with you.
    Thank you, Madam Chair.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    The Chair now recognizes the gentleman from Florida, Mr. 
Soto, 5 minutes.
    Mr. Soto. Thank you, Madam Chair.
    And I spoke a little bit before about my experience at the 
Homestead facility in south Florida in our home State. And that 
was after being blocked from getting to go the first time, 
where we saw 1,179 teenagers, primarily from Honduras, 
Nicaragua, El Salvador, there. Many of them were there because 
of the family separation policy.
    And this idea that it is an act of negligence by a parent 
or somehow this is de facto proof that a parent was doing 
something bad for their kid is just totally false. When you 
look at, unfortunately, the war-torn countries down there and 
the drug cartels, this is an act of love. I mean, I don't think 
anybody can deny that this is a loving parent who doesn't want 
their kids condemned to death or being conscripted in drug 
cartels.
    We saw a surge of folks in the Homestead facility, among 
many others, when the family separation policy happened. We 
also saw a bottlenecking of them afterwards due to certain 
policies. One of those that both created this bottleneck and 
weaponized HHS was the announcement of a formalized memorandum 
of agreement to share information, including immigration 
status, of potential child sponsors. I have seen many folks who 
have raised serious concerns about this, the idea of using 
information obtained from detained immigrant children to try to 
deport their parents. It risks weaponizing ORR into becoming an 
immigration enforcement arm of DHS. A hundred and seventy such 
people were deported by ICE as a result of that information 
sharing.
    First, Ms. Podkul, KIND stated last June that the proposed 
information collection under the MOA will, quote, ``alter 
longstanding practice and frustrate the ability of the ORR to 
place children in the least restrictive setting in their best 
interest.''
    Ms. Podkul, how does the MOA interfere with ORR's ability 
to act in the child's best interest?
    Ms. Podkul. Sure. When Congress gave the responsibility of 
unaccompanied children to ORR, what they did is they separated 
who was going to be doing the immigration enforcement--that was 
going to go to DHS--and then the care and custody of children 
would be a completely different arm of Government. And the goal 
was that agency could prioritize child welfare. And then we had 
a whole other department and agencies who were responsible for 
immigration enforcement.
    Up until the MOA, ORR was never using information they were 
gathering. That was never intended to go to ICE for immigration 
enforcement purposes. What ORR was doing is they were finding 
the best possible person who was willing to care for the child, 
at no cost to the Government, while that child goes through 
their court process.
    Mr. Soto. Thank you.
    Mr. Gelernt, in Secretary Nielsen's and Secretary Azar's 
last November letter, the ACLU joined 111 national 
organizations urging the reversal. Could you describe any 
firsthand examples of the chilling effect on potential sponsors 
and how that impacts children and families?
    Mr. Gelernt. Yes. I think what we're seeing is families 
being scared to come and sponsor children. We feel like they're 
being deterred from coming forward.
    Also, some of the procedures that have been put in place, 
the delays in fingerprinting, fingerprinting everyone in the 
household, some of these changes we think are creating real 
delays in getting children out. And so that detention centers 
are filling up unnecessarily.
    Mr. Soto. Thank you.
    And, Dr. Muniz de la Pena, what would the impacts be on a 
child faced with the possibility that they might put family 
members at risk for arrest or deportation by naming them?
    Dr. Muniz de la Pena. Well, there is already research about 
the impact that the fear of the deportation of your caretaker 
does for children, and it is similar to what has been discussed 
in terms of toxic stress. Because just the fear of losing your 
caretaker can create that fear of harm to your well-being. So, 
I think that the harm is obvious.
    Mr. Soto. And, Dr. Linton, are there potential compounding 
effects of both the possible extended separation due to this 
MOA and the related guilt/responsibility placed on these 
children?
    Dr. Linton. Yes. I think we've heard today from our panel 
that prolonged separation increases the risk of both the short- 
and long-term effects of that stress response on the developing 
brain and the developing body of children who have been 
systematically separated.
    Mr. Soto. Thank you.
    And I just want to end by saying, you know, this is a legal 
act, coming to this Nation seeking asylum. This isn't even an 
unlawful entry. And there's a humane way of doing this. Unless 
there is cause, then we should be using ankle bracelets and 
letting kids go to the best caretaker they have and let the 
immigration process sort itself out, rather than this 
separation to try to deter in the most inhuman way that the 
greatest nation in the world could possibly do. And it doesn't 
even serve as an effective deterrent in the process.
    And with that, I yield back.
    Ms. DeGette. I thank the gentleman for yielding.
    With unanimous consent, we will enter the letter offered by 
Dr. Muniz de la Pena from the American Psychological 
Association into the record.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. And I really want to thank all the witnesses 
for coming today. This was the first hearing this committee has 
had on the unaccompanied minors and the family separation, and 
it has been a very important hearing. I appreciate you sticking 
with us for the whole day.
    And I want to let you and also the previous panel know that 
the investigation continues. We are still waiting for documents 
from HHS about how far up this policy went. And we are also 
still looking at what the policies are. And so we can expect 
more action.
    I remind Members that, pursuant to committee rules, they 
have 10 business days to submit additional questions for the 
record to be answered by witnesses who have appeared before the 
subcommittee. And I ask that the witnesses agree to respond 
promptly to such questions, should you receive any.
    With that, the subcommittee is adjourned.
    [Whereupon, at 4:32 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    From: Jonathan White, Commander, United States Public 
Health Service Commissioned Corps

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
